p

Appendices
PETITION FOR WRIT OF CERTIORARI
Volume I

of VI

In The
Supreme Court of the United States
June 23rd, 2021

TABLE OF APPENDICES
VOLUME I
Appendix A
Judgment from the United States District Court District of Nevada

2a

Appendix B
116a

Application for Return of the Child
VOLUME n
Application for the Return of the Child (continued)

416a

Appendix C
Dale Richardson Asylum from Torture by Freemasons

543a

Appendix D
Ellen G. White Expose of the Freemasons

560a

Appendix E
602a

Supreme Court of Canada
Appendix F

735a

Federal Court of Canada
VOLUME m
Federal Court of Canada (continued)

831a

Appendix G
Court of Appeal for Saskatchewan Corruption,

868a

VOLUME IV
Court of Appeal for Saskatchewan Corruption (continued)

1246a

Appendix H
Federal Court of Canada

1299a

VOLUME V
Federal Court of Canada (continued)

i

1661a

la

Appendix A

2a
Judgment from the United States District Court District of Nevada
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 1 of 6

1

UNITED STATES DISTRICT COURT

2

DISTRICT OF NEVADA

3
4

KAYSHA DERY RICHARDSON,

5

Case No. 2:20-cv-02218-JAD-DJA
Petitioner
Order Dismissing Habeas Petition

6

v.
[ECFNo. 1]

7

ATTORNEY GENERAL of the UNITED
STATES, et al.,

8

Respondents

9

10

Immigration detainee Kaysha Dery Richardson petitions for a writ of habeas corpus

11

under 28 U.S.C. § 2241,1 seeking review of her immigration proceedings. On initial review

12

under the Rules Governing Section 2254 Cases,2 I find that her petition is plagued by

13

jurisdictional defects, so I dismiss the petition without prejudice.

14

Background3

15

Richardson is a citizen of Canada with Metis indigenous heritage.4 She filed the petition

16

on December 8, 2020, to challenge her continued detention at the Nevada Southern Detention

17

Center in Pahrump, Nevada.5 Upon entry to the United States, on October 1, 2020, she was

18

detained by the U S. Immigration and Customs Enforcement division of the Department of

19

Homeland Security (“DHS”). Richardson then filed an application for asylum or withholding

20

from removal based on her race, religion, and political position. An asylum officer interviewed

21

her and determined that she did not establish a credible fear of persecution.6 The petition alleges

22
23
24
25
26

i

ECF No. 1. Petitioner paid the $5.00 filing fee when filing the petition. ECF No. 1-8.

2 All references to a “Habeas Rule” or the “Habeas Rules” in this order identify the Rules Governing
Section 2254 Cases in the United States District Courts.
3 This procedural history is derived from Richardson’s allegations and exhibits.
4 The Canadian government recognizes the Metis as a distinct indigenous people, See First Nations
People, Metis andlnuit in Canada: Diverse and Growing Populations, Statistics Canada (Mar. 20, 2018),
https://wwwl50.statcan.ge.ca/nl/pub/89-659-x/89-659-x2018001-eng.htm.

27

5 Richardson did not sign the petition herself. Instead, it was signed and submitted by “her advocate ‘any
person’ Robert Cannon.” See ECF No. 1 at 10.

28

(’Id. at 93-97.

1

r/
3a
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 2 of 6

1

that the asylum officer refused to consider evidence she provided and failed to examine all

2

relevant considerations. She appealed the negative finding of credible fear to an immigration

3

judge (“IJ”), but no decision was issued by the time her petition was filed.7

4

Richardson alleges that the petition arises under the United States Constitution, the

5

Immigration and Nationality Act (“INA”),8 the United Nations Convention Against Torture, and

6

the United Nations Refugee Convention. She claims that her detention is arbitrary, unlawful,

7

and violates the Fourth, Fifth, and Eighth Amendments. In the prayer for relief, Richardson asks

8

the court to assume jurisdiction over this matter, order respondents to release her on her own

9

recognizance, and grant any other relief deemed proper for both her and “her advocate ‘any

10
11

person’ Robert Cannon.”9
I take judicial notice of the status of the proceedings in Richardson’s immigration case

.12

before the Las Vegas Immigration Court.10 On December 17, 2020, the IJ affirmed DHS’s

13

decision regarding asylum or withholding from removal. Richardson has yet to appeal that

14

decision to the Board of Immigration Appeals (“BIA”) or file a petition for review in the United

15

States Court of Appeals for the Ninth Circuit,11 and no future hearings are currently scheduled.

16
17
18

Discussion
As an initial matter, I find that the petition was improperly submitted by Robert Cannon
as Richardson’s “advocate ‘any person.’”12 Pro se parties may not pursue claims on behalf of

19
20
21
22

7 ECF No. 1 at 4 (“It has been forty-three (43) days since the credible fear of persecution interview and
the Petitioner has had no review of determination by an immigration judge and no guarantee that she ever
will.”).
8 8 U.S.C. § 1101 et seq,

23

9 ECF No. 1 at 10.

24

10 See, e.g., Dent v. Holder, 627 F.3d 365, 371 (9th Cir. 2010) (courts may take “judicial notice of the
agency’s own records”) (citing Using v. I.N.S., 124 F.3d 996, 999 (9th Cir. 1997)). Automated case
information may be accessed online at https://portal.eoir.justice.gov/InfoSystem/Form?Language=EN.

25

27

111 also take judicial notice of the Ninth Circuit’s online docket records. See Harris v. County of Orange,
682 F.3d 1126, 1131—32 (9th Cir. 2012). The Ninth Circuit’s docket records may be accessed at
www.pacer.gov. As explained in this order, the Ninth Circuit has exclusive jurisdiction over any petition
for review arising from the Las Vegas Immigration Court.

28

12 ECF No. 1 at 10.

26

2

4a
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 3 of 6

1

others in a representative capacity.13 Only a licensed attorney—an active member of the State

2

Bar of Nevada admitted to practice under the Nevada Supreme Court Rules— is authorized to

3

represent a client in Nevada.14 In federal courts, “the parties may plead and conduct their own

4

cases personally or by counsel.”15 No rale or statute permits a non-attorney to represent any

5

other person, a company, a trust, or any other entity.16 Cannon will not be permitted to engage in

6

the unauthorized practice of law by purporting to represent or act on behalf of Richardson.

7

Moving forward, Camion is prohibited from submitting documents on Richardson’s behalf, and

8

Richardson must plead and conduct her own case personally.

9

Turning to initial review, Habeas Rule 4 requires the assigned judge to examine a habeas

10

petition and order a response unless it “plainly appears” that the petitioner is not entitled to

11

relief17 This rule allows courts to screen and dismiss petitions that are patently frivolous, vague,

12

conclusory, palpably incredible, false,18 or plagued by procedural defects.19 Federal district

13

courts may grant a writ of habeas corpus when a person is “in custody in violation of the

14

Constitution or laws or treaties of the United States.”70

15
16

But Congress has restricted judicial review of immigration matters.21 To accomplish
“streamlined judicial review,” the REAL ID Act of 200522 eliminated the district courts’ “habeas

17
18
19
20
21
22

13 See, e.g., Simon v. Hartford Life, Inc., 546 F.3d 661,665 (9th Cir. 2008) (collecting cases); Russell v.
United States, 308 F.2d 18,79 (9th Cir. 1962) (“A litigant appearing in propria persona has no authority
to represent anyone other than himself.”).
14 Guerin v. Guerin, 993 P.2d 1256, 1258 (Nev. 2000) (citing NRS 7.285); Martinez v. Eighth Jud. Dist.
Ci., 729 P.2d 487,488 (Nev. 1986) (an individual “has no right to be represented by an agent other than
counsel in a court of law”).
15 28 U.S.C. § 1654 (emphasis added).
16 Jackson v. United Artists Theatre Circuit, Inc., 278 F.R.D. 586, 596 (D. Nev. 2011).

23

17 See Valdez v. Montgomery, 918 F.3d 687, 693 (9th Cir. 2019).

24

18 Hendricks v. Vasquez, 908 F.2d 490, 491 (9th Cir. 1990) (collecting cases).

25
26

'9 See Boyd v. Thompson, 147 F,3d 1124, 1128 (9th Cir. 1998).
2,128 U.S.C. § 2241(c)(3).

27

21 Alvarez-Barajas v. Gonzales, 418 F.3d 1050,1052 (9th Cir. 2005); see also 8 U.S.C. § 1252(a)(5)
(notwithstanding § 2241 or any other habeas provision, “a petition for review filed with an appropriate
court of appeals ... shall be the sole and exclusive means for judicial review of an order of removal”).

28

22 Pub. L. No. 109-13 Div. B, 119 Stat. 231.

3

5a
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 4 of 6

1

jurisdiction, including jurisdiction under 28 U.S.C. § 2241, over final orders of deportation,

2

exclusion, or removal” and made “the circuit courts the ‘sole’ judicial body able to review

3

challenges to final orders of deportation, exclusion, or removal.”23 In addition, matters involving

4

the Attorney General’s “discretionary judgment” are generally precluded from judicial review.24

5

Dismissal of a § 2241 petition is appropriate where the petition challenges orders of deportation,

6

exclusion, or removal.23

7

District courts retain narrow habeas jurisdiction to review “bond hearing determinations

8

for constitutional claims and legal error” following administrative exhaustion.26 The Ninth

9

Circuit has outlined the proper procedure for challenging immigration bond determinations.27

10

Once a non-citizen has received a bond hearing before an IJ, she may appeal the IJ’s decision to

11

the BIA,28 If the non-citizen “is dissatisfied with the BIA’s decision, [s]he may then file a

12

habeas petition in the district court, challenging continued detention.”29 The district court’s

13

decision on the habeas petition may be appealed to the Ninth Circuit.30 In a case by non-citizen

14

who does not follow this course and thus fails to exhaust administrative remedies before

15

pursuing habeas relief, “a district court should ordinarily dismiss the petition without prejudice

16

or stay the proceedings until the petitioner has exhausted administrative remedies, unless

17
18
19

20
21
22

23 Alvarez-Barajas, 418 F.3d at 1052.
24 See 8 U.S.C. § 1252(g). The 1NA explicitly exempts asylum determinations from the jurisdictional bar
over discretionary decisions, but judicial review occurs in the courts of appeal—not in the district court
on a § 2241 habeas petition. Morales v. Gonzales, 478 F.3d 972, 979 (9th Cir. 2007) (citing 8 U.S.C.
§ 1252(a)(2)(B)(ii)), abrogated on other grounds as stated by Anaya-Ortiz v. Holder, 594 F.3d 673, 678
(9th Cir. 2010).

23

25 Puri v. Gonzales, 464 F.3d 1038, 1041 (9th Cir. 2006).

24

26 Singh v. Holder, 638 F.3d 1196, 1200 (9th Cir. 2011) (citing Demore v. Kim, 538 U.S. 510, 516-17
(2003)).

25
26

27 Leonardo v. Crawford, 646 F.3d 1157, 1159 (9th Cir. 2011) (citing Casas-Castrillon v. Dep’t of
Homeland Security, 535 F.3d 942 (9th Cir. 2008)).
28 Id.

27

29 Id.

28

30 Id.

4

6a
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 5 of 6

1

exhaustion is excused.”31 This exhaustion requirement is subject to waiver in certain instances32

2

but is “ordinarily not optional. »33

3

Richardson’s petition does not clearly allege whether she seeks to challenge a removal

4

order, denial of asylum and withholding from removal, indefinite detention, or a bond

5

determination.34 However, jurisdiction is not proper for any such challenge. The Ninth Circuit

6

is the sole judicial body with jurisdiction to entertain a petition for review addressing removal,

7

withholding of removal, or asylum. Although this court has jurisdiction to the extent Richardson

8

seeks review of a bond determination, the petition does not allege or demonstrate administrative

9

exhaustion, i. e., that Richardson moved for bond in the Las Vegas Immigration Court, an IJ

10

issued a decision, Richardson appealed the IJ’s decision to the BIA, and the BLA issued a

11

decision. Instead, the petition and exhibits indicate that Richardson sought review of the asylum

12

officer’s negative credible-fear determination. This was insufficient to exhaust any detention or

13

bond claims. 35 Richardson may not pursue habeas relief regarding detention or bond until both

14

an IJ and the BIA have considered her claims. The petition does not seek waiver of exhaustion,

15

nor does the record demonstrate that waiver is appropriate. Accordingly, I dismiss the petition

16

without prejudice.
Conclusion

17
18

IT IS THEREFORE ORDERED that:

19

1. Petitioner Kaysha Dery Richardson’s Petition for Writ of Habeas Corpus [ECF No. 1]

20
21

is DISMISSED without prejudice.
2. A certificate of appealability is DENIED, as jurists of reason would not find dismissal

22
23
24
25

31 Id. at 1160 (noting that a § 2241 petition may be properly pursued “[o]nce the BIA renderfs] its
decision”); Laing v. Ashcroft, 370 F.3d 994, 1000 (9th Cir. 2004) (habeas jurisdiction under “§ 2241 is
ordinarily reserved for instances in which no other judicial remedy is available”) (citation omitted).
32 Hernandez v. Sessions, 872 F.3d 976, 988-89 (9th Cir. 2017).
33 Castro-Cortez v. INS, 239 F,3d 1037, 1047 (9th Cir. 2001).

26

34 See generally ECF No. 1.

27

35 See Leonardo, 646 F.3d at 1160 (citing Rojas-Garcia v. Ashcroft, 339 F.3d 814, 819 (9th Cir. 2003) (a
petitioner “must exhaust administrative remedies before raising .. . constitutional claims in a habeas
petition when those claims are reviewable by the BIA on appeal”)).

28

5

A

K!
7a
Case 2:20-cv-02218-JAD-DJA Document 3 Filed 01/27/21 Page 6 of 6

1
2
3

of the petition to be debatable or wrong.
3. Robert Cannon is prohibited from submitting any future documents on Richardson’s
behalf, and Richardson must sign and submit any future documents personally.

4

IT IS FURTHER ORDERED that the Clerk of Court is instructed to:

5

1. MAIL a copy of this order to:

6
7
8
9
10
11
12
13
14

a. Kaysha Dery Richardson
Nevada Southern Detention Center
2190 East Mesquite Avenue
Pahrump, Nevada 89060
b. Robert Cannon
1102 Ave. L North
Saskatoon, Canada S7L 2S1
2. UPDATE the docket to reflect the Nevada Southern Detention Center as Richardson’s
current address.
3. ENTER FINAL JUDGMENT dismissing this action, and CLOSE THIS CASE.
Dated: January 27, 2021

15
16

U.S. District Judgfe-JdnniferA/Dorsey

17
18
19
20
21
22
23
24
25
26
27
28

6

8a

Kaysha F.N. Dery
1292 95th Street,
North Battleford, SK S9A 0G2

Tel:
Email:

1 306 441-7010
kaysha.dery@gmail.com

February 28, 2021
United States Court of Appeals for the Ninth Circuit
The Richardson H. Chambers Courthouse
1626 229-7250
Tel:
125 South Grand Avenue
Email:
questions@ca9.uscburts.gov
Pasadena, CA91105
To the UNITED STATES COURT OF APPEALS,
I, Kaysha F.N. Dery, a Canadian citizen an Mferis card holding citizen, was
hindered from exercising my CHRISTIAN DUTY by those who conspired to restrict my
physical and religious liberty. I was punished for my father DALE J.S. RiCHARDSON’s
whistle-blowing of the mismanagement of the Covid emergency in SASKATCHEWAN,
and I fled to the UNITED STATES for safety as I was being tortured by the CANADIAN
government.
Despite the fact that I am being arbitrarily detained and tortured in the UNITED
States, I more scared of Canada as I was detained, isolated, and tortured in a
maximum security prison for the criminally insane without cause and my father
DALE was strapped to a bed and drugged against his will for his CHRISTIAN BELIEFS
and for agreeing with certain elements of the political opinion of the JESUIT
affiliated CARLO MARIA VlGANd, Titular Archbishop of Ulpiana, about how the
mismanagement of' the Covid emergency is being used to build a world without
freedom through the dissolution of social order: Solve et Coagula as the MASONIC
adage teaches.
Attached to this transmittal is a petition for writ of certiorari with me as the pro se
applicant and motion to extend in a habeas corpus matter which relates to genocide,
crimes against humanity, and crimes of aggression. The appendices, filing fee, and
additional copies will be mailed to this Court shortly.
Sincerely,

X fCovpAjty.
KayshaTf.N. Dery

*

f)

9a

Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
United

In The
States Court of Appeals
February 28, 2021

10a

No.

3fn ®f)e
fKntteb States Court of Appeal

KAYSHA F.N. DERY
Pro Se Applicant,
v.
Attorney General of the United States;
U.S. Department of Homeland Security;
U.S. Citizenship and Immigration Services;
U.S. Immigration and Customs Enforcement;
Scott Robinson, ZCH 193;
Nevada Southern Detention Center;
and Brian Koehn.
Respondents.
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
Kaysha F.N. Dery
1292 95th Street,
North Battleford, SK S9A 0G2
1 306 441-7010
Tel:
Email: kaysha.dery@gmail.com

rj

11a

QUESTIONS PRESENTED
1. Are the INDIGENOUS PEOPLES and METIS subject to the Immigration and
Na tionality Act?
2. Do the INDIGENOUS Peoples and Metis have the right to be represented in

government and to petition congress for a redress ofgrievance?
3. Is evicting an INDIGENOUS PERSON and METIS from the UNITED STATES a

restriction of their liberty and a form of illegal confinement?
4. Is it constitutional to detain a person under any law that is not criminal law?
5. Is it constitutional for a person or persons to be deprived of life, liberty, or
property by IMMIGRATION COURT when the same is not part of the United
STATES judicial branch responsible for the due process oflaw!
6. Given the common law nature of the Privilege of Writ ofHabeas Corpus, does

a corrupt court constitute a suspension of the Privilege of Writ ofHabeas
Corpus for person or persons held within its jurisdiction?
7. Is suspending the Privilege of Writ of Habeas Corpus for any reason and by

any means not permitted by the United States Constitution an act of treason
or the invariable pursuit of the OBJECT?
THE GREAT WRIT
The Great Writ, known as the Privilege of Writ of Habeas Corpus, is
guaranteed by the United States Constitution except in the case of Rebellion or

12a

Invasion for the prevention or speedy relief of a person or persons seized or
imprisoned without due process of law and the Privilege of Writ of Habeas Corpus
upholds and is endorsed by the Universal Declaration of Human Rights which
purports that “No one shall be subjected to arbitrary arrest, detention or exile”.
The Privilege of Writ ofHabeas Corpus guarantees that “You shall have the
body” and when an Application for a Writ ofHabeas Corpus is submitted to a court,
justice, or judge on your behalf, the same shall forthwith direct the Writ to any
person who has seized or imprisoned you, such person must bring or cause your
body to be brought before the same within three days, unless distance requires
additional time, for an investigation into the lawfulness of your seizure or
imprisonment. Before slavery was abolished by the 13th Amendment except for
parties duly convicted for crime, the Privilege of Writ of Habeas Corpus was often
applied to alleged slaves claiming freedom held by private parties.
The Privilege of Writ of Habeas Corpus is a CHRISTIAN right that guards the
Life and Liberty of all people inside and outside of the UNITED STATES. Any person
or persons who attempts to suspend or worse abolish this CHRISTIAN right are ANTI­
CHRISTIAN and seek to abolish true CHRISTIANITY.
SUSPENSION OF THE GREAT WRIT
Canada and the United States arbitrarily suspended the Privilege of Writ
ofHabeas Corpus and the Universal Declaration of Human Rights that were
purportedly violated as part of a conspiracy to cover up the mismanagement of the

11

13a

Covid emergency in both jurisdictions to commit coordinated crimes of genocide,
crimes against humanity, and crimes of aggression. The Pro Se Applicant and
ROBERT A. Cannon (“Robert”) have been hindered from exercising all remedies
under both jurisdictions beyond reason for investigations into such coordinated
crimes which are the most serious crimes of concern to the international community
as a whole and CHRISTIANS and CATHOLICS everywhere given the involvement of the
United States District Court for the District of Nevada and the Supreme
Court of the United States.
The United States District Court for the District of Nevada located at
333 Las Vegas Blvd. South Las Vegas, NV 89101 received by mail an Ex Parte
Petition for a Writ of Habeas Corpus in the morning on December 7 of last year
submitted by ROBERT on behalf of and with the prior consent of the Pro Se
Applicant, the Pro Se Applicant received notice of an upcoming immigration hearing
that the afternoon. Such petition was officially filed the following day on December
8 of last year as a civil case with the case number of 2:20-cv-02218-JAD-DJA and
was misinterpreted as pro se legal representation under the name KAYSHA Dery
RICHARDSON and was suspended in violation of 28 U.S. Code § 2243 under the guise
of the following: “Due to this court's extremely heavy case load this review process
may take several weeks.” Such suspension in cooperation with the Pro Se
Applicants subsequent deportation ordered by JUDGE GLEN BAKER of IMMIGRATION
COURT would allegedly render the Writ of Habeas Corpus moot.

iii

14a

The Supreme Court of the United States located at One First St NE,
Washington, DC 20543 received by open Sling in person an Ex Parte & Pro Se
Original Application for Writ of Habeas Corpus on December 28 of last year
submitted by ROBERT on behalf of the Pro Se Applicant which purported the
foregoing suspension in the UNITED STATES DISTRICT COURT FOR THE DISTRICT OF
NEVADA. Such application was never accepted under the guise of the following: (1)
the original application for writ of habeas corpus was interpreted as an
extraordinary writ instead of original jurisdiction under 28 U.S.C. § 2241 and §
2242, (2) the application was not formatted as an extraordinary writ, (3) the
application would need a motion for forma pauperis despite the $300 filing fee being
provided as a cheque, (4) only an attorney can file habeas corpus for a detainee
which contravenes the foregoing codes, and (5) the ex parte application must be
served on the Respondents; these egregious lies in contravention to all forms of law
and subsequent return of documents and cheque by the court clerk constitute
suspension and an attempt to keep evidence of treason and terrorism out of court.
After failing to unlawfully deport the Pro Se Applicant which is a Metis card
holding citizen, JUDGE JENNIFER A. DORSEY of the UNITED STATES DISTRICT COURT
FOR THE DISTRICT of Nevada proceeded to hear the petition for a writ of habeas
corpus on January 27 of this year and dismissed it. JUDGE JENNIFER A. DORSEY
recognized that “Richardson alleges that the petition arises under the United States
Constitution, the Immigration and Nationality Act (“INA”), the United Nations
Convention Against Torture, and the United Nations Refugee Convention. She
iv

rj

15a

claims that her detention is arbitrary, unlawful, and violates the Fourth, Fifth, and
Eighth Amendments. In the prayer for relief, Richardson asks the court to assume
jurisdiction over this matter, order respondents to release her on her own
recognizance, and grant any other relief deemed proper”; however, the judge ignored
her claim under the UN Rights of Indigenous Peoples as a METIS card holding
citizen and her claim that she was not given her immigration hearing within seven
days pursuant to 235(b) (1) (B) (iii) (III) of the Immigration and Nationality Act which
both qualify the Pro Se Applicant for immediate release. JUDGE JENNIFER A.
DORSEY also ignored purports of UNITED NATIONS Convention against Torture and
Other Cruel, Inhuman or Degrading Treatment or Punishment (the “UN Torture
Convention”) violations relating to the credible fear of persecution interview process
not being a competent authority and thereby acquiesced. JUDGE JENNIFER A.
DORSEY claimed that the Pro Se Applicant was challenging the order of removal
which is at no point was purported; the Pro Se Applicant received her final order for
deportation on December 17 of last year which is reasonably demonstrable as a
result of the petition for a writ of habeas corpus. JUDGE JENNIFER A. DORSEY “took
judicial notice of the status of the proceedings in Richardson’s immigration case
before the Las Vegas Immigration Court”, a status that did not exist at the time of
filing. JUDGE Jennifer A. Dorsey proceeded to order the Pro Se Applicant to “sign
and submit any future documents personally” to which this appeal applies.
Such suspensions and dismissal in cooperation with final deportation orders
of the Pro Se Apphcant would yet again hinder an official investigation into the
v

1

16a

events surrounding the mismanagement of the Covid emergency relating to the Pro
Se Applicants arbitrary, unconstitutional, and unlawful detainments in both
CANADA and the UNITED States for whistle-blowing the mismanagement of the
Covid emergency. The Pro Se Applicant is currently being held in indefinite
detention under the guise of the Immigration and Nationality Act which this
petition for a writ of habeas corpus disproves.
NATIONAL AND INTERNATIONAL IMPORTANCE
The Ex Parte and Pro Se Original Application for Writ of Habeas Corpus
submitted to the SUPREME COURT OF THE UNITED STATES documented and
demonstrated by example “a long train of abuses and usurpations, pursuing
invariably the same object, evinces a design to reduce” the people of the UNITED
STATES OF America and those abroad “under absolute despotism”. The long train of
abuses and usurpations included without limitation the following:
(1) the genocide of CHRISTIANS, BLACK-CANADIANS, persons with disabilities,
METIS, and other INDIGENOUS PEOPLES which includes without limitation killing
them, causing them serious bodily and mental harm, deliberately inflicting on them
conditions of life calculated to bring about their physical destruction in whole or in
part, imposing measures intended to prevent births, and the forced transfer of their
children to other peoples;
(2) crimes against humanity including murder, extermination, enslavement,
deportation or forcible transfer of populations, imprisonment and other severe

vi

17a

deprivations of physical liberty in violation of fundamental rules of international
law, torture, sexual assault, enforced sterilization, and persecution based on
political, racial, national, ethnic, cultural, religious, gender and other grounds
universally recognized as impermissible under international law, enforced
disappearance of persons, the crime of apartheid, and other inhumane acts of a
similar character intentionally causing great suffering, and serious injury to body
and to spiritual, mental, and physical health; and
(3) the crime of aggression by MASONIC conspirators in planning, preparation,
initiation and execution of the mismanagement of the Covid emergency, to exercise
control over or to direct the political or military action of the UNITED STATES against
its own people and other CHRISTIAN nations, of an act of aggression which, by its
character, gravity and scale, constitutes a manifest violation of the CHARTER OF THE
UNITED Nations, specifically the invasion, attack, blockade, and bombardment of
other nations by armed forces.
PARTIES
This Writ of Certiorari to the United States Court ofAppeals for the Ninth
Circuit is on an Ex Parte Petition for a Writ of Habeas Corpus proceeding in which
the Pro Se Applicant is the Petitioner before the UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF Nevada. The Pro Se Applicant is a federal prisoner in
indefinite detention and in the physical custody of the Respondent BRIAN KOEHN,
warden of NEVADA SOUTHERN DETENTION CENTER in Pahrump, Nevada which is

vii

18a

contracted by U.S. DEPARTMENT OF HOMELAND SECURITY to detain alleged aliens
such as the Pro Se Applicant. The Respondents SCOTT ROBINSON, ZCH 193 from the
Chicago Asylum Office in the State of Illinois or his supposed successor
COLLAZO is a custodial official acting within the boundaries of the judicial district of
the United States District Court for the District of Nevada. The Respondent
SCOTT Robinson, ZCH 193 is an asylum officer under the authority of U.S.
Immigration and Customs Enforcement, which is under the authority of U.S.
Citizenship and Immigration Services, which is under the authority of U.S.
Department of Homeland Security, which is under the authority of the
Attorney General of the United States. The Pro Se Applicant is under the
direct control of the Respondents and their agents and pursuant to the Respondents
Scott Robinson, ZCH 193’s and Judge Glen Baker’s orders, the Pro Se Applicant
remains indefinitely detained.
The Pro Se Applicant is KAYSHA F.N. DerY which is a federal prisoner in
indefinite detention and in the physical custody under the colour of authority of the
United States which has suspended the Privilege of Writ ofHabeas Corpus in its
highest court, the SUPREME COURT OF THE UNITED STATES as part of a conspiracy to
cover up the mismanagement of the Covid emergency. She is a national and citizen
of Canada and a citizen of the Metis federation of Saskatchewan who was taken
into custody when seeking refugee on October 1 of last year at the SWEETGRASS
PORT of Entry in MONTANA: (i) on the basis of being METIS with ancestral
homeland in MONTANA under UNITED NATIONS Declaration on the Rights of
viii

19a

Indigenous Peoples (the “UN Rights of Indigenous Peopled’) which is not legally
binding and upon refusal, (ii) subsequently by applying for asylum with credible
fear ofpersecution from the SEVENTH-DAY ADVENTIST CHURCH which is the
centrally governed international church she attends, the corrupt courts, and the
corrupt national police force. She was detained by the Respondents under the guise
of unsuitable travel documentation despite providing a Canadian passport and
MlSTIS citizenship card among various other forms of identification.
JURISDICTION
This Court has jurisdiction for this Writ of Certiorari to the United States
Court ofAppeals for the Ninth Circuit pursuant 28 U.S.C. § 1291, § 2241, and §
2242 and article I, § 9, clause 2 of the United States Constitution. This action arises
under the United States Constitution, the UN Torture Convention, the UN Refugee
Convention, and the Immigration and Nationality Act. The Pro Se Applicant is
presently in custody under color of authority of the UNITED STATES and such
custody is in violation of the Constitution, laws, or treaties of the United States.
This Court may grant relief pursuant to 28 U.S.C. § 2241 or the All Writs Act, 28
U.S.C. § 1651; however, this petition shall not be construed as a means to acquire
monetary relief, and the Pro Se Applicant reserves the right to seek relief for her
arbitrary, unlawful, and unconstitutional detainment which is in violation of
international instruments binding in the UNITED STATES.

ix

20a

TABLE OF CONTENTS
QUESTIONS PRESENTED............... ,................................
THE GREAT WRIT...............................................................

i

SUSPENSION OF THE GREAT WRIT...............................

ii

NATIONAL AND INTERNATIONAL IMPORTANCE....,,

,.vi

PARTIES.... ............................................................................

,vn
ix

JURISDICTION

TO THE UNITED STATES COURT OF APPEAL:

1

STATEMENT OF THE CASE.

2

A. Engineering Reimagined....................................................

2

B. Criminal Negligence......... ............................... ...................

...3

C. The July 23rd Terrorist Attacks..............,........... .............

6

D. Habeas Corpus Ad Subjiciendum.................... .................

10

E. A Metis Plea for Safety and Asylum............ .....................

13

F. Another Habeas Corpus Ad Subjiciendum........... ........

14

G. Extreme Prejudice........... ........................................... ......

17

H. The Extraordinary Condition............................................

20

I. The Supreme Court of the United States........................ .

....22

J. Another Another Application for Writ of Habeas Corpus

,.24

K. Petition to Congress.,..... ......................................... ..........

25

L. More Extreme Prejudice....... ........................................... .

28

REASONS FOR GRANTING THE APPLICATION.

x

30

21a

TO THE UNITED STATES COURT OF APPEAL:
Pursuant to 28 U.S.C. § 1291, § 2241, and § 2242 and article I, § 9, clause 2 of
the United States Constitution, the Pro Se Applicant KAYSHA F.N. Dery, a national
and citizen of CANADA and a citizen of the METIS federation of SASKATCHEWAN, with
ancestral in the STATE OF MONTANA, respectfully requests a judicial review of her
petition for a writ of habeas corpus to overrule the suspension of the Privilege of
Writ of Habeas Corpus as part of a MASONIC conspiracy to cover up the
mismanagement of the Covid emergency which is an act of treason against the
UNITED States in the invariable pursuit of the OBJECT and article I, § 9, clause 2 of
the United States Constitution both authorizes and compels the upholding the
Privilege of Writ of Habeas Corpus.
CATHOLICS and Christians have had their rights and freedoms, specifically
the Privilege of Writ of Habeas Corpus, the free exercise of RELIGION, and the
unalienable rights to LIFE, Liberty, and pursuit of HAPPINESS, taken by the
MASONIC conspirators through the mismanagement of the Covid emergency, as
predicted by the JESUIT affiliated CARLO MARIA VlGANO, Titular Archbishop of
Ulpiana, when he alleged that such mismanagement has furthered the dissolution
of the social order so as to build a world without freedom: Solve et Coagula, as the
MASONIC adage teaches. The supposed presidential elect JOSEPH R. Biden, has
advocated further measures to be enforced in the name of the Covid emergency and
the United States District Court for the District of Nevada has endorsed his
claim by suppressing evidence of its mismanagement.
1

22a

STATEMENT OF THE CASE
A.

Engineering Reimagined
Dale J.S. Richardson (“Dale”) and his daughter Kaysha F.N. Dery (known

as the Pro Se Applicant, hereinafter “KAYSHA”) sought opportunity to minister
Seventh-Day Adventist Church doctrine to the Battlefords and surrounding
Indigenous communities (see Appendix A on page la and Appendix C on page 39a).
On April 1, 2020, DALE founded DSR KARIS CONSULTING INC. (“DSR KARIS”), a
Canadian federal corporation pursuant to the Canada Business Corporations Act
which is a distinct natural person under subsection 15(1) of the same, to further
this ministry, specifically in the field of mechanical engineering.
DSR KARIS, named after his infant daughter KARIS K.N. RICHARDSON
(“KARIS”), sought to help local businesses with their Covid response by installing
safe Heating, Ventilating, and Air Conditioning systems that mitigate the spread of
contagions, an essential service, and build a future for his children (see Appendix D
on page 46a); DALE would do anything for his children (see Appendix B on page 4a).
DSR KARIS was pursuing opportunities to help educate Indigenous persons and
women in the field of engineering and offered its essential services at cost to all notfor-profits and houses of worship in the Battlefords and surrounding areas in an
effort to help faith communities open their doors again, this is engineering
reimagined (see Appendix AC on page 372a). Unfortunately, due to a series of
coordinated efforts by unscrupulous persons, this ministry was hindered (see
Appendix Z on page 295a).
2

23a

B.

Criminal Negligence
DSR KARIS was hindered by the criminally negligent recommendations for

Covid response from the SASKATCHEWAN HEALTH AUTHORITY which motivated
businesses, already cash-strapped from the global shutdown, to hire unqualified
professionals to install Heating, Ventilating, and Air Conditioning systems to
mitigate the spread of contagions, such systems were not effective from an
engineering perspective and threatened the safety of the general public (see
Appendix AF on page 388a and Appendix AM on page 443a). After repeated pleas to
the SASKATCHEWAN Health Authority to have a qualified engineer review its
recommendations, on July 7, 2020, DSR KARIS notified INNOVATION CREDIT UNION
about the criminal negligence requesting that it fulfill its fiduciary duty to its
members by notifying them of the same as it related to the Non-Disclosure
Agreement that exists between them (see Appendix BX on page 776a). INNOVATION
CREDIT Union responded by conspiring to limit DSR KARIS’s access to INNOVATION
CREDIT Union and its members by ROYAL CANADIAN MOUNTED POLICE intervention
which was a breach of the Non-Disclosure Agreement (see Appendix BZ on page
798a). In response to a complaint of uttering threats made against Dale, he
provided evidence to the contrary and on June 16, 2020, the RCMP attempted to
return part of that evidence without conducting a proper investigation (see
Appendix BY on page 794a). DSR KARIS made a complaint and provided evidence to
the Royal Canadian Mounted Police about the criminal negligence under

3

24a

sections 219 and 220 of the Criminal Code of Canada which to its knowledge was
never investigated (see Appendix AN on page 447a).
While DSR KARIS was pursuing the foregoing, its Chief Executive Officer,
Dale, was being persecuted by the SEVENTH-DAY ADVENTIST CHURCH in collusion
with his wife KIMBERLY A. RICHARDSON (“KIM”) for adhering to its doctrine (see
Appendix E on page 57a, Appendix AB on page 364a, Appendix AE on page 379a,
Appendix AL on page 442a, and Appendix AK on page 436a) and his infant
daughter KARIS was kidnapped by his wife KlM on June 1, 2020 under threat of
ROYAL Canadian Mounted Police intervention and tortured as a person and third
person under 269.1 of the Criminal Code of Canada (see Appendix AJ on page 435a
and Appendix AN on page 447a). The members responsible for such persecution
advocate MASONIC dogma in the church (see Appendix BU on page 745a) and have
ties to the SASKATCHEWAN HEALTH Authority, even possessing the influence to
hire Dale's daughter KAysha as a permanent employee and peace officer at
SASKATCHEWAN Hospital where she was tortured under 269.1 of the Criminal Code
of Canada. KAYSHA made complaints to the CANADIAN UNION OF Public
EMPLOYEES about workplace safety, having prior knowledge of the criminal
negligence being the Chief Communication Officer of DSR KARIS, and about
discrimination against those of INDIGENOUS and METIS descent in her workplace to
which she belongs as she identifies as EUROPEAN, CARIBBEAN, and METIS (see
Appendix AP on page 482a and Appendix AQ on page 483a). Such discrimination
based on race by employees of SASKATCHEWAN HOSPITAL inflicts severe mental pain
4

1/

25a

and suffering on such minorities in their care and is torture under 269.1 of the
Criminal Code of Canada as all permanent employees of SASKATCHEWAN HOSPITAL
are peace officers and officials under the same.
In the interest of the general public, DSR KARIS with its low socioeconomic
status, sought remedy by pro se legal representation against the SASKATCHEWAN
HEALTH Authority for its criminal negligence under sections 219 and 220 of the
Criminal Code of Canada with INNOVATION CREDIT UNION and the ROYAL
CANADIAN Mounted Police as joint respondents for conspiracy and accessory after
the fact under sections 465(1) and 463 of the Criminal Code of Canada and with the
Seventh-Day Adventist Church as a joint respondent for its members affiliation
with the Saskatchewan Health Authority and their relentless persecution of its
Chief Executive Officer, DALE, and Chief Communication Officer, KAYSHA, which
seemingly happened in response to investigations into the SASKATCHEWAN Health
Authority, Innovation Credit Union, and the Royal Canadian Mounted
Police.
DSR KARIS submitted a pro se originating application in the COURT OF
Queen’s Bench for Saskatchewan in the Judicial Centre of Battleford on
July 16, 2020 which sought the following:
1. orders for an investigation into INNOVATION CREDIT UNION under The Credit
Union Act, 1998, a Saskatchewan statute;

5

1

26a

2. orders for the ROYAL CANADIAN MOUNTED POLICE to stop preventing DSR
Karis from contacting CONSTABLE SEKELA, the lead investigator for its
complaint; and
3. protective orders against the respondents as they had been threatening the
officers of DSR KARIS,
The in chambers date for such application was scheduled for July 23, 2020
(see Appendix AO on page 476a).
C.

The July 23rd Terrorist Attacks
After many failed attempts by the SASKATCHEWAN HEALTH AUTHORITY and

Royal Canadian Mounted Police to intimate and coerce Kaysha and her father
DALE from attending the hearing on behalf of DSR KARIS under the guise of the
Covid emergency and self-isolation, KAYSHA and her father DALE decided in the
interest of the general public and CHRISTIANS and CATHOLICS everywhere to attend
the hearing on behalf of DSR KARIS to expose the mismanagement of the Covid
emergency in Saskatchewan (see Appendix AR on page 487a).
On July 23rd, 2020 at approximately 10:00 AM CST, Dale, the power of
attorney for DSR KARIS, was detained under The Mental Health Services Act and
KAYSHA, the Chief Communication Officer for DSR KARIS, was detained under The
Public Health Act, 1994 while acting on behalf of DSR KARIS. DALE and KAYSHA
were both detained at the same time and place by six ROYAL CANADIAN MOUNTED
POLICE officers and the COURT DEPUTY SHERIFF for different reasons with no

6

27a

declared warrant in front of the COURT OF QUEEN’S BENCH FOR SASKATCHEWAN IN
the Judicial

Centre of Battleford minutes before they were to attend a hearing

for DSR KaRIS to expose the mismanagement of the Covid emergency in
SASKATCHEWAN (see Appendix AZ on page 547a and Appendix BA on page 556a). As
predicted by CONSTABLE Read during the unlawful arrest, JUSTICE R.W. ELSON
adjourned the hearing; it was adjourned sine die, meaning it could not be reopened
without the consent of the respondents.
While DSR KaRIS was pursuing the foregoing litigation, Dale’s wife filed for
divorce under the legal counsel of PATRICIA J. MEIKLEJOHN of MATRIX Law GROUP
LLP, the partner of CLIFFORD A. HOLM who was one of the influential persons
advocating MASONIC dogma in the church (see Appendix AI on page 433a). The in
chambers date for such divorce petition was scheduled for July 23, 2020 on the
same docket seemingly as punishment for pursing litigation on behalf of DSR KARIS
against the Seventh-Day Adventist Church, the Saskatchewan Health
Authority, Innovation Credit Union, and the Royal Canadian Mounted
POLICE for the mismanagement of the Covid emergency in SASKATCHEWAN. JUSTICE
R.W. ELSON also presided over Dale’s divorce case and on July 22, 2020 requested
that his wife KlM draft an interim order for the hearing the following day; JUSTICE
R.W. ELSON granted this interim order while DALE was absent, as he was detained
for mental health, which gave his wife KlM possession of their house and DSR
KARIS’s corporate records and registered office and gave her custody of KARIS (see
Appendix AY on page 540a). Later that day, KlM with her family and in the
7

28a

presence of the ROYAL CANADIAN MOUNTED POLICE came and took possession of
DSR KARIS’s property except for its corporate phone from its only remaining agent
through intimation and coercion by armed ROYAL CANADIAN MOUNTED POLICE
officers (see Appendix BL on page 634a).
When the foregoing Masonic conspirators discovered DSR KARIS’s articles of
incorporation, specifically the share transfer restrictions clause, they realized their
egregious failure (see Appendix AD on page 375a). The shares could only be
transferred upon consent through resolution by the sole director of DSR KARLS,
DALE, and declaring him mentally insane was of no consequence, the shares could
not be transferred to KlM. DSR KARIS offers essential services and interfering with
or causing a severe disruption to an essential service is terrorist activity under
subsection 83.01(l)(b)(ii)(E) of the Criminal Code of Canada and every person who
knowingly participates in carrying out terrorist activity is guilty under 83.18(1) of
the same. Since July 23, 2020, DSR KARIS has been unable to conduct its essential
services, and the MASONIC conspirators have sought to cover up their crime.
Dale and Kaysha were both tortured by peace officers and officials under
section 269.1 of the Criminal Code of Canada and the UN Torture Convention
binding in CANADA during their arbitrary, unconstitutional, and unlawful
detainment. DALE was taken to BATTLEFORDS MENTAL HEALTH CENTRE and was
Strapped to a table by ROYAL CANADIAN MOUNTED POLICE while SASKATCHEWAN
Health Authority officials drugged him against his will. Dale was administered

8

29a

drugs against his will whenever he asked for the warrant for his detainment which
was finally given to him after a few days of detainment (see Appendix AT on page
499a). DALE was admitted to BATTLEFORDS MENTAL HEALTH CENTRE on July 24,
2020 for “paranoid religious, persecutory and grandiose delusions” (see Appendix
AU on page 501a and Appendix AV on page 504a) and it was determined by biased
medical professionals that he must be tied to a table and drugged to cure him.
CONSTABLE Burton said “cause it’s a little different—Saskatchewan health care
compared to Manitoba” in response to Dale’s mother AGATHA Richardson saying
“You should see his feet, I mean we don’t restrain people like that” and that he had
been there for 7 years or so (see Appendix AX on page 532a). After being
interrogated at BATTLEFORDS UNION HOSPITAL for hours, KAYSHA was taken by
Royal Canadian Mounted Police to Saskatchewan Hospital, where she was
also employed as a peace officer and had active complaints against through
CANADIAN Union of Public Employees regarding discrimination and occupational
health and safety issues with its Heating, Ventilating, and Air Conditioning
systems (see Appendix BB on page 563a). KAYSHA was detained while her union
meeting was outstanding and she has never had the opportunity to meet with the
union since, but is still a permanent employee and peace officer at SASKATCHEWAN
HOSPITAL. Dale and Kaysha were only released from detainment after an
Application for a Writ of Habeas Corpus Ad Subjiciendum was filed for them.

9

30a

D.

Habeas Corpus Ad Subjiciendum
Robert A. Cannon (“Robert”) made repeated attempts to file an Application

for a Writ of Habeas Corpus Ad Subjiciendum for DALE and KAYSHA against the
Saskatchewan Health Authority and Royal Canadian Mounted Police, first
ex parte and after with notice with overwhelming evidence of their arbitrary,
unconstitutional, and unlawful detainment which included video, audio, and
documentary evidence; the application was submitted to a different judicial centre
than Battleford, the Court of Queen’s Bench for Saskatchewan in the
Judicial Centre of Saskatoon in accordance with its court rules as it was closest
to Robert’s residential address. Robert’s third amendment to the Application for a
Writ of Habeas Corpus Ad Subjiciendum was served to the SASKATCHEWAN HEALTH
Authority, but the Royal Canadian Mounted Police refused service for such
application and stated that Robert’s evidence would not be added to the ongoing
criminal negligence investigation unless he was a witness, in which case he would
have to attend the Battlefords ROYAL CANADIAN MOUNTED POLICE detachment, the
Royal Canadian Mounted Police detachment responsible for Dale’s and
KAYSHA’s detainment (see Appendix BD on page 576a). At the time, Robert did not
feel comfortable leaving the jurisdiction of the Saskatoon police where the ROYAL
Canadian Mounted Police have no jurisdiction. KAYSHA was released before the
third amendment and DALE was released shortly after the third amendment was
served to the SASKATCHEWAN HEALTH AUTHORITY which is responsible for

10

31a

Saskatchewan Hospital, Battlefords Union Hospital, and Battlefords
Mental Health Centre.
ROBERT with Dale and KAYSHA proceeded to attend the hearing for the
foregoing application supposedly scheduled for Aug 18, 2020 to request that an
investigation be conducted into their arbitrary, unconstitutional, and unlawful
detainment. They were denied entry to the hearing as the registrar claimed that the
such application did not exist, after such was disproven then claimed that it was
never served, and after such was disproven then claimed that it was unfiled despite
proof of the dependent notice of expedited procedure being filed (see Appendix BE
on page 579a). After these incoherent discussions with the registrar, Robert, Dale,
and KAYSHA proceeded to flee the jurisdiction of Saskatchewan without delay.
ROBERT later filed by mail the fourth and fifth amendments to the
Application fora Writ ofHabeas Corpus Ad Subjiciendum which added Dale’s
infant daughter KARIS and his affiliate Chrity who punished for associating with
him during his detainment to those applied for, additional respondents, and orders
from the application by DSR KARIS for July 23, 2020 that was judicially interfered
with (see Appendix BF on page 583a and Appendix BG on page 592a). JUSTICE N.D.
CROOKS presided over this application on September 10, 2020 and dismissed the
matter in the first hearing on technicalities and without hearing the evidence in
court, despite purporting that she reviewed the evidence in her official capacity,
JUSTICE N.D. CROOKS ordered Robert to pay costs which is expected in an

11

32a

Application for a Writ of Habeas Corpus Ad Subjiciendum if it is determined by the
justice to be frivolous and vexatious (see Appendix BK on page 631a). On September
22, 2020, ROBERT filed an appeal to JUSTICE N.D. CROOKS’s decision in the COURT
of Appeal for

Saskatchewan (see Appendix BN on page 642a). Given the

corruption demonstrated in the COURT OF QUEEN’S BENCH FOR SASKATCHEWAN, the
Royal Canadian Mounted Police which is the national police force, and the
SEVENTH-DAY Adventist Church which is a centrally governed international
church, KAYSHA did not feel safe in CANADA anymore and decided to seek refuge in
her ancestral homeland in the STATE OF MONTANA on October 1, 2020.
On October 5, 2020, JUSTICE J.A. SCHWANN of the COURT OF APPEAL FOR
SASKATCHEWAN ruled that Robert’s lawful application for dispensing with service
which was interpreted as ex parte would not be permitted despite the overwhelming
evidence of corruption and she ordered that ROBERT would need to serve the
respondents appeal books to proceed with the hearing which would take multiple
months (see Appendix BO on page 646a); such order constitutes a suspension of
Writ of Habeas Corpus which is permissible in CANADA as the Canadian Charter of
Rights and Freedoms permits human rights violations if they are to such
reasonable limits prescribed by la w as can be demonstrably justified in a free and
democratic society.

12

33a

E.

A Metis Plea for Safety and Asylum
On October 1, 2020, ROBERT accompanied KAYSHA as she fled to the U.S

Canada Border at the Sweet Grass port of entry seeking refuge under the Jay
Treaty and asylum in the UNITED STATES from the persecution and torture she was
subjected to in CANADA, KAYSHA brought her Canadian passport, Metis citizenship
card, marriage certificate (see Appendix F on page 61a), many other forms of
identification, and over a thousand pages of documentation with her to the border
as part of her plea. After KAYSHA was refused entry to the U.S. on the basis of being
Metis, she subsequently filed an approximately 1214-page asylum application with
over 5 gigabytes of media and video footage of the events discussed in the previous
sections (see Appendix W on page 264a).
Upon being provided the foregoing information and Kaysha’s claim for
asylum, the officials of the United STATES at the border isolated KAYSHA by
escorting ROBERT off of the premises and began threatening KAYSHA with being
taken into custody for applying for asylum and attempted to coerce her into
returning to CANADA without filing the same. KAYSHA, fearing for her life, did not
yield to their threats or coercion and filed for asylum and was subsequently taken
into custody where she was detained arbitrarily, unconstitutionally, and unlawfully.
She was immediately placed in an expedited removal on the grounds of unsuitable
travel documentation (see Appendix Y on page 282a). KAYSHA was first held in
custody at the U.S.-Canada border in the STATE OF MONTANA, then transferred to
the Jefferson County Jail in the State of Idaho, then finally transferred to
13

34a

Nevada Southern Detention Center in the State of Nevada and was held in
custody in the State OF UTAH during such transfer.
The asylum officer, SCOTT ROBINSON, ZCH 193, from the CHICAGO ASYLUM
OFFICE in the State of ILLINOIS, conducted KaySHA’s credible fear ofpersecution
interview and made his decision on October 15, 2020 alleging that she was credible,
but did not believe that she had credible fear of being persecuted by her centrally
governed international church, the corrupt courts, or the corrupt national police
force again in CANADA despite her having filed for asylum from them, that her
infant sister is still detained by their authority, and evidence that those of Metis
descent are persecuted in CANADA (see Appendix X on page 268a). KaYSHA was not
given her prompt review of determination by an immigration judge within seven (7)
days which is required by the Immigration and Nationality Act and was not given
such review of determination until after an Ex Parte Petition fora Writ of Habeas
Corpus was submitted on her behalf and filed on December 8, 2020.
F.

Another Habeas Corpus Ad Subjiciendum
On November 27, 2020, ROBERT submitted by mail from CANADA an Ex Parte

Petition for a Writ ofHabeas Corpus on behalf of KAYSHA to the UNITED STATES
District Court for the District of Nevada at 333 Las Vegas Blvd. South Las
Vegas, NV 89101 (see Appendix K on page 141a); such mail was suspended by
CANADA Post, the primary postal operator in CANADA, under the guise of the Covid
emergency and was not received until December 7, 2020 at 11:38 AM MST (see

14

35a

Appendix L on page 160a); that very day in the afternoon, KAYSHA received word
that she had been given an immigration hearing date that Thursday, December 10,
2020 and that she would likely be deported. The petition was filed the day after it
was received on Tuesday, December 8, 2020 as a civil case with the case number of
2:20-cv-02218-JAD-DJA and was misinterpreted as pro se legal representation by
KAYSHA instead of ROBERT (see Appendix M on page 163a) and was suspended
under the guise of the following: “Due to this court's extremely heavy case load this
review process may take several weeks” (see Appendix N on page 165a).
On Thursday, December 10, 2020 and fifty-six (56) days after KAYSHA’s
credible fear ofpersecution interview, KAYSHA’s review of determination was
conducted by the JUDGE LINDSAY ROBERT which sought to uphold SCOTT ROBINSON,
ZCH 193’s credible fear findings and deport KAYSHA without reviewing the
evidence, however, KAYSHA’s lawyer LAWRENCE J. LlTMAN (“JAY”) argued that
KAYSHA needed a continuance for the evidence to be reviewed and JUDGE LINDSAY
ROBERT reluctantly granted such continuance and subsequently referred the case to
JUDGE Glen Baker, a judge with a better reputation. The following Tuesday on
December 15, 2020, JAY presented much of the information and evidence provided
in this application to JUDGE GLEN BAKER and KAYSHA testified of the facts that
pertained to her (see Appendix P on page 175a). The judge was reluctant to give his
decision in the court room and purported that he would review all the evidence in
his official capacity and make his final decision at a later time.

15

36a

KAYSHA’s deportation was finalized on Thursday, December 17, 2020 a week
after her first immigration hearing, when JUDGE GLEN BAKER concluded that (1)
she had not been physically harmed during her arrest and thereby had not been
tortured and did not qualify under the UN Torture Convention, and (2) she did not
qualify under any of the five bases enumerated in section 101(a)(42) of the
Immigration and Nationality Act which are race, religion, nationality, membership
in a particular social group, or political opinion (see Appendix Q on page 198a).
Given the information and evidence provided in this application, much of
which was provided to JUDGE Glen BAKER, his conclusions appear unfounded as
the evidence provided delineated the apartheid system which is CANADA, the
resulting genocide of those in KAYSHA’s racial groups METIS and BLACK-CANADIANS,
Canadian justices exercising extreme prejudice,, and how KAYSHA was primarily
psychologically tortured but also physically tortured in such system as she was
taken to a maximum security prison for the criminally insane without cause by the
national police force and held there in isolation for eight days as punishment for
seeking remedy in court on behalf of a federal corporation. JUDGE Glen Baker’s
primary argument for deporting KAYSHA was that she could seek remedy for
unlawful arrest in CANADA. KAYSHA is awaiting deportation. Jay advised KAYSHA’s
father DALE that her deportation would cause the Ex Parte Petition for Writ of
Habeas Corpus to be moot. The petition was fourteen hundred eighty two (1482)
pages spread over seven (7) volumes, each of which was titled; “Book of Torture”.
While KAYSHA was seeking asylum in the UNITED STATES, KAYSHA’s father DALE
16

37a

remained in CANADA to continue the litigation on behalf of DSR KARIS and the legal
battle for custody of his infant daughter Karis who was kidnapped by his wife Kim
which was later endorsed by the courts with extreme prejudice.

G.

Extreme Prejudice
KAYSHA’s father DALE was released from BATTLEFORDS MENTAL HEALTH

CENTRE on August 7, 2020 fifteen (15) days after being abducted. The draft order
granting custody of his infant daughter KARIS to his wife KlM was issued on July
23, 2020 which meant that he had to appeal such draft order by August 22, 2020
unless granted a motion to extend pursuant to the rules of the Court of Appeal for
Saskatchewan. When DALE was released he was still suffering side-effects of the
drugs administered to him against his will in BATTLEFORDS MENTAL HEALTH
CENTRE as can been seen in the slurred language in his first meeting with DEREK
ALLCHURCH (“Derek”) in which Derek admitted to negligence (see Appendix AW on
page 505a).
On September 18, 2020, DALE on behalf of DSR KARIS submitted a Statement
of Claim and Motion under Action No. T-1115-20 to the FEDERAL COURT OF Canada
which purported with evidence that the conspirators including the ROYAL CANADIAN
Mounted Police, the Saskatchewan Health Authority and others committed
various crimes as part of terrorist activity and that DSR KARIS needed protection
and remedy for such (see Appendix BP on page 654a). The hearing for the motion to
permit DALE to represent DSR KARIS under Rule 120 of the court and grant interim

17

38a

relief was dismissed and struck without leave to amend on October 5, 2020 despite
evidence demonstrating that this case was a special circumstance to permit DALE to
represent under Rule 120 and evidence of criminal activity (see Appendix BQ on
page 692a).
On October 7, 2020, DALE submitted a motion to extend and draft notice of
appeal to the COURT OF APPEAL FOR SASKATCHEWAN on October 8, 2020 for the draft
order granted by JUSTICE R.W. ELSON on the basis that DALE was detained and
recovering from drugs administered to him against his will during the appeal period
and KaRIS was not given fair representation (see Appendix BH on page 608a).
JUSTICE J.A. CALDWELL presided over such motion on October 28, 2020, and
concluded with extreme prejudice that granting the motion to give KARIS fair
representation in an appeal was prejudice to KlM despite Dale’s extraordinary
circumstances and the infant Karis being taken away from her father, her primary
caregiver, without fair representation (see Appendix BI on page 615a).
On November 13, 2020 and following KAYSHA’s arbitrary, unconstitutional,
and unlawful detainment in the United States in violation of international
instruments binding in the same, DALE on behalf of DSR KARIS filed a Statement of
Claim under the case number T-1403-20 in the FEDERAL COURT OF CANADA with
motion to allow him to represent under Rule 120 of the court against the MASONIC
Grand Lodge of Saskatchewan, the Seventh-Day Adventist Church, various
courts in Saskatchewan, and the ATTORNEY GENERAL OF THE UNITED STATES and

18

39a

his agents which delineated a conspiracy by MASONS and those who believe or
support those who believe MASONIC dogma to cover up the mismanagement of the
Covid emergency; the court refused to accept the affidavit of service which is proof
of service and thereby declared the application to be abandoned on December 8,
2020 under the guise that it lacked proof of service (see Appendix AA on page 336a).
On November 26, 2020, DALE attended a hearing to revisit custody of KARIS
in which JUSTICE J. ZUK presided. JUSTICE J. ZUK exercised extreme prejudice and
was hostile towards; DALE seemingly as punishment for seeking remedy against the
court. JUSTICE J. ZUK accepted an affidavit by KlM which was demonstrated to be
perjured by DALE as the sole evidence upon which to uphold JUSTICE R.W. ELSON
orders despite much evidence that demonstrated that KARIS should be in Dale’s
care. JUSTICE J. ZUK attempted to construe DALE as mentally ill and refused to
accept new evidence to the contrary which he was permitted to do. After suspending
his decision, JUSTICE J. ZUK finally concluded that KARIS should be in Kim’s care on
December 11, 2020 (see Appendix BY on page 749a and Appendix BW on page
761a).
Dale contacted COMMISSIONER LUCKI of the ROYAL CANADIAN MOUNTED
POLICE which referred DALE back to the jurisdiction that tortured him (see
Appendix BJ on page 626a and Appendix BC on page 571a). DALE included
constitutional questions in one of his federal cases which questioned the
constitutionality of statutes which where used to torture him (see Appendix BR on

19

40a

page 705a). The ATTORNEY GENERALS of SASKATCHEWAN and CANADA and the
Registrar of the the COURT OF APPEAL FOR SASKATCHEWAN conspire to remove the
constitutional questions from both the COURT OF APPEAL FOR SASKATCHEWAN and
the Federal Court of Canada (see Appendix CD on page 876a). Dale was
eventually disfellowshiped by the SEVENTH-DAY ADVENTIST CHURCH (see Appendix
BU on page 745a).
H.

The Extraordinary Condition
On October 23, 2020, ROBERT on behalf of WlSEWORK CONSULTING INC.

(“WlSEWORK”), a Canadian corporation pursuant to the Canada Business
Corporations Act, proceeded to the STATE OF DELAWARE to assist DSR KARIS with
filing a certificate of incorporation for DSR KARIS NORTH CONSULTING INC. (“DSR
KARIS NORTH”) without providing legal advice. DSR KARIS planned to have KAYSHA
handle the documentation and to sign the certificate of incorporation in the STATE
OF DELAWARE, but was forced to have Dale sign them remotely as this process was
delayed by her arbitrary, unconstitutional, and unlawful detainment in violation of
international instruments binding the UNITED STATES as part of a conspiracy to
cover up the mismanagement of the Covid emergency.
On October 28, 2020 and under the instruction of DSR KARIS, WlSEWORK
mailed the certificate of incorporation from the Post Office at 55 E Loockerman St
in the City of Dover in the State of Delaware to the DELAWARE SECRETARY OF STATE
with an affidavit of extraordinary condition affirmed by ROBERT in accordance with

20

41a

Delaware General Corporations Law. The DELAWARE SECRETARY OF STATE acting
on behalf of the State OF DELAWARE was to make a conclusive determination as to
whether the extraordinary condition existed and whether it hindered the filing of
the corporation (see Appendix V on page 261a).
On November 2, 2020 at approximately 4:03 PM EST, the representative of
the Delaware Secretary of State acting on behalf of the State of Delaware
called DSR KARIS, the incorporator, to notify it that the affidavit of extraordinary
condition would not be reviewed, and in so doing violated Delaware law to cover up
the mismanagement of the Covid emergency (see Appendix U on page 254a).
If the State of Delaware complied with 8 Del. C. 1953, § 103(i), the
affidavit of extraordinary condition would require the DELAWARE SECRETARY OF
STATE to make a conclusive decision on whether the abduction of DSR KARIS
North’s Chief Communication Officer, Kaysha, as part of a conspiracy to coyer up
the mismanagement of the Covid emergency in SASKATCHEWAN, was a revolution or
insurrection, or rioting or civil commotion in the localities of the PROVINCE OF
Saskatchewan in the Country of Canada and the State of Illinois, State of
Montana, State of Idaho, State of Utah, and State of Nevada in the Country
of the United States.
The refusal of the STATE OF DELAWARE to accept or make a conclusive
decision as to whether the extraordinary condition existed and whether it hindered
the filing for incorporation, and its failure to legislate a method to appeal the

21

42a

unlawful denial of its SECRETARY OF STATE, hindered DSR HARIS NORTH from
seeking remedy from parties that violated its constitutional and statutory rights as
its filing date can no longer be corrected under 8 Del. C. 1953, § 103(i) and thereby
hindered DSR KARIS NORTH from developing critical infrastructure which is
international terrorism.
I.

The Supreme Court of the United States
KAYSHA on behalf of DSR KARIS NORTH, the newly founded Delaware

corporation, submitted an Ex Parte & Pro Se Petition For Extraordinary Writ to the
Supreme Court of the United States in the case of DSR Karis North
Consulting Inc. v. State of Delaware under original jurisdiction; she did so
while in custody at NEVADA SOUTHERN DETENTION CENTER and her lawyer JAY
witnessed her signature and mailed high priority such petition on her behalf from
the City of Las Vegas in the STATE OF NEVADA on December 7, 2020. The mail for
such application was suspended for unknown reasons and received on December 10,
2020, however, ROBERT delivered the required 40 copies to the SUPREME COURT OF
THE UNITED STATES in person on December 9, 2020 under open filing on behalf of
WlSEWORK CONSULTING CORP., a Delaware corporation, on behalf of DSR KARIS
NORTH. The petition contained the respectful request for the following remedy in
the form of an alternative writ:
to compel President Donald J. Trump in his official capacity to
declare the mismanagement of the Covid emergency by MASONIC
conspirators to be a national emergency, as the same extends to the

22

43a

STATE OF Delaware and The Biden Plan to Combat Coronavirus by
the supposed presidential elect JOSEPH R. BlDEN, which threatens the
legitimacy of this presidential election and by consequence threatens to
deprive persons in the United States of America of CHRISTIAN RIGHTS
AND FREEDOMS, among them the free exercise of RELIGION and the
unalienable rights to LIFE, LIBERTY, and pursuit of HAPPINESS.
This extraordinary writ was requested as the STATE OF DELAWARE lacked the
executive power to fix the damage it caused to the AMERICAN people and DSR KARIS
NORTH by hindering an investigation into and covering up the mismanagement of
the Covid emergency, which was crucial to the general public and the electoral
college making an informed decision in this presidential election (see Appendix R on
page 201a).
Clara Houghteling (“Clara”) on behalf of Clerk Scott S. Harris of the
Supreme Court of the United States, filed the petition on December 15, 2020
purporting that it was received on December 14, 2020 and arbitrarily refused to
accept the petition purporting that no remedy was specified and that individuals
■ could not file pro se for a corporation or business entity, but she cited no rules for
the same as no relating rules exist (see Appendix S on page 228a). In so doing, the
Clerk exercised judicial authority which is beyond the scope of its office in an effort
to cover up the mismanagement of the Covid emergency to build a world without
freedom: “The Clerk receives documents for filing with the Court and has authority
to reject any submitted filing that does not comply with these Rules” under Rule
1(1) of the Rules of the Supreme Court of the United States, adopted April 18, 2019.
23

44a

J.

Another Another Application for Writ of Habeas Corpus
After sunset on Thursday December 24, 2020, ROBERT submitted an Ex Parte

& Pro Se Original Application for Writ of Habeas Corpus on behalf of KAYSHA to the
Supreme Court of the United States and personal delivery thereof was effected
on Monday December 28, 2020; the same was a successive original application and
such application purported the suspension of the first application for writ of habeas
corpus by the UNITED STATES DISTRICT COURT FOR THE DISTRICT OF NEVADA due to
its “extremely heavy case load”. The first application was misinterpreted as pro se
legal representation by KAYSHA instead of ROBERT which also constituted
suspension. The successive application made it explicitly clear that ROBERT was the
applicant. There is no law of any kind that forbids successive applications for writ of
habeas corpus by the same or other applicants for KAYSHA as she has never been
sentenced by any court for any crime anywhere in the world.
Robert was unable to get in contact with the case analyst responsible for his
name in the alphabet, CLARA, as she has yet to reciprocate contact by phone as of
February 28, 2021. ROBERT was able to contact case analyst SUSAN of the SUPREME
COURT of THE United States on January 6, 2020 and received a letter from CLARA
allegedly sent on December 31, 2020 in which she refused to accept the original
application for writ of habeas corpus under the guise of the following: (1) the
original application for writ of habeas corpus was interpreted as an extraordinary
writ instead of original jurisdiction under 28 U.S.C. § 2241 and § 2242, (2) the
application was not formatted as an extraordinary writ, (3) the application would
24

45a

need a motion for forma pauperis despite the $300 filing fee being provided as a
cheque, (4) only an attorney can file habeas corpus for a detainee which contravenes
the foregoing codes, and (5) the ex parte application must be served on the
Respondents', these egregious lies in contravention to all forms of law and
subsequent return of documents and cheque by the court clerk constitute
suspension and an attempt to keep evidence of treason and terrorism out of court
(see Appendix T on page 235a).
Such refusal and subsequent return of documents by CLARA purported by
SUSAN constitute suspension by the SUPREME COURT OF THE UNITED STATES as
CLARA is the only case analyst ROBERT can apply through given the procedure of
such Court according to SUSAN. When ROBERT purported to SUSAN that CLARA
broke the law, she replied: “its our rules”. In so doing, the Clerk exercised judicial
authority to suspend the CHRISTIAN right of Privilege of Writ ofHabeas Corpus
which is beyond the scope of its office in an effort to cover up the mismanagement of
the Covid emergency to build a world without freedom, a world without
CHRISTIANITY (see Appendix H on page 74a).

K

Petition to Congress
On Monday January 4, 2020, ROBERT, a UNITED STATES citizen living abroad

in CANADA, attempted to exercise his first amendment right to petition congress for
a redress of grievance and delivery thereof to the visitor entrance of the Cannon
building of the US HOUSE OF REPRESENTATIVES guarded by OFFICER PARKER and

25

46a

Officer Lee of the United States Capital Police. Robert was instructed by
Officer Parker that due to Covid only employees would have access to any of the
government buildings in the capital and that ROBERT would be be required to
contact his representative in the US HOUSE OF REPRESENTATIVES; ROBERT
explained that he was a nonresident living abroad that did not have a
representative in CONGRESS and that the only way for him to petition congress was
by delivering it to the US HOUSE OF REPRESENTATIVES directly.
OFFICER Parker ignored Robert and instructed him to google a phone
number and call someone and that he should do so outside. ROBERT purported that
he was simply there to exercise his first amendment rights to petition and needed to
effect delivery directly; OFFICER PARKER began threatening ROBERT with the
statement “Do you want to be arrested?” to which the answer was obviously “No”.
When ROBERT asked under what grounds could a person be arrested for when
trying to exercise their first amendment rights to petition, OFFICER Lee responded
with “Our rules”, a seemingly common trend. At no point did either OFFICER
PARKER or OFFICER Lee provide any viable means for ROBERT to exercise his first
amendment rights as a citizen living abroad. Eventually, OFFICER LEE turned to
OFFICER Parker and said I’m just going to do it, I’m going to arrest him. OFFICER
Lee approached Robert and said put your hands behind your back to which
ROBERT replied “Why?” having never been told that he was going to be arrested.
OFFICER Lee replied because it was resisting arrest, an arrest which was never
purported by anyone at any point to the knowledge of ROBERT.
26

47a

ROBERT was processed and held in captivity for between 23 and 24 hours,
until the afternoon of Tuesday, January 5, 2020 when it was purported that the
charges were dropped and he was released; ROBERT was never given the
opportunity to stand before a judge probably because his arrest was in violation of
international, declarational, constitutional, statutory, and common law and if he
stood before a judge and pled his case, the judge would be authorized and compelled
to issue warrants for the arrest of OFFICER PARKER and OFFICER LEE and conduct
an investigation into his petition and ensure that the petition was submitted to
CONGRESS before Wednesday, January 6, 2020 as it purported various crimes which
related to JOSEPH R. BlDEN and the presidential election (see Appendix G on page
62a).
ROBERT was required to retrieve his belongings including without limitation
the petition from another location and was unable to submit his petition on January
5, 2020; he was also scared to be arrested again if he attempted delivery on January
6, 2020 so decided to allow delivery by email and mail which would arrive at a later
time given the mail service suspended his mail again. ROBERT being detained in
this manner and not given trial constitutes arbitrarily detention to prevent him
from petitioning CONGRESS in person before Wednesday, January 6, 2020. ROBERT
was arbitrarily detained and denied access to a Bible under the colour of authority
of the UNITED States attempting to exercise the constitutional right to petition for
redress of grievance to CONGRESS with respect to and citing the Ex Parte & Pro Se
Original Application for Writ ofHabeas Corpus which was arbitrarily rejected by
27

48a

Clara of the Supreme Court of the United States. Dale mailed a petition for
Congress on January 13, 2020 (see Appendix I on page 111a). Dale later petitioned
the Parliament of CANADA for the same (see Appendix J on page 135a).
L.

More Extreme Prejudice
After failing to unlawfully deport KAYSHA which is a METIS card holding

citizen, JUDGE JENNIFER A. DORSEY of the UNITED STATES DISTRICT COURT FOR THE
DISTRICT of Nevada proceeded to hear the petition for a writ of habeas corpus on
January 27, 2021 and dismissed it. JUDGE JENNIFER A. DORSEY recognized that
“Richardson alleges that the petition arises under the United States Constitution,
the Immigration and Nationality Act (“INA”), the United Nations Convention
Against Torture, and the United Nations Refugee Convention. She claims that her
detention is arbitrary, unlawful, and violates the Fourth, Fifth, and Eighth
Amendments. In the prayer for relief, Richardson asks the court to assume
jurisdiction over this matter, order respondents to release her on her own
recognizance, and grant any other relief deemed proper”; however, the judge ignored
her claim under the UN Rights of Indigenous Peoples as a METIS card holding
citizen and her claim that she was not given her immigration hearing within seven
days pursuant to 235(b)(l)(B)(iii)(III) of the Immigration and Nationality Act which
both qualify KAYSHA for immediate release.
Judge Jennifer A. Dorsey also ignored purports of United Nations
Convention against Torture and Other Cruel, Inhuman or Degrading Treatment or

28

0

49a

Punishment (the “UN Torture Convention”) violations relating to the credible fear
of persecution interview process not being a competent authority and thereby
acquiesced. JUDGE JENNIFER A. DORSEY claimed that KAYSHA was challenging the
order of removal which is at no point was purported; KAYSHA received her final
order for deportation on December 17, 2020 which is reasonably demonstrable as a
result of the petition for a writ of habeas corpus. JUDGE JENNIFER A. DORSEY “took
judicial notice of the status of the proceedings in Richardson’s immigration case
before the Las Vegas Immigration Court”, a status that did not exist at the time of
filing. JUDGE Jennifer A. Dorsey proceeded to order KAYSHA to “sign and submit
any future documents personally” claiming that ROBERT was involved in the
“unauthorized practice of law” for filing for an application for a writ of habeas
corpus on behalf of KAYSHA (see Appendix O on page 166a).
On January 26, 2020, ROBERT received notice of an upcoming hearing for the
appeal to the first habeas corpus in CANADA suspended by JUSTICE J.A. SCHWANN
and submitted four months prior on September 23, 2020; the appeal was to be heard
on March 1, 2020 and ROBERT would be given four hours to present the case. On
January 29, 2020, ROBERT attempted to file an Ex Parte Motion for Leave to Appeal
to the Supreme Court for Writ of Habeas Corpus which purported the prejudice
demonstrated by JUSTICE J.A. SCHWANN and JUSTICE J.A. CALDWELL of the COURT
OF APPEAL FOR SASKATCHEWAN and requested the habeas corpus to be referred to
the Supreme Court of Canada; otherwise, the Court of Appeal for
Saskatchewan would have to decide whether to put Justice J.A. Schwann and
29

!

50a

JUSTICE J.A, CALDWELL in prison. Such motion was denied by JUSTICE RALPH K.
OTTENBREIT purporting that he did not have the authority to file it (see Appendix
CB on page 820a). Under the instruction of JUSTICE RALPH K. OTTENBREIT, ROBERT
served and filed a Motion to Adduce Fresh Evidence for a Writ of Habeas Corpus
which included such request to refer the case to a higher authority and included
evidence of the involvement INNOVATION CREDIT UNION in the July 23rd Terrorist
Attacks as INNOVATION CREDIT UNION stood the most to gain from the fraudulent
orders of JUSTICE R.W. ELSON (see Appendix CC on page 857a).
JUSTICE JEFFERY KALMAKOFF was caught exercising extreme prejudice and
misrepresenting the law in an attempt to avoid the responsibility of his position and
his responsibilities under the UN Torture Convention, he failed many many times.
Please refer to the Appendix CE on page 884a for the motion which
delineates the fraudulent activity of the FEDERAL COURT OF CANADA and Appendix
CA on page 816a for one of the relating petitions to the privy council letter on
February 1, 2020.
REASONS FOR GRANTING THE APPLICATION
The United States Court of Appeal for the Ninth Circuit has
jurisdiction of this Writ of Certiorari to the United States Court ofAppeals for the
Ninth Circuit under 28 U.S.C. § 1291, § 2241, and § 2242 and article I, § 9, clause 2
of the United States Constitution and is both authorized and compelled to judicially
review the suspension of writ of habeas corpus, which relates violations to treaties,

30

51a

federal treason, the constitutionality of IMMIGRATION COURT as a whole, the
invariable pursuit of the OBJECT, and the genocide of CHRISTIANS.
It is indisputably clear that the Pro Se Applicants right to the Privilege of
Writ of Habeas Corpus is not subject to the Immigration and Nationality Act of
1952, nor the MASONIC interpretation of 50-percent blood quantum from 1928 both
created after the conception of the United States Constitution in 1796 which
guarantees the right of the Privilege of Writ of Habeas Corpus, especially
considering the Jay Treaty of 1795 existed at the time of its conception which the
Pro Se Applicant is the posterity of and thereby applies to.
It is indisputably clear that the UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF Nevada suspended the Privilege of Writ of Habeas Corpus which
resulted in the concealment of the mismanagement of the Covid emergency in
Canada and the United States. The United States District Court for the
DISTRICT of Nevada has suspended and terminated the Privilege of Writ of Habeas
Corpus indefinitely based on lies and the misprision of treason which is not
permitted by the United States Constitution. This suspension resulted in an
investigation not being conducted into the mismanagement of the Covid emergency
and how it pertains to the Pro Se Applicants abduction and the genocide of
Christians.
It is indisputably clear that the suspension of the Privilege of Writ of Habeas
Corpus for any reason or any means not permitted by the United States

31

52a

Constitution as a part of a conspiracy to cover up the mismanagement of the Covid
emergency is an act of federal treason and the invariable pursuit of the OBJECT
which is a matter of national and international importance.
CLAIMS FOR RELIEF
COUNTONE
CONSTITUTIONAL CLAIM
The Pro Se Applicant alleges and incorporates by reference the foregoing.
The Pro Se Applicants detainment violates her rights guaranteed under the
United States Constitution including without limitation:
Amendment IV rights: security ofperson,
Amendment V rights: nor be deprived oflife, liberty, or property,
without due process oflaw, and
Amendment VIII rights: no cruel and unusual punishments inflicted.
COUNT TWO
TREATY CLAIM
The Pro Se Applicant alleges and incorporates by reference the foregoing.
The Pro Se Applicants continued detainment violates the United States
Constitution and the following UNITED NATIONS treaties:
Article 2, 3, 7, 10, 22, 26, and 33 of the UN Rights ofIndigenous
Peoples,

32

53a

Article 1 and 3 of the UN Torture Convention,
Article 3 and 4 of the UNITED NATIONS Convention Relating to the
Status ofRefugees (the “UN Refugee Convention”).

COUNT THREE
STATUTORY CLAIM
The Pro Se Applicant alleges and incorporates by reference the foregoing.
The Pro Se Applicanfs continued detainment violates the United States
Constitution, the UN Rights of Indigenous Peoples, the UN Torture Convention, the
UN Refugee Convention, and the Immigration and Nationality Act
PRAYER FOR RELIEF
WHEREFORE, Pro Se Applicant prays that this Court grant the following relief:
(1) review this matter that includes purports of genocide, crimes against
humanity, and the crime of aggression;
(2) release the Pro Se Applicant on her own recognizance with their
personal effects', and
(3) grant any other relief which this Court deems just and proper in
accordance with applicable law for the Pro Se Applicant.

33

w

t

Awaa
yf

mO.T[lT!tuSg)J<a9p-KqF.<»f5i

mOL IM- 908 l

zoo ¥6S ms ‘pwppiwg tsmn
leMismsssez?
Asaa -K^vnserx
‘p^piqni Aj|nj};iadsa>|

vfQ

55a

BOOK OF TORTURE
EX PARTE PETITION FOR A WRIT OF HABEAS CORPUS
VOLUME I OF VII
UNITED STATES NEVADA DISTRICT COURT
CASE NO.
NOVEMBER 27, 2020

56a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
CASE NO.
BETWEEN:
Kaysha Dery/Richardson, a Canadian and Metis citizen with no criminal record in any
country located at 1292 95th Street, North Battleford, SK S9A 0G2 with ancestral homeland in
the Provinces of Saskatchewan and Alberta in the Country of Canada and the State of Montana
in the Country of the United States.
(hereinafter the "Petitioner")
-and 1. Attorney General of the United States;
2. U.S. Department of Homeland Security’;
3. U.S. Citizenship and Immigration Services;
4.

U.S. Immigration and Customs Enforcement;

5. Scott Robinson, ZCH 193;
6. Nevada Southern Detention Center; and
7. Brian Koehn.
(hereinafter each a "Respondent", collectively, the "Respondents")

EX PARTE PETITION FOR A WRIT OF HABEAS CORPUS
VOLUME I OF VII

November 27, 2020

ROBERT CANNON
1102 Ave L North, Saskatoon, SK CA S7L 2S1
Tel:
306 480-9473
Email:
robert.cannon@usask.ca
"ANY PERSON" FOR THE PETITIONER

57a
-2TO:

ATTORNEY GENERAL OF THE UNITED STATES
U.S. Department of Justice, National Security Division
950 Pennsylvania Avenue, NW, Washington, D.C. 20530
Tel:
202 514-2007
Email:
nsd.public@usdoj.gov
Fax:
202 514-5331

AND TO:

U.S. DEPARTMENT OF HOMELAND SECURITY
245 Murray Lane, SW, Washington, DC 20528-0075
Tel:
202 282-8000

AND TO:

U.S. CITIZENSHIP AND IMMIGRATION SERVICES
111 Massachusetts Avenue, NW, MS 2260, Washington, DC 20529-2260

AND TO:

U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT
500 12th Street, SW, Washington, DC 20024

AND TO:

SCOTT ROBINSON, ZCH 193
Asylum Officer, U.S. Immigration and Customs Enforcement
500 12th Street, SW, Washington, DC 20024

AND TO:

NEVADA SOUTHERN DETENTION CENTER
2190 East Mesquite Avenue, Pahrump, NV 89060
Tel:
775-751-4500
Fax:
775-751-8763

AND TO:

BRIAN KOEHN
Warden, Nevada Southern Detention Center
2190 East Mesquite Avenue, Pahrump, NV 89060
Tel:
775-751-4500
Fax:
775-751-8763

58a
-3EX PARTE PETITION FOR A WRIT OF HABEAS CORPUS
This is an ex parte petition for a writ of habeas corpus filed on behalf of the Petitioner seeking release
from her arbitrary, unlawful, and unconstitutional detainment which is in violation of international
instruments binding in the United States and protection from being detained again in like manner. The
Respondents have detained and tortured the Petitioner since October 1, 2020 when the Petitioner
attempted to enter as a proven Metis citizen (see page 7 for the Metis card and identification and page
162 for A Metis Plea for Safety) and subsequently filed a 1214-page asylum application with over 5
gigabytes of media and video footage (see page 295 for the asylum application) which demonstrated
that she, a card holding Metis citizen in Saskatchewan (see page 5 for the reissued Metis card), was
seeking remedy on behalf of a corporation in the local superior court and was abducted, detained, and
tortured by the court Deputy Sheriff, the Royal Canadian Mounted Police which is the national police
force, and the Saskatchewan Health Authority (see page 430 for the kidnapping gallery and watch
"Video of Dale Richardson and Kaysha Dery Arrested In Front of the Court House.mp4" in "Affidavit
of Robert Cannon July 27th Exhibits" on the USB flash drive). The Petitioner sought asylum or
withholding of removal based on race, religion, political position with respect to the mismanagement of
the Covid emergency (see page 1319 for transnational terrorist financing report and page 1339 for the
engineering technical report), and the United Nations Convention against Torture and Other Cruel,
Inhuman or Degrading Treatment or Punishment (hereinafter the "U.N. Torture Convention") which is
binding in the United States.
The asylum officer, Scott Robinson (ZCH 193), which conducted the Petitioner's credible fear of
persecution interview and made his decision (see page 77 for the Record of Determination for the
asylum interview) on October 15, 2020 under section 235(b)(l)(B)(iii)(l) of the Immigration and
Nationality Act, he alleged that she was credible (see page 82 for the Record of Determination for the
asylum interview'), but did not believe that she had credible fear of being persecuted by her centrally
governed international church, the courts, or the national police force again in Canada despite her
having filed for asylum from them, that her infant sister is still detained by their authority (see page 17
for the Kidnapping of the Petitioner's infant sister Karis Richardson, page 365 Justice R.W. Elson
orders, and page 712 for the habeas corpus appeal books), and evidence that those of Metis descent are
persecuted in Canada (see page 115 for the National Inquiry Into Missing and Murdered Indigenous
Women and Girls); the asylum officer is not a competent authority and did not take into account all
relevant considerations as he intentionally did not consider the evidence provided in the 1214-page
asylum application with over 5 gigabytes of media and video footage. This policy and practice is a
direct violation of Article 3 of the U.N. Torture Convention. The Petitioner immediately appealed the
decision under section 235(b)(l)(B)(iii)(III) of the Immigration and Nationality Act which guarantees
her a prompt review of determination by an immigration judge within seven (7) days. It has been fortythree (43) days since the credible fear of persecution interview and the Petitioner has had no review of
determination by an immigration judge and no guarantee that she ever will.
The moment the Petitioner, which has no criminal record, was taken into custody at the border for
claiming asylum, her amendment IV: security ofperson, amendment V: nor be deprived of life, liberty,
or property, without due pmcess of law, and amendment VIII: no cruel and unusual punishments
inflicted rights guaranteed under the United States Constitution (hereinafter the "U.S. Constitution”)
were violated making her detainment arbitrary, unlawful, and unconstitutional. The moment officials
of the Un ited States at the border began threatening the Petitioner with being taken into custody for
applying for asylum and attempting to coerce her into returning to Canada without filing asylum, such

59a
-4ojficials began torturing her under Article 1 of the U.N. Torture Convention as they were punishing her
for providing evidence that the Canadian government tortured her. The continued physical and
psychological maltreatment of the Petitioner throughout her arbitrary, unlawful, and unconstitutional
detainment (see USB flash drive the audio recordings of the Petitioner while in Ne vada Southern
Detention Center) which is in violation of international instruments binding in the United States
constitutes torture under Article 1 of the U.N. Torture Convention and is in violation of article 3 and 4
of the United Nations Convention relating to the Status ofRefugees (hereinafter the "U.N. Refugee
Convention") with respect to non-discrimination and religious rights. The moment that the asylum
officer, Scott Robinson, ZCH 193, affixed his signature to the Record of Determination for the credible
fear interview, the Petitioner's arbitrary, unlawful, and unconstitutional detainment was in violation of
Article 3 of the U.N. Torture Convention as the asylum officer is not a competent authority and did not
take into account all relevant considerations. The moment the clock struck twelve on October 23,2020
seven (7) days after the credible fear interview, the Petitioner's arbitrary, unlawful, and
unconstitutional detainment which is in violation of international instruments binding in the United
States was definitely no longer justifiable under the Immigration and Nationality Act or any other act.
The Petitioner is a passport holding Canadian citizen and card holding Metis citizen in Saskatchewan
with no criminal record in any countries and such citizenship documentation was provided to the
officials at the border; the Petitioner has travelled to the United States many times, given the USCanada borders’ relaxed legislation with respect to cross border travel between Canada and the United
States and she is not a flight risk or a risk to the community. The Petitioner has demonstrated that she is
a professional with ongoing obligations both in Canada and the United States (see page 1274 for the
affidavit of extraordinary condition), these obligations make the Petitioner easy to locate. The
Petitioner, being Metis, has ancestral homeland in both Saskatchewan and Alberta in Canada and
Montana in the United States.
CUSTODY
1. The Petitioner is in the physical custody of the Respondents Attorney General of the United
States, U.S. Department of Homeland Security, U.S. Citizenship and Immigration Services,
U.S. Immigration and Customs Enforcement, Scott Robinson, ZCH 193 or his supposed
successor Collazo, Nevada Southern Detention Center, Brian Koehn in Pahrump, Nevada. At
the time of the filing of this petition, the Petitioner is detained at the Nevada Southern
Detention Center in Pahrump, Nevada. The Nevada Southern Detention Center contracts with
the U.S. Department of Homeland Security to detain aliens such as the Petitioner. The
Petitioner is under the direct control of the Respondents and their agents.
JURISDICTION
2. This action arises under the U.S. Constitution, the U.N. Torture Convention, the U.N. Refugee
Convention, and the Immigration and Nationality Act. This Court has jurisdiction under 28
U.S.C. 2241, article I, § 9, clause 2 of the U.S. Constitution and 28 U.S.C. § 1331, as the
Petitioner is presently in custody under color of authority of the United States and such custody
is in violation of the Constitution, laws, or treaties of the United States. This Court may grant
relief pursuant to 28 U.S.C. § 2241, and the All Writs Act, 28 U.S.C. § 1651; however, this
petition shall not be construed as a means to acquire monetary relief, and the Petitioner

60a
-5reserves the right to seek relief for her arbitrary, unlawful, and unconstitutional detainment
which is in violation of international instruments binding in the United States.
VENUE
3. Venue lies in the United States District Court for the District of Nevada, the judicial district in
which the Respondents Nevada Southern Detention Center and the Brian Koehn reside and
where the Petitioner is detained pursuant to 28 U.S.C. § 1391(e).
PARTIES
4. The Petitioner Kaysha Dery/Richardson is a national and citizen of Canada and a citizen of the
Metis federation of Saskatchewan who was taken into custody when seeking refugee on
October 1, 2020 at the Sweetgrass Port of Entry in Montana: (1) on the basis of being Metis
with ancestral homeland in Montana under United Nations Declaration on the Rights of
Indigenous Peoples (U.N. Rights ofIndigenous Peoples) which is not legally binding and upon
refusal, (2) subsequently by applying for asylum with crediblefear ofpersecution from the
Seventh-Day Adventist Church which is the centrally governed international church she
attends, the courts, and the national police force. She was detained by the Respondents
pursuant to 235(b)(1) of the Immigration and Nationality Act prior to October 23,2020;
however, since the Respondents failed to provide a review of determination by an immigration
judge by October 23, 2020, she is being held pursuant to no law, her detainment is entirely
arbitrary, unlawful, and unconstitutional and is in violation of international instruments
binding in the United States.
5. The Respondent Scott Robinson, ZCH 193 is an asylum officer under the authority of U.S.
Immigration and Customs Enforcement, which is under the authority of U.S. Citizenship and
Immigration Services, which is under the authority of U.S. Department of Homeland Security,
which is under the authority of the Attorney General of the United States. Respondents Scott
Robinson, ZCH 193 or his supposed successor Collazo is a custodial official acting within the
boundaries of the judicial district of the United States Court for the District of Nevada.
Pursuant to the Respondents Scott Robinson, ZCH 193’s orders, the Petitioner remains
detained.
6. The Respondent Brian Koehn is the warden of the Nevada Southern Detention Center in
Pahrump, Nevada. He is the Petitioner's immediate custodian and resides in the judicial district
of the United States Court for the District of Nevada.
EXHAUSTION OF ADMINISTRATIVE REMEDIES
7. The Petitioner has exhausted her administrative remedies to the extent required by law.
8. She has/w//y cooperated with the Respondents in asylum application and appeal process and
has not delayed or obstructed the same save complaints about being maltreated with respect to
her health resulting in allergic reactions and infringement of religious freedom with respect to
diet.

61a
-69. The Petitioner’s only remedy is by way of this judicial action as the Respondents have been
uncooperative.
STATEMENT OF FACTS
10. The Petitioner is a national and citizen of Canada and a citizen of the Metis federation of
Saskatchewan who was taken into custody when seeking refugee on October 1, 2020 at the
Sweetgrass Port of Entry in Montana;
(1) on the basis of being Metis with ancestral homeland in Montana under U.N.
Rights ofIndigenous Peoples which is not legally binding and upon refusal,
(2) subsequently by applying for asylum with credible fear ofpersecution from the
Seventh-Day Adventist Church which is the centrally governed church she attends,
the Saskatchewan courts, and the Royal Canadian Mounted Police which is the
national police force
11. The officials of the United States at the border threatened the Petitioner with being taken into
custody for applying for asylum and attempted to coerce her into returning to Canada without
filing asylum. The Petitioner was denied her vegan diet throughout her arbitrary>, unlawful, and
Unconstitutional detainment which is in violation of international instruments binding in the
United States; the food she was provided by the Nevada Southern Detention Center caused her
allergic reactions and violated her religious beliefs. The Petitioner is a Seventh-Day Adventist
which should be eating vegan at this time in earth’s history in accordance with the Spirit of
Prophecy which advocates healthy eating; the prison Chaplin was uncooperative and denied her
beliefs demonstrating that he believed that he understood her religion’s health message better
than her. This is torture.
12. The asylum officer, Scott Robinson, ZCH 193, conducted the Petitioner’s credible fear of
persecution interview and made his decision on October 15, 2020 under section 235(b)(1)(B)
(iii)(I) of the Immigration and Nationality Act. He alleged that she was credible, but did not
believe that she had credible fear of being persecuted by her centrally governed church, the
Saskatchewan courts, or the national policeforce again in Canada despite her having filed for
asylum from them, that her infant sister is still detained by their authority, and evidence that
those of Metis descent are persecuted in Canada. The Petitioner immediately appealed the
decision under section 235(b)(l)(B)(iii)(III) of the Immigration and Nationality Act which
guarantees her a prompt rev iew of determination by an immigration j udge within seven (7 )
days.
13. It has been forty-three (43) days since the credible fear of persecution interview and the
Petitioner has had no review of determination by an immigration judge and no guarantee that
she ever will.
14. The Respondents’ decision to detain the Petitioner is a crime and arbitrary. There is no better
time for the Court to consider the merits of the Petitioner’s request for release.

62a
-7AFF1DAVIT AND OTHER EVIDENCE TO BE USED IN SUPPORT OF THIS APPLICATION
15. Affidavit of "Any Person" Robert Cannon
16. Reissued Metis Card
17. Identification Provided to the United States
18. The Kidnapping of Karis Richardson
19. Royal Canadian Mounted Police Arbitrary Detainment Pictures
20. Federal Court T-1403-20: Statement of Claim
21. Record of Determination for Asylum Interview
22. National Inquiry Into Missing and Murdered Indigenous Women and Girls
23. A Metis Plea for Safety
24. 1-589 Application for Asylum and for Withholding of Removal
25. Habeas Corpus Appeal Book: Volume I
26. Habeas Corpus Appeal Book: Volume II
27. Habeas Corpus Factum of the Appellant
28. Delaware Title 8 Documents
QUESTIONS
29. Is an application for writ of habeas corpus, where a person has been arbitrarily, unlawfully,
and unconstitutionally detained by a government agency in violation of international
instruments binding in the United States when they have committed no crimes, a civil or
criminal matter?
30. Do judicial branches enjoy sovereign immunity, or can they be held liable for committing
crimes including without limitation the forced transfer of children and the persecution of
Christian, black, indigenous, and disabled women?
31. Do Metis have rights to their ancestral homeland in the United States?

63a
-8CLAIMS FOR RELIEF
COUNT ONE
CONSTITUTIONAL CLAIM
32. The Petitioner alleges and incorporates by reference paragraphs 1 through 31 above.
33. The Petitioner’ detainment violates her rights guaranteed under the U.S. Constitution including
without limitation:
Amendment IV rights: security ofperson,
Amendment V rights: nor be deprived of life, liberty, or property, without due process
of law, and
Amendment VIII rights: no cruel and unusual punishments inflicted.
COUNT TWO
TREATY CLAIM
34. The Petitioner alleges and incorporates by reference paragraphs 1 through 33 above.
35. The Petitioner's continued detainment violates the U.S. Constitution and the following United
Nations treaties:
Article 2, 3, 7, 10, 22, 26, and 33 of the U.N. Rights ofIndigenous Peoples,
Article 1 and 3 of the U.N, Torture Convention,
Article 3 and 4 of the U.N. Refugee Convention.

COUNT THREE
STATUTORY CLAIM
36. The Petitioner alleges and incorporates by reference paragraphs 1 through 35 above.
37. The Petitioner’s continued detainment violates the U.S. Constitution, the U.N. Rights of
Indigenous Peoples, the U.N. Torture Convention, the U.N. Refugee Convention, and the
Immigration and Nationality Act.

64a

-9PRAYER FOR RELIEF
WHEREFORE, Petitioner prays that this Court grant the following relief:
1. Assume jurisdiction over this matter;
2. Issue a writ of habeas corpus ordering the Respondents to release the Petitioner on her own
recognizance with all her personal effects including without limitation her Canadian passport,
Metis citizenship card, and other identification documents, asylum and detainment
documentation, cell phone, purse, and clothing, and
3. Grant any other relief which thi s Court deems just and proper in accordance with applicable
law for both the Petitioner and her advocate/"any person" Robert Cannon.

Respectfully submitted,
ROBERT CANNON
1102 Ave L North, Saskatoon, SK CA STL 2S1
Tel:
306 480-9473
Email: robert.cannon@usask.ca
"ANY PERSON" FOR THE PETITIONER
v.

Robert Cannon

VERIFICATION QF "ANY PERSON" J
L Robert Cannon, hereby certify that I am familiar with the case of the named petitioner and that the
facts as stated above are true and correct to the best of my knowledge and belief

Robert Cannon
Affirmed before me at the City of Chestenftere, in the Province of Alberta, in the Country of Canada,
this 27th day of November, 2020.

Notary Public
ANDREW G. KEIKSTEAD
Barrister, Solicitor and Notary Public

•\^L\
^•

£ <0 /

l-t;
I

NOTARY
PUBLIC

I

65a
-iTABLE OF CONTENTS
VOLUME T
Affidavit of "Any Person" Robert Cannon.

1

Reissued M6tis Card.

5

Identification Provided to the United States

7

The Kidnapping of Karis Richardson.

17

Royal Canadian Mounted Police Arbitrary Detainment Pictures,

18

Federal Court T-1403-20: Statement of Claim

.33

Record of Determination for Asylum Interview....................... ....................

77

National Inquiry Into Missing and Murdered Indigenous Women and Girls

115

VOLUME IT
A Metis Plea for Safety.

162

1-589 Application for Asylum and for Withholding of Removal

,295

1-589 Form.
Federal Court T-l 115-20: Statement of Claim.
Federal Court T-l 115-20: Notice of Motion,
Habeas Corpus Judgement of Justice Crooks, dated September 10, 2020,
Federal Court T- l 115-20: Affidavit of Dale Richardson
Corporate Litigation Battleford.

296
.....309
,333
..... 356
359
....378

Originating Application 5th Amendment.

378

Draft Interim Order.

388

Notice of Expedited Procedure...............

392

Originating Application 4th Amendment.

..394

VOLUME ITT
Originating Application 3rd Amendment.

404

Originating Application 2nd Amendment.

.414

66a
-iiOriginating Application 1st Amendment.

...422

Originating Application

.430

Corporate Communication Statement of Dale Richardson.

.436

Affidavit of Robert Cannon.

.603

VOLUME IV
Corporate Statement of Dale Richardson.
Habeas Corpus Appeal Book: Volume I.
Cover.
Pleadings,

.608
.712
...... 712
,720

Application For Writ of Habeas Corpus Ad Subjiciendum....... ..................

.720

Application For Writ of Habeas Corpus Ad Subjiciendum Without Notice.

722

Judgement of Honourable Mr. Justice G. CURRIE............... ......................

726

Application For Writ of Habeas Corpus Ad Subjiciendum Without Notice.

727

Judgement of Honourable Mr. Justice Currie...............................................

730

Application For Writ of Habeas Corpus Ad Subjiciendum.

731

Notice of Expedited Procedure.

734

Application For Writ of Habeas Corpus Ad Subjiciendum.

,735

Application For Writ of Habeas Corpus Ad Subjiciendum.

.745

Notice of Expedited Procedure................. ...........
Application for Dispensing Service Without Notice.

......... 755
.... 757

Judgement of Justice Crooks...... ......................................

.763

Notice of Appeal......................... ................................. .

766

Application for Dispensing with Service Without Notice,

..770

Judgement of J.A. Schwann............. ................................

.......778

Notice of Constitutional Questions...................................

786

j

67a
- iii VOMJME V
Exhibits (none formally marked on the record).

796

Affidavit of Robert Cannon.

,796

Habeas Corpus Appeal Book: Volume II

...983

Cover.

983

Exhibits (none formally marked on the record) (continued).

991

Affidavit of Robert Cannon.

.991

Affidavit of Personal Service.

1007

Affidavit of Kaysha Dery.

1009

VOLUME VI
Affidavit of Agatha Richardson.........

1040

Affidavit of Astra Richardson-pereira.

1042

Affidavit of Deron Thompson............

1045

Affidavit of Dale Richardson.

1048

Corporate Statement of Dale Richardson.

1080

Affidavit of Agatha Richardson, affirmed August 26, 2020.

1098

Affidavit of Astra Richardson-pereira................. ................

1102

Affidavit of Deron Thompson..............................................

1106

Affidavit of Dale Richardson..... .

1109

Corporate Statement of Dale Richardson.

1148

Affidavit for Dispensing Service.

1153

Affidavit for Dispensing Service.

1182

Affidavit of Service of Constitutional Questions

.,1210

Habeas Corpus Factum of the Appellant.............. .................

1241

Delaware Title 8 Documents.

1274

Affidavit of Extraordinary Condition, affirmed October 28, 2020

1274

68a
-ivVOUJME vn
The masonic conspirators...........

.1278

Transnational Terrorist Financing,

1319

Forged Federal Court Form.

1337

The Engineering Technical Report.

1339

69a

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEVADA
CASE NO.
BETWEEN:
Kaysha Dery/Richardson, a Canadian and Metis citizen with no criminal record in any
country located at 1292 95th Street, North Battleford, SK S9A 0G2 with ancestral homeland in
the Provinces of Saskatchewan and Alberta in the Country of Canada and the State of Montana
in the Country of the United States.
(hereinafter the "Petitioner")
- and 4. Attorney General of the United States;
5. U.S. Department of Homeland Security;
6. U.S. Citizenship and Immigration Services;
7. U.S. Immigration and Customs Enforcement;
8. Scott Robinson, ZCH 193;
9. Nevada Southern Detention Center; and
10. Brian Koehn.
(hereinafter each a "Respondent", collectively, the "Respondents")

AFFIDAVIT OF "ANY PERSON" ROBERT CANNON

November 27, 2020

ROBERT CANNON
1102 Ave L North, Saskatoon, SK CA S7L 2S1
Tel:
306 480-9473
Email: robert.eannon@usask.ca
"ANY PERSON" FOR THE PETITIONER

70a

-2TO:

ATTORNEY GENERAL OF THE UNITED STATES
U.S. Department of Justice, National Security Division
950 Pennsylvania Avenue, NW, Washington, D.G. 20530
Tel:
202 514-2007
Email: nsd.public@usdoj.gov
Fax:
202 514-5331

AND. TO:

U.S. DEPARTMENT OF HOMELAND SECURITY
245 Murray Lane, SW, Washington, DC 20528-0075
Tel:
202 282-8000

AND TO:

U.S. CITIZENSHIP AND IMMIGRATION SERVICES
111 Massachusetts Avenue, NW, MS 2260, Washington, DC 20529-2260

AND TO :

U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT
500 12th Street, SW, Washington, DC 20024

AND TO:

SCOTT ROBINSON, ZCH 193
Asylum Officer, U.S. Immigration and Customs Enforcement
500 12th Street, SW, Washington, DC 20024

AND TO:

NEVADA SOUTHERN DETENTION CENTER
2190 East Mesquite Avenue, Pahrump, NV 89060
Tel:
775-751-4500
Fax:
775-751-8763

AND TO:

BRIAN KOEHN
Warden, Nevada Southern Detention Center
2190 East Mesquite Avenue, Pahrump, NV 89060
775-751-4500
Fax:
775-75L8763
Tel:

71a

J7

’

1184
U

*

-o

1“'

il
:

W
l\J.

A

r>
Z ■

o

a
.

1

<■>

SJi'i ' ■ *»

isy?z>o.

o

m
S .

7\

II

Pf f

-g

o

A5‘

Vl-AV

>
S»<*
i y .**/«<;

■S!

ilS^MPI

1

Jj

5"
e {

mMBBSSt
A,

X

A Z
^
A

? ‘

A' m

IT
S
C

A
3*
A
00
AX

.
.

' g

A

>

slPBPPW
^fcl
HMI m
mt

3l<m£

- m i^a y-yy y

Csrji'

EM

a.. "■?■ xs
55

w-m

■■

6

' :W«SS^H4iMSI
i

!

lit iJ-i

x.^-i.-r.. >; y

..* i.. _

h

#1:^.,.,,.,.............

<?«» we *v ,<• iiiSsiiei

j^v

y>y>^ %r^y>

>r^»J

-Saskatchewan fJ< dinvi±lnenu’

• M

MR
I*
SI

yyHht-

re

K9
kEIII
*$
IS

I

"““Hlftaia
INgiMwr ife-.':
aM •■'-■;

a
S* •■„■«,.;■

%

jSiSfe-£eSp

w*..
""

fvftTiS NATION - SASKATCHEWAN

;

^^cj^.photo Renewal Date: 22/09/2025

Card Issue Date. 05/10/2020
efes»B, wascitaanip* Rh-oto Renewal Date: 05/10/20251

@jj

il

xy-

s.:

u

72a

Mr. President,

September 10, 2020

As the Posterity of the United States of America by treaty and blood right, a Metis citizen living
in Canada, I believe that all women are created equal, that they are endowed by the LORD with certain
unalienable Rights, that among these are Life and Liberty free from any kind of discrimination. In
Saskatchewan, Mr. President, me, my father, and the corporation we represent sought to relieve the
suffering of minorities including Metis, Indigenous, Black Canadians, and biracials thereof. However,
Mr. President, our efforts were hindered as my father, my 19-month old sister, and I were detained by
agents and affiliates of Saskatchewan law enforcement, health authorities, courts, the law society, and
other professional associations in violation of international law.
In accordance with Saskatchewan law, an application for hebeas corpus ad subjiciendum, or
unlawful detainment, was filed on my, my father, my sister, and our affiliate's behalf and my father, our
affiliate, and I were subsequently released, but my 19-mOnth old sister is still being detained. I fear for
Our future, Mr. President, for the future of all religious and racial minorities that have a right to Life and
Liberty in the United States of America by treaty and blood right. The agents held me hostage against
my will in a maximum security prison under the guise of the Covid emergency.
The Canadian government has met our pleas for refuge with silence, Mr. President, hereby I
request your intervention as this matter now threatens two of your own, me, a Metis Citizen and our
affiliate, a Status Indian. Our Life and Liberty are in jeopardy, Mr. President, as these agents of the
Saskatchewan government have physically and psychologically tortured us on Canadian Soil. These
agents, no these terrorists seek to commit genocide against the religious and racial minorities to which
two of your own belongs.
Enclosures:
Exhibit A: U.S. Embassy & Consulates in Canada: First Nations and Native Americans
Exhibit B: Akins v. Saxbe, 380 F. Supp. 1210 (D. Me. 1974)
Exhibit C: The Jay Treaty 1794
Exhibit D: United Nations Declaration on the Rights of Indigenous Peoples
Exhibit E: Metis Nation Saskatchewan Citizenship Verification Letter
Exhibit F: Kaysha Dery Photo ID Redacted
Exhibit G: Application for Habeas Corpus Ad Subjiciendum Highlights
Exhibit H: Originating Application for Judicial Review Highlights
Exhibit I: Documents for Service on USB Flash Drive
Regards,
Kaysha Dery

T

73a
First Nations and Native Americans | U.S. Embas...

https://ca.usembassy.gov/visas/first-nations-and-na...

Exhibit A
I U.S. Embassy & Consulates
v in Canada
First Nations and Native Americans
The Jay Treaty, signed in 1794 between Great Britain and the United States, provides that
American Indians may travel freely across the international boundary. Under the treaty and
corresponding legislation, Native Indians born in Canada are entitled to freely enter the United
States for the purpose of employment, study, retirement, investing, and/or immigration.
In order to qualify for these privileges, eligible persons must provide evidence of their American
Indian background to at the port of entry. The documentation must be sufficient to show the
bearer is at least 50% of the American Indian race. Generally such evidence would include either
an identification card from the Ministry of Indian and Northern Affairs or a written statement from
an official of the tribe from which you or your ancestors originate, substantiated by documentary
evidence (tribe records and civil long form birth certificate bearing the names of both parents).
Such a statement would be on the tribe’s official letterhead and should explicitly state what
percentage American Indian blood you or your parents possess, based on official records. You
should also provide photographic identification, such as a driver's license or passport, and a
Western Hemisphere Travel Initiative (WHTI)-compliant travel document. WHTI makes special
provisions for First Nation travelers.

This is the official website of the U.S. Embassy and Consulates in Canada. External links to other Internet sites should not be
construed as an endorsement of the views or privacy policies contained therein.

1 of 1

2020-09-08, 10:16 p.m.

74a
Akins v. Saxbe, 380 F. Supp. 1210 (D. Me. 1974)::

https://Iaw.justia.com/cases/federal/district-court...

JUSTIA

Exhibit B
1

i

Laws & Legal Resources.

Akins v. Saxbe, 380 F. Supp. 1210 (D. Me.
1974)
US District Court for the District of Maine - 380 F. Supp. 1210 (D, Me. 1974)
June 20,1974

380 F. Supp. 1210 (1974)
Andrew AKINS et at., Plaintiffs,
v.
William SAXBE et al., Defendants.
Civ. NO. 2031 N. D.
United States District Court, D. Maine, N. D.
June 20,1974.
*1211 *1212 David C. Crosby and Thomas N. Tureen, Calais, Me., Robert N. Moore, Jr., Houlton,
Me., for plaintiffs.
Peter Mills, U. S. Atty., Portland, Me., Anthony S. Borwick, Atty., Dept, of Justice, Washington, D.
C., for defendants.

OPINION AND ORDER OF THE COURT

1 of 16

2020-09-08, 4:35 p.m.

75a
Akins v. Saxbe, 380 F. Supp. 1210 (D. Me. 1974)::

https://law.justia.com/cases/federal/district-court...

That no stipulations in any treaty subsequently concluded by either of the contracting
parties with any other state or nation, or with any Indian tribe, can be understood to
derogate in any manner from the rights of free intercourse and commerce, secured by
the aforesaid third article of the treaty of amity, commerce and navigation to the
subjects of his Majesty and to the citizens of the United States, and to the Indians
dwelling on either side of the boundary line aforesaid; but that all the said persons shall
remain at full liberty freely to pass and repass by land or inland navigation, into the
respective territories and countries of the contracting parties, on either side of said
boundary line, and freely to carry on trade and commerce with each other, according to
the stipulations of the said third article of the treaty of amity, commerce and navigation.
The provision of Article III of the Jay Treaty relating to duties was incorporated in various tariff acts
until 1897, but the Article III language granting Indians the right to enter duty free was not included
in the Tariff Act of 1897, 30 Stat. 151, and it has not been included in any subsequent tariff act.
Although the exact time when duties were first charged on goods brought across the border by
Indians is not known, in 1937, the Court of Customs and Patent Appeals held in United States v,
Garrow, 88 F.2d 318 (C.C.P.A.), cert, denied, 302 U.S. 695, 58 S. Ct. 14, 82 L. Ed. 537 (1937), that
Article III of the Jay Treaty had been abrogated by the War of 1812, and that the right of Indians to
enter duty-free, insofar as it had been created by statute, lapsed in 1897 when the Article III
language incorporated *1214 in previous tariff acts was not renewed. Relying on the court's ruling
in Garrow, the Secretary, through the Bureau of the Customs, has been levying customs duties on
goods brought into the United States by Indians, including these plaintiffs.
Immigration officials evidently recognized a right in Canadian-born Indians to cross the
International Boundary and to remain in the United States free from the usual restrictions placed on
aliens until the passage of the Immigration and Nationality Act of 1924, 43 Stat. 153, at which time
the Department of Labor began deporting Canadian-born Indians who had entered the country
without registering as aliens and without obtaining immigrant visas. Following a successful court
challenge to the Department's policy. United States ex rel. Diabo v. McCandless, 18 F.2d 282
(E.D.Pa.1927), aff'd, 25 F,2d 71 (3rd Cir. 1928), Congress, in 1928, enacted legislation, currently
codified (as amended) as 8 U.S.C. § 1359, which provides as follows:

Nothing in this subchapter [dealing with immigration] shall be construed to affect the
right of American Indians: born in Canada to pass the borders of the United States, but
such right shall extend only to persons who possess at least 50 per centum of blood of
the American Indian race.
4 of 16

2020-09-08, 4:35 p.m.

76a

Exhibit C
The Jay Treaty - November 19,1794
INAD Publication #QS-1355-000-EE-A2

THE JAY TREATY
1794(1)
TREATY OF AMITY COMMERCE AND NAVIGATION
Concluded November 19,1794; ratification advised by the senate with amendment June
24,1795; ratified by the President; ratifications exchanged October 28,1795; proclaimed
February 29,1796.
ARTICLES:
I.

III.
IV.
V.
VI.
VII.
VIII.
IX.
X.
XI.
XII.
XIII.
XIV.

Amity.
Withdrawal of forces;
privileges of settlers.
Commerce and navigation;
duties.
Survey of the Mississippi.
St. Croix River
Indemnification by
United States.
Indemnification by Great
Britain.
Expenses.
Land tenures.
Private debts, etc.
Liberty of navigation
and commerce.
West India trade; duties.
East India trade; duties.
Commerce and Navigation.

XV.
XVI.
XVII.
XVIII.
XIX.
XX.
XXI.
XXII,
XXIII.
XXIV.
XXV.
XXIV.
XXVII.
XXVIII.

Discrimination on vessels,
imports, etc.
Consuls.
Capture or detention of
neutrals.
Contraband.
Officers passengers on
neutrals.
Pirates.
Commission from foreign
states.
Reprisals.
Ships of war.
Foreign privateers.
Prizes.
Reciprocal treatment of
citizens in war.
Extradition.
Limitation of Article
XII; ratification.

His Britannic Majesty and the United States of America, being desirous, by a treaty
of amity, commerce and navigation, to terminate their difference in such a manner, as,
without reference to the merits of their respective complaints and pretentions, may be the
best calculated to produce mutual satisfaction and good understanding; and also to
regulate the commerce and navigation between their respective countries, territories and
people, in such a manner as to render the same reciprocally beneficial and satisfactory;
they have, respectively, named their Plenipotentiaries, and given them full powers to treat
of, and conclude the said treaty, that is to say:
His Britannic Majesty has named for his Plenipotentiary, the Right Honorable William
Wyndham Baron Grenville of Wotton, one of His Majesty’s Privy Council, and His Majesty's

77a

Principal Secretary of State for Foreign Affairs; and the President of the said United States,
by and with the advice and consent of the Senate thereof, hath appointed for their
Plenipotentiary, the Honorable John Jay, Chief Justice of the said United States, and their
Envoy Extraordinary to His Majesty;
Who have agreed on and concluded the following articles:
ARTICLE I.
There shall be a firm, inviolable and universal peace, and a true and sincere
friendship between His Britannic Majesty, his heirs and successors, and the United States
of America; and between their respective countries, territories, cities, towns and people of
every degree, without exception of persons or places.
ARTICLE II.
His Majesty will withdraw all his troops and garrisons from all posts and places within
the boundary lines assigned by the treaty of peace to the United States. This evacuation
shall take place on or before the first day of June, one thousand seven hundred and ninetysix, and all the proper measures shall in the interval be taken by concert between the
Government of the United States and His Majesty's Governor-General in America for
settling the previous arrangements which may be necessary respecting the delivery of the
said post: The United States in the mean time, at their discretion, extending their
settlements to any part within the said boundary line, except within the precincts or
jurisdiction of any of the said posts. All settlers and traders, within the precincts or
jurisdiction of the said posts, shall continue to enjoy, unmolested, all their property of every
kind, arid shall be protected therein. They shall be at full liberty to remain there, or to
remove with all or any part of their effects; and it shall also be free to them to sell thejr
lands, houses or effects, or to retain the property thereof, at their discretion; such of them
as shall continue to reside within the said boundary lines, shall not be compelled to become
citizens of the United States, or to a take any oath of allegiance to the Government thereof;
but they shall be at full liberty so to do if they think proper, and they shall make and declare
their election within one year after the evacuation aforesaid. And all persons who shall
continue there after the expiration of the said year, without having declared their intention of
remaining subjects of His Britannic Majesty, shall be considered as having elected to
become citizens of the United States.
ARTICLE III.
It is agreed that it shall at all times be free to His Majesty's subjects, and to the
citizens of the United States, and also to the Indians dwelling on either side of the said
(boundary line, freely to pass and repass by land or inland navigation, into the respective
territories and countries of the two parties, on the continent of America, (the country within
the limits of the Hudson's Bay Company only excepted.) and to navigate all the lakes, rivers
and waters thereof, and freely to carry on trade and commerce with each other. But it is
understood that this article does not extend to the admission of vessels of the United States

78a

instructions will be given accordingly to the Collector of the Customs where the respective
vessels are.
I have the honor to be, &c.,
GEO: HAMMOND, Esq.

TH: JEFFERSON.

ADDITIONAL ARTICLE.(8)
It is further agreed, between the said contracting parties, that the operation of so
much of the twelfth article of the said treaty as respects the trade which his said Majesty
thereby consents may be carried on between the United States and his islands in the West
Indies, in the manner and on the terms and conditions therein specified, shall be
suspended.

1796.
EXPLANATORY ARTICLE TO THE THIRD ARTICLE OF THE TREATY OF NOVEMBER
19,1794, RESPECTING THE LIBERTY TO PASS AND REPASS THE BORDERS ANDTO
CARRY ON TRADE AND COMMERCE.
Concluded May 4,1796; Ratification advised by Senate May 9,1796.
Whereas by the third article of the treaty of amity, commerce and navigation,
concluded at London on the nineteenth day of November, one thousand seven hundred
and ninety-four, between His Britannic Majesty and the United States of America, it was
agreed that is should at all times be free to His Majesty's subjects and to the citizens of the
United States, and also to the Indians dwelling on either side of the boundary line, assigned
by the treaty of peace to the United States, freely to pass and repass, by land or inland
navigation, into the respective territories and countries of the two contracting parties, on the
continent of America, (the country within the limits of the Hudson's Bay Company only
excepted,) and to navigate all the lakes, rivers, and waters thereof, and freely to carry on
trade and commerce with each other, subject to the provisions and limitations contained in
the said article: And whereas by the eighth article of the treaty of peace and friendship
concluded at Greenvillle on the third day of August, one thousand seven hundred and
ninety-five, between the United States and the nations or tribes of Indians called the
Wyandots, Delawares, Shawanoes, Ottawas, Chippewas, Putawatimies, Miamis, Eel River,
Weeas, Kickapoos, Piankashaws, and Kaskaskias, it was stipulated that no person should
be permitted to reside at any of the towns or the hunting camps of the said Indian tribes, as
a trader, who is not furnished with a licence for that purpose under the authority of the
United States: Which latter stipulation has excited doubts, whether in its operation it may
not interfere with the due execution of the third article of the treaty of amity, commerce and
navigation: And it being the sincere desire of His Britannic Majesty and of the United States
that this point should be so explained as to remove all doubts and promote mutual
satisfaction and friendship: And for this purpose His Britannic Majesty having named for his
Commissioner, Phineas Bond, Esquire, His Majesty's Consul-General for the Middle and
Southern States of America, (and now His Majesty's Charge d'Affaires to the United
States,) and the President of the United States having named for their Commissioner,

Ojibwe, Ojibwa, Chippewa, or Saulteaux are an Anishinaabe people in what is currently
southern Canada and the northern Midwestern United States

79a

Exhibit D

United Nations

United Nations
DECLARATION
on the RIGHTS
of INDIGENOUS
PEOPLES

United Nations

Article 2
Indigenous peoples and individuals are free and equal to all other
peoples and individuals and have the right to be free from any kind
of discrimination, in the exercise of their rights, in particular that
based on their indigenous origin or identity.

Article 6
Every indigenous individual has the right to a nationality.
Article 7
1. Indigenous individuals have the rights to life, physical and men­
tal integrity, liberty and securin' of person.
2. Indigenous peoples have the collective right to live in freedom,
peace and security as distinct peoples and shall not be subjected to
any act of genocide or any other act of violence, including forcibly
removing children of the group to another group.

80a
Article 8
1. Indigenous peoples and individuals have the right not to be
subjected to forced assimilation or destruction of their culture.
2. States shail provide effective mechanisms for prevention of, and
redress for:
(a) Any action, which has the aim or effect of depriving; them
of their integrity as distinct peoples, or of their cultural values
or ethnic identities;
(b) Any action which has the aim or effect of dispossessing:
them of their lands, territories or resources;
(c) Any form of forced population transfer which has the aim
or effect of violating or undermining any of their rights;
(d)

Any form of forced assimilation or integration;

(e) Any form of propaganda designed to promote or incite
racial or ethnic discrimination directed against them.

!Article 9.
Indigenous peoples and individuals have the right to belong to am
indigenous community or nation, in accordance with the traditions,
and customs of the community' or nation concerned. No discrimina­
tion of any kind may arise from the exercise of such a right.
Article 10
Indigenous peoples shall not be forcibly removed from their lands or
territories. No relocation shall take place without the free, prior and
informed consent of the indigenous peoples concerned and after
agreement on just and fair compensation and, where possible, with
the option of return.
Article 11
1. Indigenous peoples have the right to practise and revitalize thencultural traditions and customs. This includes the right to maintain,
protect and develop the past, present and future manifestations of
their cultures, such as archaeological and historical sites, artefacts,
designs, ceremonies, technologies and visual and performing arts
and literature;
2, States shall provide redress through effecti ve mechanisms, which
may include restitution, developed in conjunction with indigenous
peoples, with respect to their cultural, intellectual, religious and spir­
itual property taken without their free, prior and informed consent
or in violation of their laws, traditions and customs.

Article 22
1. Particular attention shall be paid to the rights and special needs
of indigenous elders, women, youth, children and persons with dis­
abilities in the implementation of this Declaration.1
2. States shall take measures, in conjunction with indigenous peoples,
to ensure that indigenous women and children enjoy the full protection
and guarantees against all forms of violence and discrimination.

81a
Article 24
1. Indigenous peoples have the right to their traditional medicines
and to maintain their health practices, including the conservation of
their vital medicinal plants, animals and minerals. Indigenous indi­
viduals also have the right to access, without any discrimination, to
all social and health services.
2, Indigenous individuals have an equal right to die enjoyment of
the highest attainable standard of physical and mental health. States
shall take the necessary steps with a view to achieving progressively
the full realization of this right.
9

Article 26
1. Indigenous peoples have the tight to the lands, territories and
resources which they have traditionally owned, occupied or other­
wise used or acquired.
2. Indigenous peoples have the light to own, use, develop and
control the lands, territories and resources that they possess by rea­
son of traditional ownership or other traditional occupation or use,,
•as. well as those which they have otherwise acquired.
3. States shall give legal recognition and protection to these lands,
territories and resources. Such recognition shall be conducted with
due respect to die customs, traditions and land tenure systems of the
indigenous peoples concerned.
Article 28
1. Indigenous peoples have the right to redress, by means that can
include restitution or, when this is not possible, just, fair and equita­
ble compensation, for the lands, territories and resources which drey
have traditionally owned or otherwise occupied or used, and which
have been confiscated., taken, occupied, used or damaged without
their free, prior and informed consent.
Article 33
1. Indigenous peoples have the right to determine their own iden­
tity or membership in accordance with their customs and traditions.
This does not impair the right of indigenous individuals to obtain
citizenship of the States in which they live.
2. Indigenous peoples have the right to determine the structures
and to select the membership of their institutions in accordance with
■.their own procedures.

82a
Article 37
1. Indigenous peoples have the right to the recognition, observ­
ance and enforcement of treaties, agreements and other constructive
arrangements concluded with States or tlieir successors and to have
States honour and respect such treaties, agreements and other con­
structive arrangements
2. Nothing in this Declaration may be interpreted as diminishing
or eliminating the rights of indigenous peoples contained in treaties,
agreements and other constructive arrangements.
Article 38
States, in consultation and cooperation with indigenous peoples,
shall take the appropriate measures, including legislative measures,1
to achieve die ends of this Declaration.
Article 39
Indigenous peoples have the right to have access to financial and
(technical assistance from States and through international coopera-,
.tion, for the enjoyment of the rights contained in this Declaration.
Article 40
Indigenous peoples have the right to access to arid prompt decision
through just and fair procedures for die resolution of conflicts and ;
disputes with States or other parties, as well as to effective remedies;
•for all infringements of their individual and collective rights. Such
;a decision shall give due consideration to the customs, traditions,
rules and legal systems of the indigenous peoples concerned and
international human rights..

Article 42
The United Nations, its bodies, including the Permanent Forum on,
(Indigenous Issues, and specialized agencies, including at the couth •
try level, and States shall promote respect for and full application of;
'the provisions of this Declaration and follow up the effectiveness of
this Declaration.

83a

Exhibit E

Y8R&.
'Metis
Nation
utejk 7™^ Saskatchewan
Wednesday, September 09, 2020

Dear: Kaysha Dery,
Thank you for applying for Metis Nation - Saskatchewan Citizenship (MN-S). MN-S Citizenship Registry has created
a database to register all Metis citizens through a secure, efficient, standardized and objectively verifiable process.
Applicants are required to meet the four parts of Article 10 of the Constitution of the Metis Nation - Saskatchewan.
"Metis means a person, who self identifies os Metis, is distinct from other Aboriginal peoples, is of historical Metis
Nation Ancestry and is accepted by the Metis Nation."
The four parts are as follows:
1)
Metis means a person, who self identifies as Metis...,
The first part of the definition is met by signing a self-declaration on the Metis Citizenship application form.
2)

Is distinct from other Aboriginal Peoples,
The second part of the definition is met by signing a letter requesting Indian and Northern Affairs Canada to check their registry to
find if the applicant.is registered as a Status Indian. In order to receive a MN-S Citizenship card an applicant cannot belong to any other
Aboriginal groups recognized in the Canadian Constitution 1982 Section 35 these groups are Indian, Inuit and Metis, They cannot be
recognized as Inuit or Indian.

3)

Is of historical Metis Ancestry...
There must be proof of the applicant's ancestral connection to the Metis Homeland. This is demonstrated by providing a family tree
with supporting documentation. The supporting documentation must show generation to generation connection to a historic Metis
person in the historic Metis Homeland. The historical Metis homeland means the area of west central North America used and
occupied as the traditional territory of the Metis or Half breeds as they were known.

4)

And is accepted by the Metis Nation.
The applicant can either belong to one of the Metis Locals or belong to the Metis Nation-Saskatchewan provincially.

This letter is to acknowledge that you, Kaysha Dery have self-identified as being a Metis person and have applied for
MN-S Citizenship. You, Kaysha Dery have met all the previously listed criteria and will be receiving MN-S Citizenship.
Your MN-S Citizenship number is #12188.

If you require further information or have questions about the MN-S Citizenship Registry process, please contact the
MN-S Citizenship Registry office.

Thank you,

Tammy Vallee
Registrar, MN-S Provincial Citizenship Registry

209-2121 Airport Dr. I Saskatoon, SK | S7L 6W51 Ph 306:343.83911 Tf 1.833.343.83911 Fx 306.343.8398 | Registry@mnsregistry.ca
The Metis Nation—Saskatchewan represents Metis Citizens living in Saskatchewan, As such, the MN-S strives for the political, legal and constitutional
recognition, and guarantee of the rights of Our People; including the right, to a land arid resource base, seif -government and self-government institutions.

84a

Exhibit G
Dale Richardson
From:

Attachments

Dale Richardson
July 9,2020 2:06 AM
urgent-action@ohchr.org
CP@ohchr.org
Crimes Against humanity
M icrosoft Outlook - M emo Style email june 8th 2020.pdf

Importance:

High

Sent:
To:

Cc:
Subject:

Good day,

DSR Karis Consulting Inc. ("Corporation") has suffered from the systemic racism and discrimination based on
race, sex, religion, disability, and socioeconomic status in Canada and subsequent unlawful torture of its Chief
Executive Officer ("CEO"), Dale Richardson, and Chief Communication Officer ("CCO"), Kaysha Dery, in
violation of human fights and fundamental freedoms pursuant to:
The list of Human Rights abuses that are in direct violation of the UN Declaration of Human Rights that Mr.
Richardson and those associated to him are being subjected to which include and are not limited to:

i. Article 1, 2, 3, 5, 6, 7, 8, 9,12,17,18,19, 22, 23, 24, 25, 26, 27, 29, and 30.
This does hot include the rights of the child that Mr. Richardson's daughter is being deprived of which includes
but is not limited to the following articles of the United Nations Conventions on the Rights of the Child:

ii. Article 2, 3, 4, 5, 6, 7, 8, 9,14,15,16,17,18,19, 27, 30, 31, 35, 36, 37 and 39.
The violations of Convention on the Rights of Persons with Disabilities and Optional Protocol includes but is
not limited to:

iii. Article 4, 5, 8, 9,10,11,12,13,15,16,17,19, 21, 22, 23, 24, 25, 26, 27, and 30
The Corporation hereby issues a complaint on behalf of Dale Richardson, Karis Richardson, Kaysha Dery, and
other underrepresented groups including Metis, Indigenous, black Canadians, and biracials thereof against the
persons described in the events hereafter.
On Feb 16 and 17, Clifford Holm, Gary Lund, Ciprian Bolah, Dawn Lund, Mazel Holm, and Jeannie Johnston as
individuals and as representatives of the Battlefords Seventh-Day Adventist Church started the torture of Dale
Richardson and Kaysha Dery which would continue for nearly five months; many appeals were made to and
unlawfully ignored by all governance in the Seventh-Day Adventist Church including without limitation
General Conference of Seventh-day Adventists, North American Division of the Seventh-day Adventist Church
and the other twelve divisions, Seventh-day Adventist Church in Canada, Alberta Conference, ManitobaSaskatchewan Conference, and Battlefords Seventh-Day Adventist Church.
On June 29, Robert H. McDonald, on behalf of the Association of Professional Engineers and Geoscientists of
Saskatchewan ("APEGS"), attempted to unlawfully coerce the Corporation into releasing confidential
l

85a

information by the misapplying of The Engineering and Geoscience Professions Act, 1997 ("EGPA") in a
demand for such information.
On June 30, the lawful activity of the Corporation was limited by the unlawful torture of its representative,
Dale Richardson. The representative was served a petition, in which alleged perjury occurred, for divorce,
custody, supervised access, child support and maintenance, guardianship over children's property, and lawyer
fees and the Court Of Queens Bench of Saskatchewan registrar of the petition was Kathleen Christopherson
and the lawyer was Patricia J. Meiklejobn of Matrix Law Group.
On July 3 and before incriminating himself for torture, Const. Burton as a representative of the Royal
Canadian Mounted Police ("RCMP") started a criminal negligence investigation on the Saskatchewan Health
Authority ("SHA") and its representatives with the Corporation as a complainant.
On July 7 and 8, Chantelle Thompson, Jennifer Schmidt, Mark Clements, Chad Gartner, Brad Appel, Ian
McArthur, Bryce Bohun, Kathy lrwin> Jason Panchyshyn, and Cary Ransome conspired with Const. Cartier as a
representative of the RCMP to limit the lawful activity of the Corporation by the torture of its representative,
Dale Richardson, and the criminal negligence of the SHA. The evidence of this conspiracy has been attached to
this email named Microsoft Outlook - Memo Style email june 8th 2020.
More information to follow.

Kind regards,
Dale Richardson, MET, TT (AB)
Chief Executive Officer
DSR KARIS Consulting INC.
North Battleford, SK
dale.richardson(5>dsrkarisconsulting.com
Tel 306 441 7010

2

86a
THIS FORM SHOULD BE COMPLETED WITH THE ASSISTANCE OF INDIVIDUALS WHO HAVE BEEN TRAINED BY THE COURT

Cour
Finale
Internationale
International
Criminal
Court

Surname of victim

Application form for individuals
RichsrdSOfl

First and/or other names of victim

Dale James Sadat

I Any names bv which th* victim Is commonly known can be given here

o
z

Gender

Date of birth or age .46

-------------------

| th case the applicant does not know their dale of birth, approximate age can be given

Victim application number __ fm

/

If previoushr applied, please give the application number

Ci

o

Nationality _-Canadian____ „___ __________ __

Ethnic group

C.3 h b.b.630

a.

o
o

<
Z

<
CC

O

a

cc

<

X

o
z
o
o

$
13

1.

What process is the victim applying for?

□

| Please ttefc both boxes if you want to participate in the proceedings as well as reparations In case of a conviction

0 PARTICIPATION

0 REPARATIONS (in case of a conviction)

2. What happened to the victim? Describe the events in as much detail as possible
This indudes any crime that may have been committed against family members of the vktlm and as a result of which the victim suffered harm. If you do riot have enough space tofulfy describe what happened to
you, you may use a separate piece of paper on whkh you shall append your name and signature

The attached documents will outline the history of the crimes committed. It consists primarily of emails and copies of _
text nwssa^-cbi^unications. There is also a link to video evidence and audio recoi^g^ffiaFspeairto-this"miittef.as
welirTITe^muriici^airprdvinciar'ahd federalievels^df^^the govWnmehf have'been'apprised'of^theSe"eventsT6r^6meTirfieres-well as-local,-conferencer union,-divisional and-general-conference- levels of the Seventh»Day Adventisttrfiurchr-T-heyhave-all-stood-by~in-silence,~The-footof-the-issue-started.with-religious-persecution.by-the-Seventh-Day.Adventist---------church. The members of the Battlefords Seventh-Day Adventist began to discriminate against me because of theological differences. The official teachings of the church are what is the accepted teachings as votes on by the general
conference of Seventh-Day Aaventi^r,,Ahy'teichihg> bu^ide> 6f'this 'i8 in violation of cnurch "policy and it is not reoognized"because1t"hasTiotbeen‘acceptedby1he~worldchurch:in~essence7landihose~around“me~were"targeted "because
we-heldto-the-aGcepted-teaGhingsofthe-Seventh-Day-Adventistchurch.-Moreinformationon-emailattachments. -----------

02

<
X
SJ

3. when did these event(s) occur?

From documentation in 2020, possibly earlier._____________________________

4. Where did these event(s) occur? . North.Bottleford. Saskatchew.30 C303d3________ ___ _
O

5, Who does the victim believe is responsible for these event(s)?

Will answer on the next pages

cc

6. What type of personal harm has the victim suffered? . wji[jeSCnbe^On Jiexj^gage

cc

Please provide a detailed description of the harm as well as the Impact on the Individual, family and community level. If a box is ticked, the corresponding harm should be detailed in the description. You may tick
more than one box. if you do not have enough space to fully describe the harm, you may use a separate piece of paper on which you shall append your name and signature

\r>
vn

o

cc

z
o
a.
u

TYPES OF HARM

DESCRIPTION

[~~| PHYSICAL INJURIES
Such as (chronic) pain, .wounds, scars, omputatton toss
or limited use of o limb, body organ or function. Victims
may have also contracted Injections or diseases os a
result of the harm suffered. These may include Joss of
sight/hcaring or sexually transmitted d'ecoses, etc

a.

<
x
a
z

<

£
cc
O

x

g] PSYCHOLOGICAL HARM
Such as anguish, anxiety, onger, sadness, Jeor, low self­
esteem vulnerability, shame, isolation, nightmares,
aggression or distance from relatives, sleeping or eating
disorders, alcohol or drug addiction, complaints or
concerns related to experiences of sexual violence,
memory loss, lack of concentration, etc.

X] LOSS OF OR OAMAGE TO PROPERTY

anguish, torture, anxiety, depression, intimidation, coercion, harassir^t7T6i^reTb'myfam^ilyand'T8 month old daughter, distance from
relativesrisolationrhelplessnessrhopelessnessrdepressionTfearr—
shame,-humiliation,-------------------------------------------------------------------loss of vehicle, tools, money

Such os the loss, aomage or destruction of the victims'
home(s) or other property Including tend!, business,
money, animals, crops, merchandise, household goods,
dothtng, car, boat, motorbike, etc

1x1 OTHER HARM
The victim may have experienced order types oj harm such
as toss of income or other support connected to livelihood,
loss offinancialprovider, lost opportunities /business,
economic; educational, famfTtal, etc), stigmatization, break
up offamily unit, Inability to work, unwanted pregnancy,
displacement gender- spedfk harm, etc

loss of income, incalculable loss of opportunities relating to substantial
torture and other such oppressive tactics that affected my ability to act
^“Cffiefwg^eutiyirofficw^T)SRKan§~C6TTsultingTnc7My”giradg§
suffered-and-elasses-had-to-be-dropped-as-a-resultr-Family-unit-has-—
been severed. More on the following pages.
2019 JOINT APPLICATION FORM V02 L (ENG] - INDIVIDUAL

1

87a

7.

in the event of a conviction (and if resources are available), what form of reparations would you like to claim?

| Please see the examples listed below for potential guidance. You may Indicate multiple examples of reparations. Reparations can only be awarded in the event of a conviction

EXAMPLES OF REPARATIONS

DESCRIPTION

[JC] FINANCIAL COMPENSATION

Compensation for damages without limitation; The Human rights violations and applicable UN charter violations listed in the attached docUmWitsT'th^'iggre^iQu^psychoIogicardaimagesTesQltihg^froWthehl
and the criminal violations, and the severdamage to-human dignity:....

Refers to monetary compensation for damages. This may
tndude compensationfor material, physical or
psychological harm.
O

z

o

o
O
cc
a.

Pel

O

rctum/reconstruction ofspedfleiost/destruaedproperty,

RESTITUTION

Refers to awards that seek to restore the victim »rhe
piece that they were,In before the commission of crimefs).This may indude the return to place ofresidence, the
the reinstatement ofprevious employment, or the

ID

<

restoration of right (such os education support, etc)

[X~| REHABILITATION
>■

z

<
tc
O

Refers to measures such os medical and psychological
care for wounds, sickness, disease or onyform of
psychological harm. Also refers to legal and sodaI
. services.

measures as sent to the Battlefords SPA church when informing them
of their illegal activity, return lost economic benefits resulting from iilegalactivity7all6wihgthe1awfulOp'eratibhdfallchurcfrassefs~asset
out by the official accepted church doctrines as laid out in the bible —
and the writings of Fllen White, whom is accepted hy the church_____
Medical and psychological care as prescribed with my religious values.
~Seventh-DayAdv¥htM
carein"heaiththat“alrgns"withmyreligiousbeliefs:
'

A3

X
u
O
z

OTHER FORM OF REPARATIONS

establishing the truth, apologies, judicial and legal reforms to ensure

May include ony type ofaward the victim considers most
appropriate to address and repair the harm suffered. This
moyindudei Income generating activities, establishment

,
,
_»
i
•
i_
_»
i
_
,
... ,
,
-h3S- H3pp606Cl-d4lfinQ -tn6 -Ci3rk-3QGS. Pf0Qf3fnS~t0- U8-@St3bliSH6Cl~tO-SUP“

port the prosperity of Black Canadians. Persons of Bi-Racial Descent.
visible minorities, disabilities, more protection from religious persecutlon. more on next page.

o
a
35

to
«r.
x

u

o
Lu
UJ

DOES THE VICTIM CONSENT TO PROVIDING THE PERSONAL INFORMATION CONTAINED IN THIS APPLICATION FORM TO THE COURT'S TRUST FUND FOR VICTIMS?

□ yes

□ no

Reparations may be dispersed through the.Court's Trust Fund for Victim* (TFV)

cc

cc

<

To be completed only if a person is acting on behalf of the victim:

cr.

I

1 Victim is a child

o
O

|

| Victim is a person with a disability

Q.

I

Relationship to victim _______________________________________________________________________
ji Please provide

copies of proof of Identify of Hie personacting on behalf of the vtolm and a

I Victim is an adult and gives consent

z
o

for someone to act on their behalf

<

Consenting victim muststgn below or attach a declaration •
please see instructions

a.

Details of person acting on behalf of victim:

o

<
Surname

First name

Date of birth/age

X
jm.

a

z
<c
2
O

Signature of person acting on behalf of the victim

Oate

Location

l/T

X
t-

IN SUBMITTING THIS APPLICATION THE VICTIM ACKNOWLEDGES WITH THE SIGNATURE THAT THE INFORMATION CONTAINED
HEREIN IS ACCURATE TO THE BEST OF THE VICTIM’S KNOWLEDGE AND SHOULD BE CONSIDERED FOR THE TRUTH OF ITS CONTENT

Signature of the yictim/person acting on behalf of the victim

Date

Location

2019 JOINT APPLICATION FORM V02 L (ENG] - INDIVIDUAL

2

88a
Personal information
8.

If applicable, why does the victim want to participate in the Court proceedings?-------------------------------------------------------- ——______-_______—

There has been a deliberate attempt to suppress the victim from speaking. The. victim was attempt­
ing to speak the truth, and it was suppressed. This is unacceptable.

9.

Does the victim have reasons to be concerned about security, including that of his/her family, as a result of
interaction with the Court?

7.

xf]Yes

I

Ino

Ifyes, please explain

information given on the another page.

a
u
o
CL

O

10. Victim's marital status _
11.

!]

Married

Number of children the victim has

2

a

<

>x
c

as
Q

II] Total number of dependents the victim has
12.

Specify disabilities the victim has, if any

13. Specify language(s) spoken by the victim

1

ADHD, Generalized anxiety disorder, Major depressive disorder
English

UJ

14.

Specify occupation the victim has, if any

Mechanical Engineering Technologist, Power of Attorney

X

o
►—

o

15. LEGAL REPRESENTATION:

X

a
a

I]

5

If yes, please provide the name and contact details of the lawyer

II]

Has the victim chosen a lawyer to represent him or her in the proceedings before the Court? Q] Yes

Does the victim have financial resources to pay for a lawyer?

[□ Yes

pi NO

| X~| No

X

III] Does the victim have concerns being represented by a lawyer/legal team that also represents other victims in the
o

proceedings?

□] Yes

□] No

If yes, please explain

0C

]

<X

IV] Characteristics and qualities that the victim considers necessary in a lawyer representing them in the proceedings

v>

integrity, honesty, true to duty, pursuit of the truth, value religious freedom, compassion, value for f
the magna carta.
j!

o

Vl-lf thevictim is unrepresented:

z
a

a)

QNo

!

Does the victim wish to choose a lawyer from the List of Counsel before the Court?

Q.

ill

^“

(an independent office of lawyers within the Court, representing victims in proceedings)

b)

<

...................

Does the victim wish to be represented by a lawyer from the Office of Public Counsel for Victims at the Court?
□ Yes

CL.

.. ~

:

□ Yes

t

□ N°

X
t-

o
X

<
5
cc
O

X

2019 JOINT APPLICATION FORM V02 L [ENG] - INDIVIDUAL

3

89a

CONTACT INFORMATION OF THE VICTIM:

Address

1292„95th-Street.North.Battlefor.d,SK, ..Canada
S9A 0G2

<5

z

Phone number(s) or other ways to contact the victim 1-306-441-4626, 1-306-441-7010

o
u
o
at

a.
O

Email

dalejsr74@outlook.com, dale.richardson@dsrkarisconsulting.com

Name of interpreter, if any_______________________ ______________________________________

C5

<
z

Contact information of the person or organization who assisted in filling in this form (if applicable):

<

CC

o

Surname' _____ ____________ _________ _

First name

Name of the organization (if applicable)_
Oft

<

X
u

Phone number(s) and email (if applicable)
Address

o
o
o

5

ID

<

X

O

The following documents should be attached to this application form, as applicable. Please tick the boxes of all documents included with
this application:
*Sjjcopy of proof of identity of the victim
□ Copy of proof of identity of the person acting on behalf of the victim

at

<

□ Declaration giving consent for someone to acton behalf of the adult victim

i/i

o

o
a.
Z

o

D Copy of proof of kinship
CD Copy of medical records or other documentation that prove the personal harm suffered by the victim, including names and contacts of
individuals who could corroborate the victim's reparation claims (if relevant and immediately available at no cost to the victim)

<
a.

<

X

some of this information will be contained in
the documentation attached to the email. The
rest will be supplied when permissable.

a

z

<

2

ee
O

•x

2019 JOINT APPLICATION FORM V02 L [ENG] - INDIVIDUAL

4

90a

TITLE: WORKPLACE INCIDENT REPORTING 8c INVESTIGATIONS

X —1001 - Appendix G

Prairie North Health Region

yPrairie Norths*
Jafe*. HcxlihRcgji

OH&S WORKPLACE INCIDENT REPORT

SECTION A: To be completed by the INDIVIDUAL Worker who experienced the incident orconcem. (Worker to complete all areas and forward
to their StipervisorfManager Immediately/before end of shift!
______
_ _____________________________________ _
(Note: Harassment Incidents are to be documented on "Harassment Complaint Form", 600d(A) AppendixA
and delivered to Human Resources)
WORKER’S INFORMATION:
Job Tills:
Name:Kaysha Dery

Food Service Worker

Home Based Facility:

DepUPm' and Nutrition services

Exsci tocetfon toettem Occurred (urn. room]:

Rating where mdders occurred:

Sask Hospital

Saskatchewan

Unknown

SPECIFIC INCIDENT DETAILS:
Dale of Incident: |
M
t»
Reported to Immediate Supervisor:
___________D Yes H tjo______
Witnesses/Others Involved In Incident:
Treatment Provided:

IS None

| Erne of day :
Date reported: D

na

M__ Y

Client involved: gj no □ Yes (If Yes complete COSR)
Name of Immediate Supervisor at time of Incident:

SHA involved

□ First Aid

I □ Seen by a Healthcare provider

INJURY SUSTAINED TO: (Please Specify the Body Part Injured)
CAUSE OF INCIDENT:

□ TIR:
Specify;
□ Tmnsfcrnnp
D tiffing

□ RepostBoftlng

5
£
o
3
£
T>
a
an.
E
o
O
o
o

□Citefrt Q Object

M

| DatefUme Treated/Assessed: D

X

Exposures

O BendmglCBrnbing/CnMlinglReaeMrtg/Twtsttng

□ Slip, Trip, Fan

O Contacttvffliotjjocts/oquipment

□ Contact wftft tot objeelsfsiibstences

□ Harmful Substancos/Envlronmems

D Ccugtit In, on, under, between

□ Repetitive
motion
□ Equipment Fstura

□ Electrical Curient

O Vlsiencc/Abu.w/Aggr«s!on

Q Hszaftfou* Chemical

□ Motor Vehicle
Accident

□ Airborne Contaminant

Q Surgical Sharps

O Olhor Sharps

□ Needte stick DCtean QUsed

Needle Stick: type & brand of device:

□ OtherCause of Incident (if not apeeiliedebove-descdbe):

O

8Jood/B<xfyFlulcM05wth8n Needs sSdi)

Potential health Hazard

Give a detailed description of the Incident WHO, WHAT, WHERE, WHEN, WHY & HOW. et *oopiease tsicn tterm psp-t»mnpmi rhh »«sc^
TherT&itmum reculredinfonmalbn; What taste were you doing and wiry? Were others involved in the task vrfth you? Whit happened th*i cento have or did eaase you term? Ustodsfinq
tralrtfTtq, education, safe wort practlee*, PP£ (Controls) that are In place to keep you safe in this task?
Aerosol generation procedure guidelines area potential health and safety hazard to all employees across the SHA. While this has
not caused an incident yet the potential for harm is high based on faulty information. There is attached information supplied with the
permission of DSR Karis Consulting Inc. A representative of DSR Karts Consulting Inc. and myself were at the BUH to request my
records and his and they were questioned about foe Aerosol generation procedures and they responded by stalling and then call­
ing foe RCMP who did nothing. The RCMP have 4 active investigations that the SHA are implicated in. Two complaints of criminal
negligence and their agents have also been implicated In two separate Investigations of torture pursuant to section 269. When noti­
fied of the Implications of its agents the SHA remained silent. This is a severe health and safety risk since it places my life in jeop­
ardy. Since foe documentation provided by the SHA has incomplete information to the mixing factor, it Is impossible to determine
foe safety of Its facilities or any other health care operated by or under the jurisdiction of foe SHA. Every Union that operates within
foe SHA should bring this complaint forward as it poses a substantial risk to all employees of this union and any other as well as to
the general public. This is an extreme hazard that no worker should be subjected to. The SHA has not been forthcoming with any
Information that affects foe healthy nd^ safety of Its^workgs or the^general public. The criminal activities of foe SHA that pose asubMore on attached sheet.

^

WORKER RECOMMENDATIONS (to prevent a similar incident):
Only return to work when the situation is rectified, due to the significant risk that Is posed to the workers.

SAFETY ALERT/STOP THE LINE -Worker:
Was a TEAM Moment taken to add ress the safety Issue? □ Yes SB Ne If yes, who was Involved?,
Was Ihe safety issue fixed or managed? □ Yes B) No
If yes, what actions were taken?_____
If no, was the issue escalated? □ Yds Qj bo
Woiker Signature:

March 2017
QH&S-PNHRfi 149

if yes, iowhom?

IF

Date: , ftp.? MJ&^'JLjSoLO

Page 1 of 3

a

91a

COURT RLE NUMBER

QBG NO. 921 OF 2020

COURT OF QUEEN’S BENCH FOR SASKATCHEWAN
JUDICIAL CENTRE

SASKATOON

APPLICANT

ROBERT CANNON

RESPONDENTS

ROYAL CANADIAN MOUNTED
POLICE; AND
SASKATCHEWAN HEALTH
AUTHORITY

AFFIDAVIT OF KAYSHA DERY

I, Kaysha Dery, in the City of Saskatoon, in the Province of Saskatchewan, swear that:
1. I am the Chief Communication Officer (CCO) at DSR Karis Consulting Inc. (the company) and
the eldest daughter and coworker of Dale Richardson (my father), and I have personal and
professional knowledge of the matters and facts deposed to in this affidavit The information set
out in this affidavit is true to the best of my knowledge and belief, except where stated to be on
information learned from someone else and where that is stated, I believe the information to be
true.
2. My father has always been a very compassionate individual with a high sense of justice which
drives his desire to help people. This caused him to champion DSR Karis Consulting Inc. and
its ideals. He saw the affects of Covid on the world and the great loss to our community and
wanted to give back based on his professional knowledge in mechanical engineering
technology.
3. My father has a wife named Kimberley Richardson and a younger daughter named Karis
Richardson. He sought to do what's necessary as any man would and protect, provide and serve
his family through his occupation. This is something that not only the community could benefit
from but something that his wife could be proud of and his two daughters could respect and
look up to. He sought to teach good morals, ethics, hard work and care for giving back to the
community through the company (See Exhibit A). He continued to focus on the best interest of
his family while establishing the company.

Page 1

92a

4. As the CCO, I was part of the following process and was privy to the information pertaining to
it. My father as a representative of the company saw that businesses were shutting down and
wouldn't be able to start up again, so he, on behalf of the company, contacted many persons. He
contacted College of Dental Surgeons of Saskatchewan (CDSS), after that he contacted the
Saskatchewan Health Authority (SHA), Association of Profession Engineers and Geoscientists
of Saskatchewan (APEGS). When these parties denied to act on his professional knowledge
and the standards of the American Sociefy of Heating Refrigerating and Air Conditioning
Engineers (ASHRAE) for the safety of others, he filed a complaint to the North Battleford
detachment of the Royal Canadian Mounted Police (RCMP). My father mentioned to these
parties that "medical professionals are not qualified to make clinical judgement to implement
engineering related pandemic protocols. A qualified mechanical engineer or technologist must
determine a mixing factor for each room and then use it with the table provided by the SHA,
however the term HVAC Consultant is too vague and does not specifiy whether any
qualifications are required nor is the mixing factor defined or how to use it or how it applies to
the table." (See Exhibit D). As for the RCMP, during one of our visits to make a complaint, one
of the G.I.S was looking at me in a very inappropriate manner, while I was explaining to him
that I didn't feel safe. My father and I were explaining our concerns for the safety of ourselves
and other and this man was licking his lips and looking me up and down. My father as any man
would be for their daughter, was rightly disgusted by this man's looks towards me. (See Exhibit
E and F)
5. As a representative of the company, my father decided to attend court. As the CCO, I was
called to accompany on behalf of the company. However, this did not happen. The RCMP
unlawfully detained my father and I in front of the Court of Queen's Bench (See Exhibit B and
G). They did not state the reason for the detainment for either my father or myself. They said
they had a warrant for his arrest as well as a public health order for myself. They did not claim
the reason for the detainment publicly, nor did they read us our rights or deal with us within the
proper protocols.
6. After being detained with an unlawful warrant. My father told his mother that he was taken to
the Battlefords Union Hospital, strapped to a table with restraints by RCMP and drugged with
two needles, one in each arm.
7. Although enduring public humiliation, abuse and mental castration, this was not the worst of
his torture. My father expressed to his mother, family and agent that he did not know where his
daughter Kaysha Dery was. This caused Dale psychological duress. The RCMP told my family
that they did not know where I was (See Exhibit G.XII and G.XIII). They told my family that
they had tested me for Covid and then released me. They stated that they don't know where I
was but I am fine and will be getting in contact with them in the next few days. The RCMP had
interrogated me for hours and tried to coerce me into taking the Covid 19 test despite having
zero symptoms. After much failure, they threw me into the secure side of the Saskatchewan
Hospital in the wing East Prairie View B.
Page 2

93a

8. While being arrested unlawfully by the RCMP, I was threatened with being charged for
resisting arrest if I didn't go with them. Later I was put onto the ground aggressively and cuffed.
I ended up with cuts and bruises on my arms, hands and face. The handcuffs were too tight on
my wrist, I told them it was hurting me and that it needed to be loosened but 1 was denied.
Later once they were removed, I realized that I had lost feeling in my left hand. It was numb for
several days after the unlawful arrest. After being unlawfully arrested by the RCMP, I was
taken to Battlefords Union Hospital's Testing Centre. None of the RCMP involved in the arrest
would tell me their names or badge numbers. They claimed that they charged me with resisting
arrest and obstructing my fathers arrest. I asked for a lawyer and was refused on the basis that I
wasn't cooperating by not taking the test. I ended up being taken to another room with no
people or cameras. The RCMP rotated coming in and out of the room. The RCMP questioned
me for hours in attempts to coerce me to take the Covid 19 test. They told me if I do not answer
the questions of Tonya Browamy that they do not know if they can protect me if something
happens to me during the travel from Battlefords Union Hospital to Saskatchewan Hospital.
Tonya Browamy told me this as well. When I asked what this meant, they did not elaborate.
They told me I was arrested and detained because I broke the law and they will not argue with
me about who's right or wrong. They told me if i keep refusing then I might have to be sent to
Regina or Saskatoon. They periodically Went outside to make more calls saying that they had to
call a higher authority whenever I refused the test. They told me because I wasn't cooperating
that they wouldn't know where they can put me. So they said they might have to put me in
prison cells if I don't cooperate because they won't know if I'm safe enough to go to the
Saskatchewan Hospital. They told me I would be fed a good diet, have my own lock on my
door and be comfortable. They never said that I would be on the secure unit and put into
isolation and withheld from contacting my family.
9. I was brought to the Saskatchewan Hospital with one man from the Batdefords RCMP and
another who's name I believe to be Andrew followed behind him (I heard another Officer call
him Andrew, though I’m not sure it is the genuine name of the man). The two men escorted me
into East Prairie View B (secure side of the hospital) through a side door. I was taken into the
wing and asked to give my belongings and shower to clean up. I was not signed into the
hospital. They had me initial two papers when I was checking out but nothing when I checked
in. They gave me clothes, towels, tooth brush etc. I asked them if they wanted to take my rings
and glasses when I handed my other belongings in and they told me to keep my ring and
glasses in the room with me. I asked them to call my husband to notify him and they said they
would ask the police to get in contact with him so I refused that option and asked for a worker
there to contact him and my family to let them know where I was. The night shift told me the
morning staff would help me get in contact with my family. The staff kept doing this circle,
they repeatedly told me it would either be the night shift or morning shift that would help me
get in contact with my husband and other family members. The staff eventually told me that it
was against policy to actually allow me to use the phone or to contact family members. They
told me that there was no phones in the entire wing and that it is not permitted to call anyone
Page 3

94a

period. My first full day there, they asked me if I wanted to join the call with everyone in order
to hear the updates of what's going on with me, this confused me due to the words of many staff
saying that I could not call anyone and that there were no phones or means of contact period. I
was told that this was due to the public health manual.
10. The first night there, I was told that 23 hours of the day would have to be spent in the room and
only 1 hour outside. They said that I would not get that hour the first night there but I would get
it the following day. The first full day there, I asked to take my walk in the afternoon as
suggested. I asked if there was any shoes that could be given to me, they said no. I walked
outside the length of the court repeatedly for the full hour in my socks. I then asked them to be
able to shower after the exercise due to preventing the spread of germs and bacteria in the
room. They allowed me. I arrived at the hospital Thursday Afternoon. On Sunday, I was given
shoes for my daily walk. I continued to walk every day until my release with the shoes that
were provided. During my walk, I wore the long sweater, long sweats, socks and the crocks. On
Saturday, the second full day of my abduction, I walked inside the secure side (prison) due to
the poor weather conditions.
11. Vitals: Each shift I was asked to take Vitals, each time until the last, I answered "I am doing
well by God’s grace, no thank you." I then answered their questions on reference to if 1 had
symptoms or not. Each time until the last, I stated no. Some staff would try to pressure me for
vitals when I asked to go to the bathroom. I asked, "Can I please go to the bathroom?" The staff
answered "Are you going to let me do a set of vitals on you?" I answered the same "I am doing
well by God's grace, no thank you." This same staff member told me that if 1 don't take vitals
from her that she would have to wake me up every hour of the night to check if I need my vitals
taken. On Monday night and Wednesday night they had an all Male crew. One of the men came
into my room while I was sleeping and asked if I wanted a set a vitals. I said "No thank you
Sir".
12. Dietary: During my abduction I was fed a Vegan diet by my request. Although the food was
without salt or flavour. The food lack variant and nutrient density. Some days there was a lack
of food. The staff told me that the food was low because they did not make a food order. Some
staff tried to offer me ham sandwiches instead of vegan sandwiches which were previously
provided to me as instructed. Snacks, Lunch and super had juice boxes, fruit cups or jello cups
as a part of the meal., or vegan gluten free chocolate banana bread. Sometimes it was just fruit
cups and raw vegetables together for lunch/snacks. Dinner was always a frozen meal that was
heated for 30 minutes and served. Weak in nutritional value. Breakfast contained cereal (chex)
almond milk, sometimes juice box, sometimes fresh fruit option (apple or orange) and
sometimes gluten free vegan toast with jam or peanut butter. Also nutritionally weak. Nothing
provided to me in the secure side of Saskatchewan Hospital was great source of nutritional
value. The protein provided Was sometimes a cup of humus... store bought. Food was rarely
fresh. One day only I received a big salad for lunch, however it was both nutrient and calorie
deficient, which caused me to be more hungry.
Page 4

95a

13. Water was occasionally given. Although I had to keep water consumption low because the staff
complained about the amount of times 1 used the washroom in one day. They told me that the
previous man in there before me only used the bathroom once every 10-12 hours. They told me
they don't know if it's healthy to use the bathroom as often as I do in a day. After each meal, I
washed my utensil, dishes and even food containers I may have not eaten from but simply
touched and threw them in the garbage. I wiped down my table and chair with a sanitizing wipe
also. 1 did this every day for every meal. I also washed my hands after. I was asked why 1 do
this and if it was out of habit that I wash the dishes and wipe down the table and chair after
eating. I stated "I wouldn’t say habit because everyone in my house helps with everything, this
is more because we are in a hospital." The staff responded with you could just throw things in
the garbage because it's just the garbage so it doesn't matter. I responded, "Well, we know that
germs spread to everything once it touches a surface so this is just for the safety and
consideration of everyone."
14. I did not use the paper towels provided to dry my hands but I occasionally used them to wash
the dishes. Once I finished all the cleaning, I washed my hands, and returned to my room to
finish reading my bible. All plates and dishes given to me were plastic. I was often given a folk,
knife and spoon. However, I never once used the knife or fork because they told me I was not
allowed to use a pencil, pen or any sharp writing utensil for safety reason. Therefore I found it
unreasonable to use the plastic knife and fork which is potentially more dangerous than a pen
and pencil. One day a woman handed me a utensil without gloves, and I asked for that one to be
sanitized (it was in a plastic wrap) or to be handed a new one. I was told that I didn't need to
because its wrapped in plastic, I clarified that 1 would be touching the plastic and everyone
previously told me that I would need to be handed things with gloves and protective masks. The
lady threw the utensil on the floor and stormed off to get me a new one. After she provided me
a new one, she went back to the staff on shift and they gossips amongst themselves about me
together and laughed. Situations like this would happen often, they would try to enter the room
without masks or gloves and when I would ask them to put them on before entering, they would
become upset.
15. Worship: I was told I would be given a day of worship because I watch sermons. I told them
Saturday was my sabbath and day of rest. Each day, the television was played loud and could
be heard throughout the various areas, I was not provided this option. On the sabbath, there was
no consideration for my day of rest. I was not able to listen to worship music or anything. I was
given a KJV with the Evangelical interpretations of Jimmy Swaggart. I asked for an Adventist
(protestant) variant. However, 1 spent each day reading the bible texts while avoiding the
evangelical interpretations. I read nearly all day. My days were filled with reading the bible,
prayer, devotion, worship, eating food that was provided, drinking water, exercising 1 hour a
day, showering etc. In between every activity I read the bible and prayed.
16. Ventilation/Air Conditioning: The ventilation in there was terrible. The temperature was
constantly cold and then hot. At a few points the ventilation completely stopped working so the
Page 5

96a

room was very hot and stuffy. Then when it would start up again the room would be freezing.
They did not wipe down or sanitize the room so even when the rooms ventilation was working,
dust would be circulating around the room.
17. Malfunctions: On more than one occasion the fire alarms in the hospital secure side were going
off. The Sally port doors were not working the evening I came in. We were stuck in the Sally
port between both doors so it took a while to be let in. Sally port doors can not be opened if one
is still opened. It kept saying that the other door was still opened so we can not enter the
second. Since I work there, I recognized the issue and the solution. However I remained silent
for fear of my life. I was worried that if I openly admitted that I worked at this institution that
they would try to move me somewhere else. I thought this because during the hours of torture
and failed attempts at coercion, they told me that they might have to take me to Regina and they
do not even know if I would be in the same province. So whenever something was malpractice
or wrong in the hospital, I said nothing. I occasionally asked what the reason was for their
actions which were malpractice, the staff would reply with the public health manual as a
response. However, they could not look me in the eyes when this was said, most of the things
they said, they could not look me in the eyes.
18. Damages: When I arrived at the secure side of Saskatchewan Hospital in East Prairie view B, I
notified the lady that I did have cuts, bruises and scratches from the arrest. There were
noticeable ones above my eyelid and arms but the lady did not report them. She tried to ask me
a series of questions in relation to mental health and if I wanted Vitals. They did not tend to any
of the visual cuts and bruises, therefore it was my understanding that notifying them about the
lack of feeling in my left wrist/hand would be useless. Aside from the lack of nourishment,
poor air quality and physical mobility restrictions, the mental isolation was particularly
disturbing. They refused to allow me to speak to my family and refused to contact them. The
night before my release and the day of, they refused to let me have direct contact with my
family and told me that if no one can come for me then I would have to go to the lighthouse. I
told them that my husband and family might not answer and unknown number unless they hear
my voice in the voicemail and they said no. They also refused to leave a voicemail. They told
me that I could get in contact with my family once I get to the lighthouse. The biggest torture
during this time was the idea that my husband, father nor the rest of my family didn't know
where I was or what was happening to me. One staff even told me, it’s not a big deal because
"it's not like you're a missing person or something." In that moment, I knew they had not told
my family where I was. I also figured this would be the case when they did not sign me into the
hospital. I did not sign any papers upon entry. Just 2 pages when I left that they wouldn't even
give me the time to leave. When I picked up the pages to read it, they took them from my hands
and placed the paper back on the table and said just initial it. They had me dropped off to my
family at the hotel they were staying at by a man in a large van, it seemed he worked for them.
When 1 arrived to my family they told me that they were told consistently that I was tested for
Covid but released immediately and that they did not know where I was. They said that they
didn't know where I was but that I was fine and would be getting in contact with them in a few
Page 6

97a

days. My family was bitterly shocked and confused by these statements. When I heard the
things they were telling my family, I was shocked also. They also said my test results would be
ready in a few days. They also told my grandma that I refused to take the test. Completely
opposing stories.
19. Laundry: When I arrived the first night, 1 washed my underwear before handing it over with my
clothes because I knew I would need to potentially wear these same clothes after if I was
released. Also because they told me they can not contact family to bring me things. They said
people in that unit of the hospital were not allowed family to bring things into the hospital for
them. Side note, upon entry to the wing East Prairie View B secure side, they questioned why I
wasn't cuffed. Anyways, after that day, I washed all the clothes provided to me daily with soap
and water while I was in the shower before putting it in the laundry pile. I also washed my full
body and hair.
20. In conclusion, the events that transpired from the morning of July 23rd 2020 to July 30th, 2020
were a gross miscarriage of justice. Although God kept me through these dark moments, the
level of torture and injustice they did to me was and still is shocking. The thought that makes
me shutter, is that if they comfortably did this to me, who else have they done it to.
21. See the following exhibits for crucial information pertaining to Dale Richardson and Kaysha
Dery. Exhibits E to G are electronic media and are attached in the USB flash drive.
22. Attached are the following exhibits:
Exhibit A: Indigenous Proposal Letter
Exhibit B: Judicial Interference
Exhibit C: Photos of Dales Treatment
Exhibit D: Impartial Report from Wisework Consulting Inc.
Exhibit E: RCMPs Finest.gif
Exhibit F: RCMPs Finest.mp4
Exhibit G: Audio of what has been happening to Kaysha Deiy and Dale Richardson
Exhibit G.I: Kaysha Is Released from Kidnappers.m4a
Exhibit G.II: Conflict of Interest from Across the Street.m4a
Exhibit G.III: Double Minded Visitation.m4a
Exhibit G.IV: Pickup Kaysha.m4a
Exhibit G.V: A Mothers Call to the Lord.m4a
Exhibit G.VI: A Mother Pleading for Her Son.m4a
Exhibit G.VII: Two Needles.m4a
Page 7

98a

Exhibit G.V1I1: Unconventional Appea:l.m4a
Exhibit G.I X: Eisegesis I®erpretationju4a
Exhibit G.X: Neglecting Human Rights.m4a
Exhibit G.XI: No One Else Should Unlawfully Saffer.m4a
Exhibit G.XII: RCMP Refusal to ExpljfinAljont'KayshaJWta
Exhibit G.XIII: RCMP Refusal to Explain About Kaysha: II.m4a
Exhibit G.Xi V: SHA Refuses to Allow Appearance in Court.m4a
Exhibit G.XV: SHA Refuses to Allow Appearance in Court n.rn4a
Exhibit G.XYI: Resolving Diagnosis.m4a
Exhibit G.XVII: Six RCMP Sent to Escort Granny Out of Hospital.ni4a

Sworn before me at the City of Saskatoon,
IK the Province of Saskatchewan,
this 6th day of August, 2020.

>
Notaj^draalic Colin Livingstone lor
Saskatchewan
Being a Solicitor

/•>

in

KaysharDery

CONTACT INFORMATION AND ADDRESS FOR SERVICE
Robert Cannon; Power of Attn: Robert Cannon; 1102 Ave 1, North, Saskatoon, SK STL 2S1; Telephone
number: (306) 480-9473; Email address: robert.cannon@usask,ca

Page 8

99a
Department of Homeland Security
U.S. Citizenship and Immigration Services

OMB No. 1615-0067; Expires 07/31/2022

1-589, Application for Asylum
and for Withholding of Removal

U.S^ Department of Justice
Executive Office for Immigration Review

START HERE - Type or print in black ink. See the instructions for information about eligibility and how to complete and file this
application. There is no filing fee for this application.
NOTE:

Q Check this box if you also want to apply for withholding of removal under the Convention Against Torture.
-if

I’urtA.I. Int'ormiition \hour A on
1. Alien Registration Number(s) (A-Number) (ifany) 2. U.S. Social Security Number (ifany) 3. USC1S Online Account Number (ifany)

4. Complete Last Name

5. First Name

6. Middle Name

Dery

Kaysha

Faith Neasha

7. What other names have you used (include maiden name and aliases)?

Richardson, Kaysha Faith Neasha (Maiden Name)
8. Residence in the U.S. (where you physically reside)
Street Number and Name

Apt. Number

City

Zip Code

State

Telephone Number

(

)

9. Mailing Address in the U.S. (ifdifferent than the address in hem Number8)
In Care Of (if applicable):

Telephone Number

Street Number and Name

Apt. Number

(

City

Zip Code

State

10. Gender: Q Male

(x] Female

)

11. Marital Status:

Q

Single

(Xl

Married

|

|

Divorced

|

| Widowed

12. Date of Birth (mm/ddiyyyy)

13. City and Country of Birth

03/16/1997

Winnipeg, Manitoba, Canada

14. Present Nationality (Citizenship)

15. Nationality at Birth

16. Race, Ethnic, or Tribal Group

17, Religion

Canada

Canadian

Metis-Caribbean

SDA Christian

18. Check the box, a through c, that applies: a. [x] 1 have never been in Immigration Court proceedings.
b. Q I am now in Immigration Court proceedings.

c. Q I am not now in Immigration Court proceedings, but I have been in the past.

19. Complete 19 a through c.
a. When did you last leave your country? (mm/dd/yyyy) 07/12/2018

b. What is your current 1-94 Number, if any?

c. List each entry into the U.S. beginning with your most recent entry. List date (mm/dd/yyyy), place, and your status for each entry.
(Attach additional sheets as needed.)
Date

Place

Status

Date

Place

Status

Date

Place

Status

20. What country issued your last passport or travel
document?

21. Passport Number

Canada

Travel Document Number

Date Status Expires

22. Expiration Date
(mm/dd/yvyy)

23. What is your native language (include dialect, ifapplicable)? 24. Are you fluent in English? 25. What other languages doyou speak fluently?

13 Yes

English
For EOIR use only.

For
USCIS
use only.

Action:
Interview Date:_______
Asylum Officer ID No.:

DNo
Decision:
Approval Date:
Denial Date:__
Referral Dale:
Form 1-589 (Rev. 08/25/20)

100a

I’arl It. Iiitnrmaliiiii Miout \onr \pplication
(NOTE: Use Form 1-589 Supplement B, or attach additional sheets of paper as needed to complete your responses to the questions contained in
PartB.)
When answering the following questions about your asylum or other protection claim (withholding of removal under 241(b)(3) Of the INA or
withholding of removal under the Convention Against Torture), you must provide a detailed and specific account of the basis of your claim to asylum
or other protection. To the best of your ability, provide specific dates, places, and descriptions about each event or action described. You must attach
documents evidencing the general conditions in the country from which you are seeking asylum or other protection and the specific facts on which
you are relying to support your claim. If this documentation is unavailable or you are not providing this documentation with your application, explain
why in your responses to the following questions.
Refer to Instructions, Part 1. Filing Instructions, Section II., Basis of Eligibility, Parts A. - D., Section V., Completing the Form, Part B,; and
Section VII. Additional Evidence That You Should Submit, for more information on completing this section of the form.
1. Why are you applying for asylum or withholding of removal under section 241 (b)(3) of the INA, or for withholding of removal under the
Convention Against Torture? Check the appropriate box(es) below and then provide detai led answers to questions A and B below.
I am seeking asylum or withholding of removal based on:
|X1 Race

[Xl Political opinion

[Xl Religion

[~~1 Membership in a particular social group

| 1 Nationality

[x] Torture Convention

A. Have you, your family, or close friendsor colleagues ever experienced harm or mistreatment or threats in the past by anyone?

□ No

[x] Yes

If "Yes," explain in detail:
1. What happened;
2. When the harm or mistreatment or threats occurred;
3. Who caused the harm or mistreatment or threats: and
4. Why you believe the harm or mistreatment or threats occurred.

The Battlefords Seventh-Day Adventist Church, Saskatchewan Health Authority, Public Health, the Royal Canadian
Mounted Police, and the Court of Queen’s Bench for Saskatchewan have all without limitation been implicated in the
torture of my father, my 19-month old sister, and I. My sister was detained while my father was investigating the
Saskatchewan Health Authority on behalf of a federal corporation for information relating to its improper procedures
and guidelines with respect to the management of the Covid emergency. My father, Dale Richardson, and I were
detained and tortured by certain of these parties in response to an originating application he filed and court hearing
implicating these parties in terrorism on behalf of a federal corporation. I believe we were detained and tortured
because of our Christian religion, racial and biracial heritage which includes without limitation Metis and
Caribbean-Canadian, and political position with respect to the management of Covid emergency in Saskatchewan
(see Form I-589 Supplement B).

B. Do you fear harm or mistreatment if you return to your home country?

□ No

[X] Yes

If "Yes," explain in detail;
1. What harm or mistreatment you fear;
2. Who you believe would harm or mistreat you; and
3. Why you believe you would or could be banned or mistreated.

Yes, I fear for my life and do not feel safe in my home jurisdiction of country based on the circumstances that
surrounded my detainment and subsequent dismissal of the hebeas corpus ad subjiciendum filed on my behalf
despite a mountain of evidence in support of it and no evidence provided to the contrary. I fear that I will be tortured
and killed if brought on Canadian soil without protection from the United States. Additionally, I fear that on October
5,2020, the Court of Appeal for Saskatchewan will order me to be brought to the same courthouse that fraudulently
dismissed the hebeas corpus ad subjiciendum for an order of Writ of hebeas corpus ad subjiciendum investigation
which will further threaten my safety in my home country.

Form, 1-589 (Rev. 08/25/20) Page 5

101a

1

Part B. Information About Your Application (( onlinucd)

2. Have you or your family members ever been accused, charged, arrested, detained, interrogated, convicted and sentenced, or imprisoned in any
country other than the United States (including for an immigration law violation)?

□ No

□ Yes

If "Yes," explain the circumstances and reasons for the action.

Yes, my father was accused, charged, arrested, detained, interrogated, convicted and sentenced, and imprisoned
Canada related to intoxication due to drug addiction and unlawful convictions based on racial discrimination.

3 .A. Have you or your family members ever belonged to or been associated with any organizations or groups in your home country, such as, but not
limited to, a political party, student group, labor union, religious organization, military or paramilitary group, civil patrol, guerrilla organization,
ethnic group, human rights group, or the press or media?

□ No

□ Yes

If "Yes," describe for each person the level of participation, any leadership or other positions held, and the length of time you or your family
members were involved in each organization or activity.

My father, my 19-month old sister, and I are Seventh-Day Adventists that believe in the Three Angel’s Message
advocated by one of the Seventh-Day Adventist Church's pioneers, Ellen G. White; we belief that God’s word is
truth now and forever because he spoke it; we believe in helping the fatherless, the widow, and the oppressed in
accordance with His living word; and we believe that the King of the North will pass over the King of the South.
My father Health held positions of leadership including elder, personal ministries director, and health ministries
director and is a theologian which preached many sermons pertaining to the Three Angel’s Message and actively
practices its principles in accordance with Seventh-Day Adventist doctrine to the general displeasure of many
Seventh-Day Adventist members.
3.B. Do you of your family members continue to participate in any way in these organizations or groups?

[Xj No

□ Yes

If "Yes," describe for each person your or your family members’ current level of participation, any leadership or other positions currently held,
and the length of time you or your family members have been involved in each organization or group.

4.

Are you afraid of being subjected to torture in your home country or any other country to which you may be returned?

□ No

□ Yes

If "Yes," explain why you are afraid and describe the nature of torture you fear, by whom, and why it would be inflicted.

Yes, I fear being tortured and killed in my home country if returned to my country without the protection of the
United States. I even fear Saskatchewan’s corrupt judicial system from within the United States if I am not given
asylum because of the treaties Canada holds with the United States.

Form 1-589 (Rev. 08/25/20) Page 6

102a

Supplement B, Form 1-589
Additional Information About Your Claim to Asylum
A-Number (ifavailable)

Date

October 1,2020
Applicant's Name

Applicant's Signature

Kaysha Faith Neasha Dery
NOTE: Use this as a continuation pagefor any additional information requested. Copy and complete as heeded.
Part

B.

Question

i.a.

The Saskatchewan Health Authority in cooperation with Public Health and the Royal Canadian Mounted
Police held me hostage against my will in the secure side of Saskatchewan Hospital, a maximum
security mental health facility for the criminally insane, for eight days. Public Health began
threatening me on July 16, 2020 and subsequently the Saskatchewan Health Authority with the
cooperation of the Royal Canadian Mounted Police detained me on July 23, 2020 in front of court
under an alleged public health order minutes before an originating application (see attachments)
filed by the federal corporation I represent was to be heard in chambers which implicated without
limitation the Saskatchewan Health Authority, Public Health, and Royal Canadian Mounted Police in
without limitation terrorism. Over the course of eight days, I was isolated, psychologically, and
physically tortured until my release on July 30, 2020 after hebeas corpus ad subjiciendum (see
attachments) was filed on my behalf by Robert Cannon. I believe I was detained and tortured because
of my Christian religion, biracial heritage which includes without limitation MAtis and
Caribbean-Canadian, and political position with respect to the management of Covid emergency in
Saskatchewan.
The Saskatchewan Health Authority in cooperation the Royal Canadian Mounted Police held my father,
Dale Richardson, hostage against his will in the Battlefords Mental Health Centre for sixteen days.
The Saskatchewan Health Authority with the cooperation of the Royal Canadian Mounted Police
detained my father on July 23, 2020 in front of court under an alleged mental health warrant
minutes before an originating application (see attachments) filed by the federal corporation he
represents was to be heard in chambers which implicated without limitation the Saskatchewan Health
Authority, Public Health, and Royal Canadian Mounted Police in without limitation terrorism. Over
the course of sixteen days, he was stripped, repeatedly tied to a table and drugged against his
will in addition to various other forms of psychologically and physically torture until his release
on August 7, 2020 after hebeas corpus ad subjiciendum (see attachments) was filed and served on his
behalf by Robert Cannon. I believe he was detained and tortured because of his Christian religion,
Caribbean-Canadian heritage, and political position with respect to the management of Covid
emergency in Saskatchewan.
Kimberly Ann Richardson in cooperation the Battlefords Seventh-Day Adventist Church, the Royal
Canadian Mounted Police, and the Court of Queen's Bench for Saskatchewan held and continues to hold
my 19-month sister, Karis Richardson, hostage against her father's will in an undisclosed location
which has continued for four months. Kimberly Ann Richardson in cooperation the Battlefords
Seventh-Day Adventist Church and the Royal Canadian Mounted Police detained my sister on June 1,
2020. This detainment was perpetuated by an interim order granted in chambers on July 23, 2020
which my father was unable to attend as he was detained shortly before the order was granted. On
September 10, 2020, a hebeas corpus ad subjiciendum which was filed on her behalf by Robert Cannon
was dismissed in addition to dismissing the hebeas corpus ad subjiciendum filed on behalf of my
father and I. On September 29, 2020, the hebeas corpus ad subjiciendum was filed in the Court of
Appeal for Saskatchewan (see attachments) with an in chambers date of October S, 2020; there is
also a federal court hearing for a motion (see attachments) relating to a statement of claim (see
attachments). I believe she was detained and tortured because of my father's and my Christian
religion, Caribbean-Canadian heritage, and political position with respect to the management of
Covid emergency in Saskatchewan. She is still in detainment.

Form 1-589 Supplement B (Rev. 08/25/20)

11706/2020

08:16

7757518763

AMIN

PAGE

03/10

(W(QftO'«»tfOK-faD*3
jaoggoaonMfcmaijjaaBOTgjS
(ana)

ocob

/I

aonosradpoinmj-gAoq*atpnodnaapou situ 1° Fdritaoarppo/uos Annaosiad \
501AH3S JO 3XV3WUH3D

*(^mp no JosiAiodns oo) sueon jwjjo j» smoqtbpj Xq paontpto sbm woMitumoo Xiospuadnsj| araq jpeng) p
roiualD

*¥»*» 'tnaremex

JK^P» imjjufluuui;jocanpnljs

(Bim)«iffloiiu^tajiiiui/>B|Bipii»am»K

•sapqg patnifl gqt mog poAoroai paopjo pra pototp so ofqissnapwn
sq oi pnncg an noX *jav *pjo (iX<|)SEZ nopoas in poonqpooo iCjuotpns <ap Xq pro *»v 3>PJ0 S€Z «H*ws o»
Itrensjttd qopmmnsxo jo aonoodEstn 8mmp pgpasaad aarcopiAa pro aAoqg qytg ps uuitHutuujpp gip aodn poettg
JU>V 3HX AO (lX«l)S€* N0IXJ3S HSKENTI

TVAowraHJonacrao

(mM) aattfo nanaaMajoapp ptai«K
iuo

aeo
nwr»w**P 'OtKIHO

(tes-x m oimnawoo)"

aoMiai»«MDDaoDi<iDDtm*m

hhx

mass,

haomsv ox

■Hfl gQ (l)K)X8UOU miliORM
OX XBtORQ£ SSCTX8
bi *x 'buxom®* tea mo sxm

iswrans m nas sou qw»Hmu

OIlTffn

mi m

•p»3*T<lrtaa fMM
*4 tmo flgywg 8mtX«T xm tt»or -Justus
•ota-**S nr PT«l
#T «Q *«pw»a osi pwtmuojt
30 ami twiwA* mp vppt
B|T '3«fMt»?K)* «MW vqq 30 XiM • f)J> pnpfAAZd (Mt« MM )M(qng -PMIM 49S m
BMiOnM MM 098-1 pent 96E-t ram* *o»f9MBtnqc IO jtpQ M|t 30 Mmuamm win
10 {<*)$££
10 M0?#|Afidtd wq3 ttpaa ftAOTOa po^Tpsdsa soj twiwacri
out pm «x eua 30 (x) (T) W U) <*) nx
«t ^wtruianwX omrBfpnjnnTr «t aonfqtns (t
qirqi in ‘pAamai oj palqns are wcgMOtp pro ‘paptratra sb •joy *p3°

ODGKaXO o -“VP® -©OXaXi) □ xnx»xvX£) a -axiXvXi) b ;(nXaX9) □ -(iXdX9) □ i^ziz (»)«*}**
jopnn grots patmfl sqt 0) 3[qisguupou; an muC imp pauiimrop sgq flunks proiwnoH jo iccwntredaci
sip *((lXq)SZZt *D‘S‘Jfl 8) *(wvj WV j£up»bwi»n P™ BOpsaSpnotj wpjo (iX«0sC5 nopoos at tBBnsmj
TOBTOH BEXU «BSXn 'NOSOmROPt go J3J7BW atp tq
OtOB 'X JnwpKjoo 3BBQ

»»TT8»e <voms unis

--------SBioeecoF :on aui aooooooxxnaur* rapm wm■

AirnaBSiwavNi &o NOiivmwiraj.aa
|«A0I»8 p3|ipodxa jo i<|up pn* oopo^

iOnnaag paqraraBj^ tanionrtaa ir a

B80T

104a

r"\

CoatliiiiatioD Fags fbr Form I-8C0

U& Department of Homeland Security

File Number 303830939
SIOHL IWttti 34811474

Alien’s Name

axcaasDsair, kmkma nm hbabha

Event wo i awBiiooooooa

Dm»
Ootebor 1, 3020

Section ZU(») <7) (&) (1) <i) of tte Xemigratian u4 IkUegeUtx Act (Act), m wwM, as «
»h Mu» tints of application for admission, 1b not la poaasaslon of a valid

{migrant »lM. mmtCT mmt. nnrasr croealna tatajfl. bit OtMt tUUA wbWf
1
*«-»t raqnlnwiJby Hr*
wn<l a valid wanata>d WBWWtt or obhgr roitabta taWW>l
itnrnmanr rrf rtniiiiinnnt lif lijintltv 1—* *“•'~~'11 *~y ~~ ——r* *—*■** —«■» »«j«niinnM ’
by tt» Attomsy Skmornl under ••cticux 211(a) of t*a *ot.

»

11111111

III
iiiikl

SuitaWtravel cTcJcum'entaliun?_____‘
Saskatchewan
dnrcr's ju eru <•_
a.
IjSSiTSiSr*'
J

On>, 0 >kr

t f\
i -*■

ft cP t'&san Ka/vu I nltti Nrniij

?

:pt> nMwiAt
iC17 OrX)t7Bh

&
D<x1G,lO<7

Oct IB 7017

Jan 22.2018

j

/>■
a.-Ml"

SSSaaS*

SA'irjN

MfeTIS NATION - SASKATCHEWAN

■ ' *,

i;

s«r»w„ r.yiLmi^tieif

fjpilg

SASKATCHEWAN

® ESI
nmwm Mnonws** photo Renewal bate:

•Photo P-enewai Oate:22/Mtt025

($1022023

tide

Signature
a»TH»l-

■T0n>t»l»B

me oeni
2

of.

2

Form M3I Coottaumion Pegs (Dev. OVDI/07)

0X/F0

39Vd

Miwy

E9i8XSi9ii

91=80 0S0S/90/XX

105a

Continuation Page for Form X-867A

U.S. Department of Homeland Security

file Number A-203-820-92S Date
SIGMA Event: 34611474
October 2, 2020
Event Ko; SWg211000000a

Alien’s Name
RICHARDSON, KAYSHA FAITH SKASHA
A.

No.

Q. What ia your date of birth?
A. March 16, 1997.
Q. Where were you born?
A. Winnipeg Manitoba Canada.
Q. what ia your citisenship?
A.
Canadian.
q. do you have any claim to OS citizenship or Immigration StatuaV
A. Mo I don't currently have any oitisettihip documents or immigration documents.
q.

A.

Save you ever applied for US citiaenship or Immigration atatua?
Mo air,

Q, Do you oow make any claim to US cltiaenahip or an Immigration atatua?
A. Asylum counts as Immigration status. I'm making my claim.
q . Are you staking an Asylum claim in the United States at this moment?
A. Yes sir.

Q. Have you claimed Asylum in the United States at any other point in time?
A. Mo sir.
Q. In aa earlier conversation yon stated you where applying for lawful permanent residency

“ iSi^1r‘^ryKisnJ2fr;iii.'S^sss» m.

Q. During that same conversation you stated aa wall as presented a card showing you are of
Metis decent, is that correct?
A. Yes 1 showed this Metis card that was provided by the Metis Nation of Saskatchewan.
Q. During that sans conversation you stated your grandmother on your mother’s side was 50%
Canadian born Motive American, half Cree and half French, your grandfather was European
decent. You stated you did not know if your biological father was a Canadian bom native
American. Is this aorrect?
A. My Biological father is Caribbean decent and Canadian born. Both his parents are bora in
the Caribbean. Aa far as my grandmother on my anther's side I know we have the Metis
claim, 1 have documents Stating she is a half breed of French, Cree, et cetera.
Q. Today did you provide US Customs and Border Protection a genealogy letter from your bend
or the Canadian government showing your blood quantum?
A. Mo, I didn't provide a latter from the Band or Canadian government showing blood
Quantum.
Q. when you presented yourself for admission to the united States today you presented an
email between Robert Cannon, who drove you to the border, and the US State Department in
Calgary, in regards to yourself being at risk in Canada and stating you are entitled to a
green card under the Jay treaty. Is this correct?
A. So Robert cannon sent an email to Calgaxy_ACSastat«. Gov about my safety being at risk
and being entitled to a united States Green Card as ahe is Metis and presumed of Saulteawc
decent he also spoke about bis
thor and brother in the email and the habeas corpus case
which...(CONTINUED ON NEXT PAGE)

|0>
Signature

Title
oaiwac, JOtttottnua

cap omega
2

of.

6

1-orm 1-831 Continuation Page (Rev, 06/01/07)

01/60

39Vd

NIWW

£9i8ISiS4£

9i:80

0Z0S/90/II

106a

S3
203 830 92^1

Alien’s File Number:
m At the conclusion of the interview, the asylum officer must read the following to applicant:

3.2

ESS22K. wTSLfjL. *. u^sm. . »» - .^ ™«~- «■» »• ■-* '’•'■*
have any questions?
NONE
3.3

S

At the conclusion of Ac intorview, the asylum officer must reed a summary ofthe claim, consist** of the responses to Queens

u=S^SSMsaa-

•••♦Typed Ques

S'^iSwr^aiCTery opportune to establish a credible fear.

CPrntRlE FEAR FINDINGS

SECTION IV:

A.

Credible Fear Determination:

Credibility
4.1
0
W

□

ibilitr that tlm irm1 ........ .
... ... "Inh" mMbn*md utidiblo in u Miytm*
Theraititicignficumpoairt^^
^ordi*’1*_____________________________________________

4.3

Applicant found not credible because (check boxes 4.3-4.5 which apply);
Testimony was internally inconsistent on matenal issues.
□

4.4

□

4.5

□

^ ^ eyen fl va]id option?

t estimony lacked sufficient detail £>n material issues.
Testimony was not consistent with country conditions on material issues.

Nexus
4.9 □
4.6
H Race 4.7 |2 Religion 4.* Q Nationality
(Define the social group): XXX
4.11
I
Coercive Family Planning [CFP]
4.10 2 Political Opinion

Membership in a Particular Social Group
4.12

0

No Nexus

Credible Fear Finding
4,13 □
Credible fear of persecution established.

OR
4,14

4.15
B.
4.16

4.24

□

Credible fear of torture established.

OR Credible fear of persecution NOT establishedandtae is not a

!2

□
4.17
4.20
4.23
12

^ ^ appl‘cant could establish eligibililyfor

withholding of removal or deferral of removal under the Convention against Torture.
Appb^uouWtesubject to a barfs) to asylum or withholding of removal (check the box(es) that applies and explain on the
continuation sheet):
4.19
4.18
□ Security Risk
P Particularly Serious Crime
4.22
4.21
Q
Terrorist
□ Persecutor
□ Serious Non-Political Crime Outside the United Stales
Applicant does not appear to be subject to a bar(s) to asylum or withholding of removal.

□ Aggravated Felon
□ Firmly Resettled

Form 1-870(Rev. 1 jai/03)N l’sge 4

£0/90

39t?d

NlWtf

E9i8TSiSAf.

90=80 0S02/90/TT

107a

Safe-Third Country Agreement Case
Threshold Screening Adjudication Worksheet
(Rev. 08/31/05)

A-Number 203820929
LAST NAME RICHARDSON
First Name

KAYSHA

Country of Citizenship Canada
Date of Birth
03/16/1997
Gender Female

Decision
Information

Asylum Office ZCH
APSO Name/Number

XNo

No
Exception
O Dissolve

Date of Entry 10/01120
Port of Entry LVG

□ 1*863
Place of Detention LVG NSDC

Place of Interview ZCH telephonic

The purpose of the threshold screening adjudication is to determine
whether an individual subject to the Safe Third Country Agreement
between the United States and Canada is eligible for an exception to the
agreement to allow him/her to seek asylum in the US, rather than in
Canada. The applicant bears the burden of proof to establish eligibility.
The standard of proof is a preponderance of the evidence.
L

□

Date Asylum Office Notified 10/08/20

Date of Interview 10/15/20
Dependants? oYes

Decision:
X
Exception

robinson/zchi 93

Date of Decision
10/15/20
APSO
Supervisor
ZCH17Q
Date submitted
toHQQA
10/20/20
Date of HQQA
concurrence

Citizen or habitual resident of Canada

1. Is the individual a citizen of Canada OR stateless and a habitual resident of Canada’
x
Ye»
___ No (Skip to Section II)

C^,"SbS:^S:P0“,he “““ °f W C“‘dia" C“P'"(b)

“>

It seems she has suitable
Documentation (describe)
Per 213, applicant possesses a Canadian passport, passport number HL632765 travel documentation now.
Credible testimony
Applicant testified that she is a Canadian citizen and possesses a Canadian passport.

3.Attach relevant evidence to this worksheet and proceed to section IV.

11/80 39tfd

NlWtf

e9Z.STSZSZZ

um 8S02/90/TI

108a

Safe-Third Country Agreement Case
Threshold Screening Adjudication Worksheet
(Rev. 08/31/05)

IV. Finding
-----X----- T*145 ind,vlduaJ ajTlved at a land-border port of entry from Canada and established eligibility
for an exception to the Safe Third Country Agreement under section I, II, or III, above 7
The
individual is eligible for a credible fear interview in the United States. (APSO proceeds to
conduct credible fear interview and complete for 1-870).
The individual was being removed from Canada, in-transit through the United States and
established eligibility for an exception to the Sale Third Country Agreement under section 1
or III, above. The individual Is eligible for a credible fear interview in the United States.
(APSO proceeds to conduct credible fear interview and complete for 1-870).
The individual did not establish eligibility for an exception to the Safe Third Country
Agreement and is not eligible for a credible fear interview in the United States.
The individual dissolved the request for protection and has asked to be returned to Canada
(dissolution form is attached).

V. Dependents
[Compkte this section only for cases in which the individual is found eligible for a credible fear interview If

The following family group members are included in this threshold screening:
A Number
A Number _________
Last Name

Last Name

First Name

First Name ________
I Relationship to Principal

Spouse

Child

Relationship to Principal__Spouse___ Child

(Attach extra sheets, as necessary)

4

WIT

39yd

NINtf

e9i8IS£Si£

IS =80 0Z0Z/90/TI

109a

Robert A. Cannon
1102 Ave L North,
Saskatoon, SK CA S7L 2Sl

Tel:
Email:

1 306 480-9473
robert.cannon@usask.ca

December 31st, 2020
Congress of the United States of America
U.S. House of Representatives
United States Senate
Washington, DC 20515
Washington, DC 20510
Petition to the Congress of the United States for the Redress
of Grievances under the First Amendment Requesting
l. That the Seventh-Day Adventist Church be Censured Save
the Faithful Few who have Condemned Her;
The First Amendment to the United States Constitution gives
the people of the UNITED STATES OF AMERICA the right to petition
Congress "for the Redress of Grievances." And the Senate and House of
Representatives have the power to "Censure" (condemn) a NonMember for misconduct.
GOD’S Church is modelled after the government of heaven,
where every person of every kind has the right to stand up for what is
right in the sight of GOD. Throughout sacred history there has been
men and women who have stood up for what is right in faith
condemning ISRAEL for her sins. God’s CHURCH is represented by those
who follow the commandments of God, and have the faith of JESUS.
Every person who becomes a member of the SEVENTH-DAY ADVENTIST
CHURCH—God’s Church—acknowledges the foregoing by virtue of its
doctrine. He shall be proved by God’S WORD—the doctrine. Thereby,
every member of the Seventh-Day ADVENTIST CHURCH in the UNITED
STATE of America totalling approximately 1,180,008 (beginning
membership as of 2019 from adventiststatistics.org) is to be
represented by he which shall be proved by GOD’S WORD.

1

110a

TAKE NOTICE THAT this is the Loud Cry: “Babylon the great
is fallen, is fallen, and is become the habitation of devils, and the hold
of every foul spirit, and a cage of every unclean and hateful bird. For
all nations have drunk of the wine of the wrath of her fornication, and
the kings of the earth have committed fornication with her, and the
merchants of the earth are waxed rich through the abundance of her
delicacies. And I heard another voice from heaven, saying, Come out of
her, my people, that ye be not partakers of her sins, and that ye receive
not of her plagues.” (Revelation 18:2-4 KJV)
AND TAKE NOTICE THAT the Seventh-Day ADVENTIST
CHURCH has supported systemically racist regional conferences among
other systemically racist activity in support of apartheid in
contravention to GOD’S WORD: “Judge not, and ye shall not be judged:
condemn not, and ye shall not be condemned: forgive, and ye shall be
forgiven” (Luke 6:37 KJV);
AND TAKE NOTICE THAT the Seventh-Day Adventist
CHURCH is responsible for the fabrication of the Covid emergency as it
has permitted the use of its GOD given inheritance for the same by
MASONIC conspirators in an attempt to steal RELIGIOUS FREEDOM:
“And at the time of the end shall the king of the south push at him:
and the king of the north shall come against him like a whirlwind,
with chariots, and with horsemen, and with many ships; and he shall
enter into the countries, and shall overflow and pass over” (Daniel
11:40 KJV);
AND TAKE NOTICE THAT the Seventh-Day Adventist
CHURCH has persecuted the FAITHFUL FEW as in days of old: “Blessed
are ye, when men shall revile you, and persecute you, and shall say all
manner of evil against you falsely, for my sake. Rejoice, and be
exceeding glad: for great is your reward in heaven: for so persecuted
they the prophets which were before you” (Matthew 5:11-12 KJV); and

2

111a

AND TAKE NOTICE THAT GOD will punish the SEVENTH-DAY
Adventist Church for her sins and vindicate the Faithful Few who
have condemned her of the same.
The Seventh-Day Adventist Church should be Censured for
supporting apartheid and the fabrication of the Covid emergency, and
for persecuting those who hold true to its doctrine.
2. That the Masons and their Conspirators including
WITHOUT LIMITATION JOSEPH R. BlDEN BE CENSURED;
The First Amendment to the United States Constitution gives
the people of the United States of America the right to petition
Congress "for the Redress of Grievances." And the Senate and House of
Representatives have the power to "Censure" (condemn) a NonMember for misconduct.
The MASONS are modelled after the government of SATAN that
seeks to abolish INDIVIDUALITY and build a world without FREEDOM
through the dissolution of social order. It is the directive of the MASONS
to infiltrate CHRISTIAN churches and pollute and dissolve their
doctrines, thereby abolishing their individuality, voice, and strength,
so that their rights and freedom can be stolen with little resistance.
The MASONS have succeeded in polluting the CHRISTIAN
churches, the daughters of BABYLON, which have become partakers in
her sins: “Babylon the great is fallen, is fallen, and is become the
habitation of devils, and the hold of every foul spirit, and a cage of
every unclean and hateful bird.” In so doing, the MASONS and their
conspirators including without limitation JOSEPH R. BlDEN have
sought to overthrow the people of the UNITED STATES OF AMERICA, a
Christian people, and should be Censured for such High Treason:
for fabricating the Covid emergency to build a world without freedom
through the dissolution of social order: Solve et Coagula as the
MASONIC adage teaches (articulated as the mismanagement of the
Covid emergency by JESUIT affiliated CARLO Maria VlGANO, Titular
3

112a

Archbishop of Ulpiana in his open letter to PRESIDENT DONALD J.
TRUMP on June 7, 2020).
3. That the Rights of Indigenous Peoples be Recognized and
That the United States Constitution Be Amended and
Ratified Pursuant to the Same and Declarational Law
The First Amendment to the United States Constitution gives
the people of the United States of America the right to petition
Congress "for the Redress of Grievances." The METIS, MESTIZOS, and
other INDIGENOUS Peoples have been maltreated and due to such
treatment are unable to petition congress on their own behalf: the
MASONS and their conspirators have detained, tortured, and deported
many the METIS, MESTIZOS, and other INDIGENOUS PEOPLES at the
acquiescence of the SEVENTH-DAY ADVENTIST CHURCH making them
unable to represent themselves in the UNITED STATES OF AMERICA
where they have right to abode.
The UNITED States OF America has failed to adhere to its
Declaration of Independence, the declarational law:
(1st) “We hold these truths to be self-evident, that all men are
created equal” has not been applied to the METIS,
Mestizos, and other Indigenous Peoples as the same
were not treated as equals and granted citizenship as
they ought to have been;
(2nd) “[T]hat they are endowed by their Creator with certain
unalienable rights, that among these are life, liberty, and
the pursuit of happiness” has been (a) misconstrued only
to apply to citizens and not alleged aliens to which the
Metis, Mestizos, and other Indigenous Peoples have
been often classified, (b) ignored in legislation that
restricts the Privilege of Writ of Habeas Corpus which has
been often used to oppress the same and others, and (c)
ignored in common law and legislation that denies the
4

113a

same representation unless the same and others can
afford an approved lawyer; and
(3rd) “That, to secure these rights, governments are instituted
among men, deriving their just powers from the consent of
the governed.” has not been exercised for citizens or thenposterity abroad which should include the METIS,
Mestizos, and other Indigenous Peoples as the same
have not been permitted to be represented in congress or
the presidential elections to voice how the fabrication of
the Covid emergency has been used to oppress and kill
them.
The true population of the METIS, MESTIZOS, and other
Indigenous Peoples in the United States of America and Canada
is scarcely known as census data is rarely collected for the same and
many do not declare the same for fear of persecution and torture:
1,400,685 people in CANADA identified as INDIGENOUS PEOPLES
in 2011 of which 451,795 identify singularly as METIS
(according to STATISTICS CANADA), however, there is not
system for biracial or multiracial identification in CANADA
due to its apartheid;
5.2 million people in the UNITED STATES OF AMERICA identified
as American Indian and Alaska Native in 2010, either
alone or in combination with one or more other races
(according to the UNITED STATES CENSUS BUREAU); and
census data is not readily published for METIS or MESTIZOS by
the United States Census Bureau.
The Metis, Mestizos, and other Indigenous Peoples of the
UNITED States of America should be formally recognized as equals
and citizens and all citizens including the same should be recognized
as having unalienable rights to without limitation: life and liberty, the

5

114a

Privilege of Writ of Habeas Corpus, and be represented and counselled
by whosoever they choose. Such formal recognition should be in the
form of an amendment and ratification to the UNITED STATES
CONSTITUTION as follows:
“All persons born in the United States before or after its
confederation and the posterity of the same are citizens of the
United States.
No person shall be deprived of life or liberty under any law that
is not criminal law; nor shall the Privilege of Writ of Habeas
Corpus be restricted by legislation; nor shall a person be denied
representation or counsel that consents.
Representatives shall be apportioned among the several states
and citizens living abroad, according to their respective
numbers, counting the whole number of male citizens twentyone years of age or older in each state and abroad.
The Congress shall have power to enforce, by appropriate
legislation, the provisions of this article.”
WHEREFORE, the undersigned respectfully request that the
Seventh-Day Adventist Church be censured, that the Masons and
their conspirators including without limitation JOSEPH R. BlDEN be
censured, and that the rights of INDIGENOUS PEOPLES be recognized
and that the United STATES CONSTITUTION be amended and ratified as
specified above pursuant to such recognition and declarational law.

Robert A. Cannon
Enclosed is an Ex Parte & Pro Se Original Application for Writ of
Habeas Corpus applied for by ROBERT A. CANNON on behalf of KAYSHA
F.N. Dery who identifies as CANADIAN, EUROPEAN, CARIBBEAN, METIS,
Disabled, Christian, and Seventh-Day Adventist.
6

Petition was returned to Robert Cannon in early April 2021
with no response, it was ignored to the best of his knowledge.

115a

Appendix B

116a
Application for Return of the Child

Application for the Return
of the Child
In The
Central Authority for the Hague Abduction Convention
March 15, 2021
Rekindling the Reformation

117a

Dale J. Richardson
1292 95th Street,
North Battleford, SK S9A 0G2

Tel:
Email:

1 306 441-7010
unity@dsrkarisconsulting.com

March 15, 2021
Titular Archbishop of Ulpania Carlo Maria Vigano
Apostolic Nuncio Emeritus
1 202 333-7121
Nunciature to United States
Tel:
3339 Massachusetts Ave NW
Fax:
1 202 337-4036
Washington DC 20008-3610, USA
Email: nuntiususa@ nuntiususa.org
Open Letter to the Titular Archbishop of Ulpania Carlo Maria Vigan6;
To Save the Children;

as

JESUS said “Suffer the little children to
come unto me.” In your appeal to the Church and

»n

the World you stated “We are fighting against an

I

i

invisible enemy that seeks to divide citizens, to
separate children from their parents,

-

"

grandchildren from their grandparents, the
faithful from their pastors, students from teachers, ^
and customers from vendors” I agree that we are
fighting against an invisible enemy and in your
open letter to President Donald J. Trump I believe that you have correctly identified
who the invisible enemy is - those who hope to profit from the dissolution of the
social order so as to build a world without freedom: Solve et Coagula, as the Masonic
adage teaches.
You correctly identified that those who hold the masonic ideology seek to
drive GOD out of the courts, families and even the churches. I have bore firsthand
witness of this, by the infernal agents of the deep state and the deep church
attempting to steal the most precious earthly gift to anyone who calls upon the
name of the Lord- a child. I know that Catholics and Christians have strong beliefs
in the sanctity of life and that the life of a child is precious beyond measure and the

118a

Satanic masonic uncircumcised Philistines have stolen a precious child dedicated to
the LORD as SAMUEL was and have used her as a weapon to execute numerous
terrorist attacks. An innocent child has been tortured to punish her father who has
stood up and provided evidence in the area of engineering regarding covid
recommendations. If implemented as the Center for Disease Control and
Saskatchewan Health Authority has misrepresented them, it could actually kill
people and potentially innocent children, Attached to this letter is an application to
initiate the HAGUE ABDUCTION CONVENTION to
compel the masonic terrorists who have stolen an
innocent child to use her as a weapon for their
demonic rituals which are terrorist activities, and
as a father I fear that they will do worse than use
her as a weapon, I fear that they will violate her in
a way that I cannot describe with words.
When I see members of the judiciary falling upon their swords to openly
break the law to torture an innocent child and her father, I have to question the
motivation behind such men. Their actions do not fall within the realm of rational
behaviour. These are men who adhere to the terrorist masonic propaganda of Albert
Pike, who stated "the white race, and that race alone, shall govern this
country. It is the only one that is fit to govern, and it is the only one that
shall." They treat me like a slave, when they stripped me of my family, my
economic security and act in a manner in which it demonstrates that they adhere to
that statement made by Albert Pike, a revered freemason. They deny my daughter
access to her father in the face of overwhelming evidence that strikes down any
reason to deprive the child of LIBERTY.
At the forefront of this masonic terrorist conspiracy is Clifford A. Holm who
was the prime instigator of stealing my daughter and using her as a weapon and he
has used his position as a lawyer to deprive her of her father. GOD will deal with
this man. Clifford A. Holm and the masonic conspirators infecting the Seventh-Day

119a

Adventist Church are the primary instigators of this terrorist activity* who are a
part of the deep church. They include without limitation, Ted Wilson president of
the General Conference of Seventh-Day Adventists, Michael Collins, President of
the Man-Sask Conference, James Kwon, Gary Lund, and Ciprian Bolah. When I
had to flee after I was tortured, I encountered a FALSE SHEPHERD who is a face of
the liberty movement in Canada which attempted to coerce me into returning to the
torture where I could have been killed. Tim Stephens of Fairview Baptist Church of
Calgary AB, had no sympathy for an infant who is being tortured and used as a
weapon, this false shepherd has betrayed his flock with his criminal actions. Justice
Jeffery D. Kalmakoff, who is confederated with Justice Ralph Ottenbreit of the
Knights of Columbus in the Court of Appeal for Saskatchewan have both betrayed
the Catholic values of respect for life, the blessings of children and family as he has
taken actions to destroy life, children and family demonstrating that they are
Satanic agents of the deep state
and spat in the face of the Catholic
Church by their actions.
The child belongs to GOD
and was offered to Him as HANNA
had offered SAMUEL to GOD and
dedicated him to the service of
God. When I saw my wife
distraught from being unable to
conceive, I entreated the LORD as
HANNA did, and in answer to my
plea, He answered in giving us
KaRIS. The LORD has been robbed
of the child offered to him by those
who worship satan. The LORD will
take back what is HlS. At this time

120a

as a man jealous for the honour of the LORD, I place my trust in HIM to return what
was stolen as at this time I have no knowledge of where KARIS is, or if she is even
alive Or well. The LORD OF HOSTS who is mighty in battle will prevail over the
enemies of darkness as sure as the sun rises in the east and sets in the west the .
wrath of GOD will scourge the satanic masonic conspirators. The most severe
judgments ever witnessed bv man will begin to fall upon these masonic doss. Their
confessions in the courts to their crimes demonstrates that the LORD is punishing
them already as we speak. The racist, tyrannical ideology of the masons will no
longer be tolerated by GOD.
The Declaration of Independence correctly identifies that liberty is a GOD
given right as it states: When in the Course of human events it becomes necessary
for one people to dissolve the political bands which have connected them with
another and to assume among the powers of the earth, the separate and equal
station to which the Laws of Nature and of Nature's GOD entitle them, a decent
respect to the opinions of mankind requires that they should declare the causes
which impel them to the separation.
We hold these truths to be self-evident, that all men are created equal, that
they are endowed by their CREATOR with certain UNALIENABLE RIGHTS, that among
these are Life, LIBERTY and the pursuit of Happiness. — That to secure these rights,
Governments are instituted among MEN, deriving their just powers from the
consent of the governed, — That whenever any Form of Government becomes
destructive of these ends, it is the RIGHT of THE PEOPLE to alter or to abolish it, and
to institute new Government, laying its foundation on such principles and
organizing its powers in such form, as to them shall seem most likely to effect their
Safety and Happiness. Prudence, indeed, will dictate that Governments long
established should not be changed for light and transient causes; and accordingly
all experience hath shewn that mankind are more disposed to suffer, while evils are
sufferable than to right themselves by abolishing the forms to which they are
accustomed. But when a long train of abuses and usurpations, pursuing invariably

121a

the same OBJECT evinces a design to reduce them under absolute Despotism, it is
their right, it is their duty, to throw off such Government, and to provide new
Guards for their future security. — Such has been the patient sufferance of these
Colonies; and such is now the necessity which constrains them to alter their former
Systems of Government. The history of the present King of Great Britain is a
history of repeated injuries and usurpations, all having in direct object the
establishment of an absolute TYRANNY over these States. To prove this, let Facts be
submitted to a candid world.
In your Open Letter to President Donald J. Trump dated October 25, 2020,
your description of the Great Reset fits the description of the long train of abuses
pursuing invariably the same Object. With the invariable pursuit of the object being
a conspiracy to restrict liberty as the Object is the Imposition of Absolute Tyranny.
These tyrannical deprivation of liberties are a massive assault on the authority of
GOD and as the Egyptians were crushed for their bold defiance of GOD so too will
those who hold the Masonic adage, Solve et Coagula be destroyed as they seek to
build a world without freedom. You have stood as one who stood up in the face of
this tyrannical assault on the authority of GOD. When the Egyptians restricted the
religious liberties of God’s people he sent them plagues - some in the form of
natural disasters and they increased in intensity till the LORD slew the firstborn of
man and beast to break the back of pharaoh to let GOD’S people go to worship
according to the dictates of their conscience. The bible says that the king of the
south will be subjugated and the king of the south are those who seek to build
a world without freedom as pharaoh was the most rebellious against GOD and
GOD will punish him. They will fail it, as is impossible for them to succeed for
God’S word prohibits it.
Mr Archbishop the LORD OF HOSTS has 10,000 times 10,000 angels waiting
to execute judgment on the Masonic conspirators who seek to build a world without
freedom. The question for all who calls upon the name of the LORD is this; will you
stand on the side of the LORD or the side of the dragon? The LORD has called you

122a

and those aligned with you Mr, Archbishop for such a time as this. If you heed
GOD’S call you cannot fail as the hand of the DIVING is with you as it was with
Alexander as he destroyed the Persians and as it was with Nebuchadnezzar and he
crushed the Egyptians. The LORD go with you in your fight against the children of
darkness, Godspeed Archbishop.
I will close with another adage, Mr. Archbishop, the enemy of my enemy is
my friend.
WHEREFORE, the undersigned respectfully request that the WILL OP GOD be
upheld.
i

■/

/•,-

Dale j. Richardson
Enclosed is a Hague Abduction Convention Application containing Facts
delineating the Tyranny of the masonic conspirators. Presented BY DALE J
Richardson who identifies as Canadian, Caribbean, Disabled, Christian,
Seventh-Day Adventist and Free.

123a

No.

3fn ®be
Central glutljdrttp for tfje Hague Sbbuction
Contention
Dale J. Richardson
Applicant,
On behalf of

Kakis K.N. Richardson
Child.
v.
Kimberley A. Richardson
Respondent.
Application for the Return of the Child
Dale J. Richardson
1292 95th Street,
North Battleford, SK S9A 0G2
Tel:
1 306 441-7010
Email: unity@dsrkarisconsulting.com

1

124a

I.

INTRODUCTION

1.

This Application for the Return of the Child (the “Application”) is filed by
Dale J. Richardson (the “Applicanti”) to the Central Authority for the
Hague Convention (the “Central Authority") on behalf of Karis K.N.
Richardson (the “Child) against Kimberley A. Richardson (the
“Respondent”) which has abducted the Child without cause and
subsequently committed perjury to cover her crime abusing the judicial
process with the acquiescence of justices and other officials.

2.

This Application is made under article 8 of the HAGUE Convention on the
Civil Aspects of International Child Abduction (the “Hague Abduction
Convention").

II.

PARTIES, ARTICLE 8(A) AND (B)

3.

The Applicant DALE J. RICHARDSON is the father of the Child KARIS K.N.
RICHARDSON and has the “right of custody” and “right of access” under
domestic and international law, but has not been given access to the Child
since May 31 of 2020 to further torture him and the Child as punishment for
whistleblowing the mismanagement of the Covid emergency in
SASKATCHEWAN. The Applicant is a citizen of CANADA born in the CITY OF
WINNIPEG in the PROVINCE OF MANITOBA on July 16 of 1974. The address of
the Applicant is 1292 95th Street, North Battleford, SK S9A 0G2 despite
being compelled to flee torture and the threat of death in SASKATCHEWAN.
The Applicant is the Chief Executive Officer of DSR KARIS CONSULTING INC.,
which conducts essential services tailored to engineering Covid prevention,
and may be contacted by the work telephone at 1 306 441-7010 or by email to
the humanitarian designated address: unitv@dsrkarisconsulting.com.

4.

The Respondent KIMBERLEY A. RICHARDSON is the mother of the Child KARIS
K.N. Richardson and, to the knowledge of the Applicant, has had custody of
the Child since May 31 of 2020. The Respondent is a citizen of CANADA born

2

125a

in the CITY OF NORTH BATTLEFORD in the PROVINCE OF SASKATCHEWAN on
September 30 of 1980 and has brown hair and eyes and approximately
weighs 200 pounds and has a height of 5’8”. The address of the Respondent is
unknown, but suspected of residing in or around the CITY OF NORTH
BATTLEFORD in the PROVINCE OF SASKATCHEWAN. The Respondent is a
Recovery Specialist at INNOVATION CREDIT UNION, which is an institution
liable for millions of dollars in damages for infringement of contract with
DSR KARIS CONSULTING Inc., and may be contacted by personal email to
hebertkim@hotmail.com or at work by telephone at 1 866 446-7001 or by
email to kimberlev.richardson@innovationcu.ca.
5.

The Child KARIS K.N. RICHARDSON has purportedly been wrongfully removed
or retained from the Applicant and KAYSHA F.N. DERY (“KaYSHA”) without
due process of law in contravention to both domestic and international law.
The Child is a citizen of CANADA born premature with various complications
in the CITY OF SASKATOON in the PROVINCE OF SASKATCHEWAN on February 9
of 2019 and has brown hair and brown eyes, but weight and height of the
Child is unknown to the Applicant as he has not seen her for 286 days as of
March 12 of 2021. The address of the Child is unknown, but suspected of
residing with the Respondent and the Child is an infant with no direct
contact information.

6,

The Non-Party KAYSHA F.N. DERY is the elder sister of the Child KARIS K.N.
RICHARDSON and has the “right of access” under domestic and international
law, but has not been given access to the Child since May 31 of 2020 as
unreasonable retribution for conflicts between her and the Respondent and to
punish her for whistleblowing the mismanagement of the Covid emergency in
Saskatchewan. Kaysha is a citizen of Canada, passport number HL632765,
and of the METIS NATION OF SASKATCHEWAN, citizen number 012188, born in
the City of Winnipeg in the Province of Manitoba on March 16 of 1997.
The Respondent is the Chief Communication Officer of DSR KARIS

3

126a

CONSULTING Inc. and, to the knowledge of the Applicant, a Food Service
Worker at SASKATCHEWAN HOSPITAL which is a prison making her a peace
officer under Canadian law. KAYSHA is currently being held at NEVADA
Southern Detention Center near the City of Pahrump in the State of
NEVADA to punish her for bringing evidence of the invariable pursuit of the
Object in Canada and the United States when seeking asylum from
torture in CANADA, and may be contacted by calling the Applicant at the
foregoing contact information.
III.

GROUNDS, ARTICLE 8(C)

7.

This Application is made pursuant to the following:
(i)

the UNITED NATIONS Convention against Torture and Other
Cruel, Inhuman or Degrading Treatment or Punishment (the “UN
Torture Convention”), specifically articles 1, 2, 4, 12, 13, and 16;

(ii) the HAGUE Convention on the Civil Aspects of International Child
Abduction (the “Hague Abduction Convention”), specifically
articles 1, 3, 5, 8, and 9; and
(iii) the Canadian Charter of Rights and Freedoms (the “Charter*’),
Part I of the Constitution Act, 1982, being Schedule B to the
Canada Act 1982 (U.K.), 1982, chapter 11, specifically sections 9
and 10;
8.

Specifically, this Application seeks the return of the Child for the reasonable
grounds hereunder, namely:
(i)

the Child is being tortured under article 1 of the UN Torture
Convention by the removal and retention from her established
primary caregiver, the Applicant, which intentionally inflicts
“severe pain or suffering, whether physical or mental” on the
Child to punish her and the Applicant',

4

127a

(ii) the only “effective legislative, administrative, judicial or other
measures to prevent acts of torture” under article 2 of the UN
Torture Convention for persons under the age of 16 years is the
Hague Abduction Convention when the torture results from the
wrongful removal or the retention of a child',
(hi) subject to 8(ii) above, the UN Torture Convention has only
theoretical and ineffective “legislative, administrative, judicial or
other measures to prevent acts of torture” as the Criminal Code
makes torture illegal in CANADA, but provides no extra-territorial
mechanism to make complaints of torture against officials which
means a person has to complain to the official which tortured
them;
(iv) the Child was retained on June 1 of 2020 which was a “wrongful”
“removal or the retention of a child” as it was “in breach of rights
of custody attributed to” the Applicant pursuant to article 3 of the
Hague Abduction Convention, the Respondent notified the
Applicant by text message of such retention: “Dale, I’ve spoken to
my lawyer this morning and have been advised to let you know
that at this time you will not be given access to Karis. This is also
to advise you that you are no longer permitted on my parents
property and we’ve been advised to contact the RCMP if you come
on their land.”;
(v)

the removal or the retention of the Child was subsequently
endorsed by JUSTICE R.W. ELSON on July 23 of 2020 when he
ordered that the Respondent shall have sole custody in the
absence of the Applicant, as the Applicant was prevented from
entering the court that day by the ROYAL CANADIAN MOUNTED
Police and the Court Deputy Sheriff under the guise of an
alleged warrant pursuant to The Mental Health Services Act and
5

128a

taken to BATTLEFORDS MENTAL HEALTH CENTRE where he was
strapped to a bed and drugged against his will by officials during
the hearing;
(vi) the removal or the retention of the Child was seemingly ordered
as punishment for whistleblowing the mismanagement of the
Covid emergency in SASKATCHEWAN which relates to terrorism,
torture, genocide, crimes against humanity, and the crime of
aggression, as part of a conspiracy to restrict the liberty of the
PEOPLE, the invariable pursuit of the OBJECT in the UNITED
STATES Declaration of Independence, to build a world without
freedom through the dissolution of social order: Solve et Coagula
as the MASONIC adage teaches as articulated by the JESUIT
affiliated Carlo Maria Vigano;
(vii) the corruption in SASKATCHEWAN which is demonstrated by
Justice J.D. Kalmakoff of the Court of Appeal for
SASKATCHEWAN participating in the unauthorized practice of law
when he assumed the role of opposing council to strike down a
writ of mandamus to force the officials of the COURT OF QUEEN’S
Bench for Saskatchewan to follow their own laws and rules to
accept evidence of torture and judicial interference to allow due
process of law in his appeal for the “right of custody” of the Child‘,
(viii) the Central Authority for Saskatchewan under the Hague
Abduction Convention is the EXECUTIVE COUNCIL (the
“Saskatchewan Central Authority”) pursuant to The
International Child Abduction Act, 1996, and the EXECUTIVE
COUNCIL is almost always made up of members of the
Legislative Assembly of Saskatchewan, the same assembly
responsible for passing The Mental Health Services Act which is in
direct violation of the UN Torture Convention as the same permits

6

129a

forced medical treatment simply for refusing any kind of medical
treatment, specifically allowing officials to strap people to beds
and drug them with psychoactive drugs against their will without
lawful cause;
(ix) given that the unlawful abduction of the Applicant as part of
judicial interference is the responsibility of the LEGISLATIVE
Assembly of Saskatchewan and thereby the Saskatchewan
Central Authority and is prejudice, it would be a direct violation of
article 1 of the Hague Abduction Convention to have the
Saskatchewan Central Authority “ensure that rights of custody
and of access under the law of ” SASKATCHEWAN and CANADA are
honoured and enforced;
(x)

even though the Hague Abduction Convention is commonly used
between Contracting States, nothing in the same precludes
Federal States with multiple Central Authorities under article 6
of the same from co-operating under article 7 of the same to
“secure the prompt return of children wrongfully removed to or
retained in any Contracting State” under article 1 of the same or
enforcing compliance of the other Central Authorities by other
lawful means, especially when a Central Authority has been
demonstrated as a rogue element of the international community;

(xi) even in Federal States, the Hague Abduction Convention
consideration for wrongful removal or retention of a child is
unaffected by “operation of law or by reason of a judicial or
administrative decision, or by reason of an agreement having
legal effect under the law of that State” under article 3 of the
same and determined solely upon merit;

7

130a

(xii) the Child which is an infant was not treated as a person under
the Charter by the administrative or judicial authorities of
Saskatchewan and plainly denied her section 10(c) right “to have
the validity of the detention determined by way of habeas corpus
and to be released if the detention is not lawful” by JUSTICE N.D.
Crooks of the Court of Queen’s Bench for Saskatchewan and
such right has been under suspension ever since despite being in
the Court of Appeal for Saskatchewan for 171 days as of
March 12 of 2021; and
(xiii)the absence of the Applicant puts the Child at risk for being
molested by the MASONIC affiliated family of the Respondent as
one of her nephews was caught attempting to insert his penis into
the mouth of the other nephew and the Hague Abduction
Convention is the only mechanism to prevent acts of child
molestation when local courts and other officials have been
caught waging war against their governments by violating the
fundamental principles of justice as the convention is independent
of their authority, even the firm representing the Respondent,
Matrix Law Group LLP, has Masonic affiliations and is
suspected of being associated with covering up child molestation.
IV.

JUDICIAL DECISIONS AND CIRCUMSTANCES, ARTICLE 8(E) AND
(G)

A.

Engineering Reimagined

9.

DALE J. Richardson (known as the Applicant, hereinafter “DALE”) and his
daughter KAYSHA F.N. Dery (“Kaysha”) sought opportunity to minister
Seventh-Day Adventist Church doctrine to the Battlefords and
surrounding Indigenous communities. On April 1 of 2020, DALE founded DSR
Karis Consulting INC. (“DSR Karis”), a Canadian federal corporation
pursuant to the Canada Business Corporations Act which is a distinct
8

131a

natural person under subsection 15(1) of the same, to further this ministry,
specifically in the field of mechanical engineering.
10.

DSR KARIS, named after his infant daughter KARIS K.N. RICHARDSON (known
as the Child, hereinafter “KARIS”), sought to help local businesses with their
Covid response by installing safe Heating, Ventilating, and Air Conditioning
systems that mitigate the spread of contagions, an essential service, and build
a future for his children; DALE would do anything for his children. DSR KARIS
was pursuing opportunities to help educate Indigenous persons and women
in the field of engineering and offered its essential services at cost to all notfor-profits and houses of worship in the Battlefords and surrounding areas in
an effort to help faith communities open their doors again, this is engineering
reimagined. Unfortunately, due to a series of coordinated efforts by
unscrupulous persons, this ministry was hindered.

B.

Criminal Negligence

11.

DSR KARIS was hindered by the criminally negligent recommendations for
Covid response from the SASKATCHEWAN HEALTH AUTHORITY which
motivated businesses, already cash-strapped from the global shutdown, to
hire unqualified professionals to install Heating, Ventilating, and Air
Conditioning systems to mitigate the spread of contagions, such systems were
not effective from an engineering perspective and threatened the safety of the
general public. After repeated pleas to the SASKATCHEWAN HEALTH
AUTHORITY to have a qualified engineer review its recommendations, On July
7 of 2020, DSR KARIS notified INNOVATION CREDIT UNION about the criminal
negligence requesting that it fulfill its fiduciary duty to its members by
notifying them of the same as it related to the Non-Disclosure Agreement that
exists between them. INNOVATION CREDIT UNION responded by conspiring to
limit DSR KARIS’s access to INNOVATION CREDIT UNION and its members by
Royal Canadian Mounted Police intervention which was a breach of the
Non-Disclosure Agreement. In response to a complaint of uttering threats

9

132a

made against DALE, he provided evidence to the contrary and on June 16 of
2020, the Royal Canadian Mounted Police attempted to return part of
that evidence without conducting a proper investigation. DSR KARIS made a
complaint and provided evidence to the ROYAL CANADIAN MOUNTED POLICE
about the criminal negligence under sections 219 and 220 of the Criminal
Code which to its knowledge was never investigated.
12.

While DSR KARIS was pursuing the foregoing, its Chief Executive Officer,
Dale, was being persecuted by the SEVENTH-DAY ADVENTIST CHURCH in
collusion with his wife KIMBERLY A. RICHARDSON (known as the Respondent,
hereinafter “KlM”) for adhering to its doctrine and his infant daughter KARIS
was wrongfully removed and retained by his wife KlM on June 1 of 2020
under threat of Royal Canadian Mounted Police intervention and tortured
as a person and third person under 269.1 of the Criminal Code. The members
responsible for such persecution advocate MASONIC dogma in the church and
have ties to the SASKATCHEWAN HEALTH AUTHORITY, even possessing the
influence to hire Dale’s daughter KAYSHA as a permanent employee and
peace officer at SASKATCHEWAN HOSPITAL where she was tortured under
269.1 of the Criminal Code. KAYSHA made complaints to the CANADIAN
UNION of Public Employees about workplace safety, having prior
knowledge of the criminal negligence being the Chief Communication Officer
of DSR KARIS, and about discrimination against those of INDIGENOUS and
METIS descent in her workplace to which she belongs as she identifies as
EUROPEAN, Caribbean, and Metis. Such discrimination based on race by
employees of SASKATCHEWAN HOSPITAL inflicts severe mental pain and
suffering on such minorities in their care and is torture under 269.1 of the
Criminal Code as all permanent employees of SASKATCHEWAN HOSPITAL are
peace officers and officials under the same.

13.

In the interest of the general public, DSR KARIS with its low socioeconomic
status, sought remedy by pro se legal representation against the

10

133a

Saskatchewan Health Authority for its criminal negligence under
sections 219 and 220 of the Criminal Code with INNOVATION CREDIT UNION
and the ROYAL CANADIAN MOUNTED POLICE as joint respondents for
conspiracy and accessory after the fact under sections 465(1) and 463 of the
Criminal Code and with the SEVENTH-DAY ADVENTIST CHURCH as a joint
respondent for its members affiliation with the SASKATCHEWAN HEALTH
AUTHORITY and their relentless persecution of its Chief Executive Officer,
DALE, and Chief Communication Officer, KAYSHA, which seemingly happened
in response to inquiry into the SASKATCHEWAN HEALTH AUTHORITY,
Innovation Credit Union, and the Royal Canadian Mounted Police.
14.

DSR KARIS submitted a pro se originating application in the COURT OF
Queen’s Bench for Saskatchewan in the Judicial Centre of
BATTLEFORD on July 16 of 2020 which sought the following:
(i)

orders for an investigation into INNOVATION CREDIT UNION under
The Credit Union Act, 1998, a Saskatchewan statute, arising from
the infringement of the Non-Disclosure Agreement;

(h) orders for the ROYAL CANADIAN MOUNTED POLICE to stop
preventing DSR KARIS from contacting CONSTABLE SEKELA, the
lead investigator for its complaint of criminal negligence; and
(hi) protective orders against the respondents as they had been
threatening the officers of DSR KARIS.
15.

The in chambers date for such application was scheduled for July 23 of 2020.

C.

The July 23rd Terrorist Attacks

16.

After many failed attempts by the SASKATCHEWAN HEALTH AUTHORITY and
Royal Canadian Mounted Police to intimate and coerce Kaysha and her
father DALE from attending the hearing on behalf of DSR KARIS under the
guise of the Covid emergency and self-isolation, KAYSHA and her father DALE

11

134a

decided in the interest of the general public and CHRISTIANS and CATHOLICS
everywhere to attend the hearing on behalf of DSR KARIS to expose the
mismanagement of the Covid emergency in Saskatchewan.
17.

On July 23rd of 2020 at approximately 10:00 AM CST, DALE, the power of
attorney for DSR KARIS, was detained under The Mental Health Services Act
and KAYSHA, the Chief Communication Officer for DSR KARIS, was detained
under The Public Health Act, 1994 while acting on behalf of DSR KARIS.
DALE and Kaysha were both detained at the same time and place by six
Royal Canadian Mounted Police officers and the Court Deputy Sheriff
for different reasons with no declared warrant in front of the COURT OF

Queen’s Bench for Saskatchewan in the Judicial Centre of
BATTLEFORD minutes before they were to attend a hearing for DSR KARIS to
expose the mismanagement of the Covid emergency in SASKATCHEWAN. As
predicted by CONSTABLE READ during the unlawful arrest, JUSTICE R.W.
ELSON adjourned the hearing; it was adjourned sine die, meaning it could not
be reopened without the consent of the respondents.
18.

While DSR KARIS was pursuing the foregoing litigation, Dale’s wife filed for
divorce under the legal counsel of PATRICIA J. MEIKLEJOHN of MATRIX LAW
GROUP LLP, the partner of CLIFFORD A. HOLM who was one of the influential
persons advocating MASONIC dogma in the BATTLEFORDS SEVENTH-DAY
ADVENTIST Church. The in chambers date for such divorce petition was
scheduled for July 23 of 2020 on the same docket seemingly as punishment
for pursing litigation on behalf of DSR KARIS against the SEVENTH-DAY
Adventist Church, the Saskatchewan Health Authority, Innovation
Credit Union, and the Royal Canadian Mounted Police for the
mismanagement of the Covid emergency in SASKATCHEWAN. JUSTICE R.W.
ElSON also presided over Dale’s divorce case and on July 22 of 2020
requested that his wife KlM draft an interim order for the hearing the
following day; JUSTICE R.W. ELSON granted this interim order on July 23 of

12

135a

2020 while DALE was absent, as he was detained for mental health, which
gave his wife KlM possession of their house and DSR Karis’s corporate
records and registered office and gave her custody of KARIS. Later that day,
KlM with her family and in the presence of the ROYAL CANADIAN MOUNTED
POLICE came and took possession of DSR Karis’s property except for its
corporate phone from its only remaining agent through intimation and
coercion by armed ROYAL CANADIAN MOUNTED POLICE officers.
19.

When the JUSTICE R.W. ELSON discovered DSR Karis’s articles of
incorporation, specifically the share transfer restrictions clause, he realized
their egregious failure. The shares could only be transferred upon consent
through resolution by the sole director of DSR KARIS, DALE, and declaring
him mentally insane was of no consequence, the shares could not be
transferred to KlM. DSR KARIS offers essential services and interfering with
or causing a severe disruption to an essential service is terrorist activity under
subsection 83.01 (l)(b)(ii)(E) of the Criminal Code and every person who
knowingly participates in carrying out terrorist activity is guilty under
83.18(1) of the same. Since July 23 of 2020, DSR KARIS has been unable to
conduct its essential services, and the MASONIC conspirators have sought to
cover up their crime.

20.

DALE and KAYSHA were both tortured by peace officers and officials under
section 269.1 of the Criminal Code and the UN Torture Convention binding in
CANADA during their arbitrary, unconstitutional, and unlawful detainment.
Dale was taken to BATTLEFORDS MENTAL HEALTH CENTRE and was strapped
to a bed by Royal CANADIAN MOUNTED POLICE while SASKATCHEWAN
Health Authority officials drugged him against his will. Dale was
administered drugs against his will whenever he asked for the warrant for
his detainment which was finally given to him after a few days of
detainment. DALE was officially admitted to BATTLEFORDS MENTAL HEALTH
CENTRE on July 24 of 2020 for “paranoid religious, persecutory and grandiose

13

136a

delusions” after he was drugged on July 23 of 2020 and it was determined by
biased medical professionals that he must be tied to a bed and drugged to
cure him. CONSTABLE BURTON said “cause it’s a little different—
Saskatchewan health care compared to Manitoba” and that he had been
there for about 7 years in response to Dale’s mother AGATHA RICHARDSON
saying “You should see his feet, I mean we don’t restrain people like that”.
After being interrogated at BATTLEFORDS UNION HOSPITAL for hours, KAYSHA
was taken by ROYAL CANADIAN MOUNTED POLICE to SASKATCHEWAN
HOSPITAL, where she was also employed as a peace officer and had active
complaints against through CANADIAN UNION OF PUBLIC EMPLOYEES
regarding discrimination and occupational health and safety issues with its
Heating, Ventilating, and Air Conditioning systems. KAYSHA was detained
while her union meeting was outstanding and she has never had the
opportunity to meet with the union since, but is still a permanent employee
and peace officer at SASKATCHEWAN HOSPITAL. DALE and KAYSHA were only
released from detainment after an Application for a Writ of Habeas Corpus
Ad Subjiciendum was filed for them.

D.

Habeas Corpus Ad Subjiciendum

21.

ROBERT A. CANNON (‘Robert”) made repeated attempts to file an Application
for a Writ of Habeas Corpus Ad Subjiciendum for Dale and KAYSHA against

the Saskatchewan Health Authority and Royal Canadian Mounted
POLICE, first ex parte and after with notice with overwhelming evidence of
their arbitrary, unconstitutional, and unlawful detainment which included
video, audio, and documentary evidence; the application was submitted to a
different judicial centre than BATTLEFORD, the COURT OF QUEEN’S BENCH
for Saskatchewan in the Judicial

Centre of Saskatoon in accordance

with its court rules as it was closest to Robert’s residential address.
Robert’s third amendment to the Application for a Writ of Habeas Corpus Ad
Subjiciendum was served to the SASKATCHEWAN HEALTH AUTHORITY, but the

14

137a

Royal Canadian Mounted Police refused service for such application and
stated that Robert’s evidence would not be added to the ongoing criminal
negligence investigation unless he was a witness, in which case he would
have to attend the BATTLEFORDS ROYAL CANADIAN MOUNTED POLICE
detachment, the ROYAL CANADIAN MOUNTED POLICE detachment responsible
for Dale’s and KAYSHA’s detainment. At the time, ROBERT did not feel
comfortable leaving the jurisdiction of the SASKATOON POLICE SERVICE where
the Royal Canadian Mounted Police have no jurisdiction. Kaysha was
released before the third amendment and DALE was released shortly after the
third amendment was served to the SASKATCHEWAN HEALTH AUTHORITY
which is responsible for SASKATCHEWAN HOSPITAL, BATTLEFORDS UNION
Hospital, and Battlefords Mental Health Centre.
22.

ROBERT with Dale and Kaysha proceeded to attend the hearing for the
foregoing application supposedly scheduled for Aug 18 of 2020 to request that
an investigation be conducted into their arbitrary, unconstitutional, and
unlawful detainment. They were denied entry to the hearing as the registrar
claimed that the such application did not exist, after such was disproven then
claimed that it was never served, and after such was disproven then claimed
that it was unfilled despite proof of the dependent notice of expedited
procedure being filed. After these incoherent discussions with the registrar,
ROBERT, Dale, and Kaysha proceeded to flee the jurisdiction of
Saskatchewan without delay.

23.

ROBERT later filed by mail the fourth and fifth amendments to the
Application for a Writ of Habeas Corpus Ad Subjiciendum which added
Dale’s infant daughter Karis and his affiliate Christy Dawn Penbrum
(“CHRISTY”), who was punished for associating with him during his
detainment, to those applied for, additional respondents, and orders similar
to those in the application by DSR KARIS for July 23 of 2020 for an
investigation into INNOVATION CREDIT UNION that were judicially interfered

15

138a

with. JUSTICE N.D. Crooks presided over this application on September 10 of
2020 and dismissed the matter in the first hearing on fake technicalities and
without hearing the evidence in court, despite purporting that she reviewed
the evidence in ker official capacity; JUSTICE N.D. CROOKS ordered ROBERT
to pay costs which is expected in an Application for a Writ of Habeas Corpus
Ad Subjiciendum if it is determined by the justice to be frivolous and
vexatious. On September 22 of 2020, ROBERT filed an appeal to JUSTICE N.D.
Crooks’s decision in the Court of Appeal for Saskatchewan, Given the
corruption demonstrated in the COURT OF QUEEN’S BENCH FOR
Saskatchewan, the Royal Canadian Mounted Police which is the
national police force, and the Seventh-Day Adventist Church which is a
centrally governed international church, KAYSHA did not feel safe in CANADA
anymore and decided to seek refuge in her ancestral homeland in the STATE
OF MONTANA on October 1 of 2020.
24,

On October 5 of 2020, JUSTICE J.A. SCHWANN of the COURT OF Appeal FOR
SASKATCHEWAN ruled that Robert’s lawful application for dispensing with
service which was intentionally misinterpreted as ex parte would not be
permitted despite the overwhelming evidence of corruption and she ordered
that ROBERT would need to serve the respondents appeal books to proceed
with the hearing which would take multiple months; such order constitutes a
suspension of Writ of Habeas Corpus which is permissible in CANADA as the
Canadian Charter of Rights and Freedoms permits human rights violations if
they are to such reasonable limits prescribed by law as can be demonstrably
justified in a free and democratic society.

E.

A Metis Plea for Safety and Asylum

25.

On October 1 of 2020, ROBERT accompanied KAYSHA as she fled to the U.S.CANADA Border at the Sweet Grass port of entry seeking refuge under the
Jay Treaty and asylum in the UNITED STATES from the persecution and
torture she was subjected to in CANADA. KAYSHA brought her Canadian
16

139a

passport, Metis citizenship card, marriage certificate, many other forms of
identification, and over a thousand pages of documentation with her to the
border as part of her plea. After KAYSHA was refused entry to the UNITED
STATES on the basis of being METIS, she subsequently filed an approximately
1214-page asylum application with over 5 gigabytes of media and video
footage of the events discussed in the previous sections.
26.

Upon being provided the foregoing information and KAYSHA’s claim for
asylum, the officials of the UNITED STATES at the border isolated KAYSHA by
escorting ROBERT off of the premises and began threatening KAYSHA with
being taken into custody for applying for asylum and attempted to coerce her
into returning to CANADA without filing the same. KAYSHA, fearing for her
life, did not yield to their threats or coercion and filed for asylum and was
subsequently taken into custody under the guise of unsuitable travel
documentation and placed in an expedited removal. KAYSHA was first held in
custody at the U.S.-Canada border in the STATE OF Montana, then
transferred to the JEFFERSON COUNTY JAIL in the STATE OF IDAHO, then
finally transferred to NEVADA SOUTHERN DETENTION CENTER in the STATE OF
NEVADA and was held in custody in the STATE OF UTAH during such transfer.

27,

The asylum officer, SCOTT ROBINSON, ZCH 193, from the CHICAGO ASYLUM
OFFICE in the State OF Illinois, conducted KAYSHA’s credible fear of
persecution interview and made his decision on October 15 of 2020 alleging
that she was credible, but did not believe that she had credible fear of being
persecuted by her centrally governed international church, the corrupt courts,
or the corrupt national police force again in CANADA despite her having filed
for asylum from them, that her infant sister is still detained by their
authority, and evidence that those of METIS descent are persecuted in
CANADA. Kaysha was not given her prompt review of determination by an
immigration judge within seven (7) days which is required by the
Immigration and Nationality Act and was not given such review of

17

140a

determination until after an Ex Parte Petition for a Writ Of Habeas Corpus
was submitted on her behalf and filed on December 8 of 2020.
F.

Another Habeas Corpus Ad Subjiciendum

28.

On November 27 of 2020, ROBERT submitted by mail from CANADA an Ex
Parte Petition for a Writ of Habeas Corpus on behalf of KAYSHA to the UNITED
States district Court for the District of Nevada at 333 Las Vegas
Blvd. South Las Vegas, NV 89101; such mail was suspended by CANADA
POST, the primary postal operator in CANADA, under the guise of the Covid
emergency and was not received until December 7 of 2020 at 11:38 AM MST;
that very day in the afternoon, KAYSHA received word that she had been
given an immigration hearing date that December 10 of 2020 and that she
would likely be deported. The petition was filed the day after it was received
on December 8 of 2020 as a civil case with the case number of
2:20-CV-02218-JAD-DJA and was misinterpreted as pro se legal
representation by KAYSHA instead of Robert and was suspended under the
guise of the following: “Due to this court's extremely heavy case load this
review process may take several weeks”.

29.

On December 10 of 2020 and fifty-six (56) days after KaYSHA’s credible fear of
persecution interview, KAYSHA’s review of determination was conducted by
the Judge Lindsay Robert which sought to uphold Scott Robinson, ZCH
193’s credible fear findings and deport KAYSHA without reviewing the
evidence, however, KaYSHA’s lawyer LAWRENCE J. LlTMAN (“Jay”) argued
that KAYSHA needed a continuance for the evidence to be reviewed arid JUDGE
Lindsay Robert reluctantly granted such continuance and subsequently
referred the case to JUDGE GLEN Baker, a judge with a better reputation.
The following Tuesday on December 15 of 2020, JAY presented much of the
information and evidence provided in this application to JUDGE GLEN Baker
articulating the terrorist activity and KAYSHA testified of the facts that
pertained to her. JUDGE GLEN BAKER was reluctant to give his decision in the
18

141a

court room and purported that he would review all the evidence in his official
capacity and make his final decision at a later time.
30.

KAYSHA’s deportation was finalized on December 17 of 2020 a week after her
first immigration hearing, when JUDGE GLEN BAKER concluded that (1) she
had not been physically harmed during her arrest and thereby had not been
tortured and did not qualify under the UN Torture Convention, and (2) she
did not qualify under any of the five bases enumerated in section 101(a)(42)
of the Immigration and Nationality Act which are race, religion, nationality,
membership in a particular social group, or political opinion.

31.

Given the information and evidence provided in this application, much of
which was provided to JUDGE GLEN BAKER, his conclusions appear unfounded
as the evidence provided delineated the apartheid system which is CANADA,
the resulting genocide of those in KAYSHA’s racial groups METIS and BLACKCANADIANS, Canadian justices exercising extreme prejudice, and how KAYSHA
was primarily psychologically tortured but also physically tortured in such
system as she was taken to a maximum security prison for the criminally
insane without cause by the national police force, the ROYAL CANADIAN
Mounted Police, and held there in isolation for eight days as punishment
for seeking remedy in court on behalf of a federal corporation. JUDGE GLEN
Baker’s primary argument for deporting KAYSHA was that she could seek
remedy for unlawful arrest in CANADA. Jay advised KAYSHA’s father Dale
that her deportation would cause the Ex Parte Petition for Writ of Habeas
Corpus to be moot. The petition was fourteen hundred eighty two (1482)
pages spread over seven (7) volumes, each of which was titled: “Book of
Torture”. While KAYSHA was seeking asylum in the United STATES,
KAYSHA’s father DALE remained in CANADA to continue the litigation on
behalf of DSR KARIS and the legal battle for custody of his infant daughter
KARIS who was kidnapped by his wife KlM which was later endorsed by the
courts with extreme prejudice.

19

142a

G.

Extreme Prejudice

32.

KAYSHA’s father DALE was released from BATTLEFORDS MENTAL HEALTH
CENTRE on August 7 of 2020 fifteen (15) days after being abducted. The draft
order granting custody of his infant daughter KARIS to his wife KlM was
issued on July 23 of 2020 which meant that he had to appeal such draft order
by August 22 of 2020 unless granted a motion to extend pursuant to the rules
of the COURT OF APPEAL FOR SASKATCHEWAN. When DALE was released he
was still suffering side-effects of the drugs administered to him against his
will in BATTLEFORDS MENTAL HEALTH CENTRE as can been seen in the
slurred language in his first meeting with DEREK ALLCHURCH (“DEREK”) in
which DEREK admitted to negligence.

33.

On August 29 of 2020, Dale contacted COMMISSIONER LUCKI of the ROYAL
CANADIAN Mounted POLICE to complain about being tortured by the
Battleford Royal Canadian Mounted Police detachment and the judicial
interference by the same and the Court of Queen’s Bench; her office referred
Dale back to the F-Division of the ROYAL CANADIAN MOUNTED POLICE, the
SASKATCHEWAN jurisdiction that tortured him and refused service on July 28
of 2020 for the third amendment of the habeas corpus relating to the same.

34.

On September 18 of 2020, DALE on behalf of DSR KARIS submitted a
Statement of Claim and Motion under case number T-1115-20 to the
Federal Court of Canada which purported with evidence that the Court
of

Queen’s Bench for Saskatchewan, the Royal Canadian Mounted

Police, the Saskatchewan Health Authority and others committed
various crimes as part of terrorist activity /that DSR KARIS needed protection
and remedy for such, and that the Chief Communication Officer fled to the
United States to file asylum after being tortured by the same. The hearing
for the motion to permit Dale to represent DSR KARIS under Rule 120 of the
court and grant interim relief was dismissed and struck without leave to
amend on October 5 of 2020 by JUSTICE ROBERT L. BARNES despite the
20

143a

foregoing evidence demonstrating that this case was a special circumstance
to permit DALE to represent under Rule 120 as permitted by such rule.
35.

On October 7 of 2020, DALE submitted a motion to extend and draft notice of
appeal to the COURT OF APPEAL FOR SASKATCHEWAN under case number
CACV3717 for the draft order granted by Justice R.W. ELSON on the basis
that DALE was detained and recovering from drugs administered to him
against his will during the appeal period and KARIS was not given fair
representation, JUSTICE J.A. CALDWELL presided over such motion on
October 28 of 2020, and concluded with extreme prejudice that granting the
motion to give KARIS fair representation in an appeal was prejudice to KlM
despite Dale’s extraordinary circumstances and the infant KARIS being taken
away from her father, her primary caregiver, without fair representation.

36.

On November 13 of 2020 and following KAYSHA’s arbitrary, unconstitutional,
and unlawful detainment in the UNITED STATES in violation of international
instruments binding in the same, DALE on behalf of DSR KARIS filed a
Statement of Claim under the case number T-1403-20 in the FEDERAL COURT
OF CANADA with motion to allow him to represent under Rule 120 of the court
against the MASONIC Grand LODGE OF SASKATCHEWAN, the SEVENTH-DAY
Adventist Church, the Court of Queen’s Bench for Saskatchewan, the
Provincial Court of Saskatchewan, and the Attorney General of the
UNITED STATES and his agents which delineated a conspiracy by MASONS and
those who believe or support those who believe MASONIC dogma to cover up
the mismanagement of the Covid emergency; the court refused to accept the
affidavit of service which is proof of service and thereby declared the
application to be abandoned on December 8 of 2020 under the guise that it
lacked proof of service.

37.

On November 26 of 2020, Dale attended a hearing to revisit custody of KARIS
in which JUSTICE J. ZUK presided in the COURT OF QUEEN’S BENCH FOR

Saskatchewan in the Judicial Centre of Battleford. Justice J. Zuk
21

144a

exercised extreme prejudice and was hostile towards DALE seemingly as
punishment for seeking remedy against the court. JUSTICE J. ZUK accepted
an affidavit by KIM which was demonstrated to be perjured by DALE as the
sole evidence upon which to uphold JUSTICE R.W. ELSON orders despite much
evidence that demonstrated that Karis should be in Dale’s care. JUSTICE J.
ZUK attempted to construe DALE as mentally ill and refused to accept new
evidence to the contrary which he was permitted to do. After suspending his
decision, JUSTICE J. ZUK finally concluded that KARIS should be in Kim’s care
on December 11 of 2020.
38.

On November 17 of 2020, ROBERT served to the ATTORNEY GENERALS of the
PROVINCES and Canada constitutional questions and on November 19 of 2020
included such questions in the perfecting of his habeas corpus appeal in the
Court of Appeal for Saskatchewan under the case number CACV3708,
questioning the constitutionality of allowing forced medical and psychiatric
treatment in The Mental Health Services Act and The Public Health Act, 1994,
and torturing corporations and using corporations to shield officials from
responsibility for acts of torture.

39.

On the November 20 of 2020 and December 1 of 2020, DALE included
constitutional questions under the case number T-1229-20 and T-1367-20 in
the FEDERAL Court OF Canada respectively, which included the same
questions from Robert’s case above, in addition to questioning the
constitutionality of requiring a lawyer to represent under the FEDERAL
COURT RULES and using rules to hinder evidence of torture from entering
court and violate the fundamental principles ofjustice.

40.

On November 22 of 2020, DALE was disfellowshiped by the SEVENTH-DAY
ADVENTIST Church without proper notice and in the disfellowship meeting
CLIFFORD A. Holm purported that Dale had defamed him.

22

145a

41.

On December 13 of 2020, DALE submitted an appeal under case number
CACV3745 to the final orders of JUSTICE J. ZUK denying Dale custody of his
daughter KARIS and on December 25 of 2020, the constitutional questions
above were submitted to COURT OF APPEAL FOR SASKATCHEWAN under case
number CACV3745 in addition to questioning the lack of correction and
control mechanisms under Royal Canadian Mounted Police Act, lack of
statutory provisions for preventing torture of children in the Divorce Act and
The Children’s Law Act, and the constitutionality of the ASSOCIATION OF
Professional Engineers and Geoscientists of Saskatchewan being a
corporation which shields officials from responsibility for committing acts of
torture, criminal negligence, and participating in terrorist activity.

42.

On February 2 of 2021 the REGISTRAR Amy GROOTHUIS of the COURT OF
APPEAL FOR Saskatchewan conspired to remove the constitutional questions
from the COURT OF APPEAL FOR SASKATCHEWAN by refusing to allow DALE to
perfect his appeal unless he agreed to remove the constitutional questions in
contravention to Court of Appeal Rules and the The Constitutional Questions
Act, 2012 and evidence of torture in contravention to the UN Torture
Convention.

43.

On February 9 of 2021, the CHIEF JUSTICE PAUL S. CRAMPTON of the
Federal Court of Canada, ordered that Dale’s and DSR Karis’s cases in
the Court would be all be case managed by the PROTHONOTARY MlREILLE
TABIB and the prothonotary proceeded to handle the cases together,
specifically case numbers T-1115-20, T-1229-20, T-1367-20, T-1404-20, the
only case that was excluded was T-1403-20 which proved that DALE was
seeking remedy separately from DSR KARIS as T-1404-20 and T-1403-20
addressed the same matter from Dale’s and DSR KARIS’s perspective based
on similar facts, respectively and separately, which contradicted the
Attorney General of Canada’s purports that Dale was attempting to seek

23

146a

remedy for the DSR KARIS in his personal hearing in an attempt to breach
the distinct natural person and thereby dismantle the corporate shield.
H.

The Extraordinary Condition

44.

On October 23 of 2020, ROBERT on behalf of WlSEWORK CONSULTING INC.
(“WlSEWORK”), a Canadian corporation pursuant to the Canada Business
Corporations Act, proceeded to the STATE OF DELAWARE to assist DSR KARIS
with filing a certificate of incorporation for DSR KARIS NORTH CONSULTING
INC. (“DSR KARIS North”) without providing legal advice. DSR Karis
planned to have KAYSHA handle the documentation and to sign the certificate
of incorporation in the STATE OF DELAWARE, but was forced to have DALE sign
them remotely as this process was delayed by her arbitrary, unconstitutional,
and unlawful detainment in violation of international instruments binding
the UNITED States as part of a conspiracy to cover up the mismanagement of
the Covid emergency.

45.

On October 28 of 2020 and under the instruction of DSR KARIS, WlSEWORK
mailed the certificate of incorporation from the Post Office at 55 E
Loockerman St in the City of Dover in the State of Delaware to the
Delaware Secretary of State with an affidavit of extraordinary condition
affirmed by ROBERT in accordance with Delaware General Corporations Law.
The Delaware Secretary of State acting on behalf of the State of
DELAWARE was to make a conclusive determination as to whether the
extraordinary condition existed and whether it hindered the filing of the
corporation.

46.

On November 2 of 2020 at approximately 4:03 PM EST, the representative of
the Delaware Secretary of State acting on behalf of the State of
DELAWARE called DSR Karis, the incorporator, to notify it that the affidavit
of extraordinary condition would not be reviewed, and in so doing violated
Delaware law to cover up the mismanagement of the Covid emergency.

24

147a

47.

If the STATE OF Delaware complied with 8 Del. C. 1953, § 103(i), the
affidavit of extraordinary condition would require the DELAWARE SECRETARY
OF STATE to make a conclusive decision on whether the abduction of DSR
Karis North’s Chief Communication Officer, KAYSHA, as part of a conspiracy
to cover up the mismanagement of the Covid emergency in SASKATCHEWAN,
was a revolution or insurrection, or rioting or civil commotion in the localities
of the Province of Saskatchewan in the Country of Canada and the State
of Illinois,

State of Montana, State of Idaho, State of Utah, and

State of Nevada in the Country of the United States.
48.

The refusal of the STATE OF DELAWARE to accept or make a conclusive
decision as to whether the extraordinary condition existed and whether it
hindered the filing for incorporation, and its failure to legislate a method to
appeal the unlawful denial of its SECRETARY OF STATE, hindered DSR KARIS
NORTH from seeking remedy from parties that violated its constitutional and
statutory rights as its filing date can no longer be corrected under 8 Del. C.
1953, § 103(i) and thereby hindered DSR KARIS NORTH from developing
critical infrastructure which is international terrorism.

I.

The Supreme Court of the United States

49.

KAYSHA on behalf of DSR KARIS NORTH, the newly founded Delaware
corporation, submitted an Ex Parte & Pro Se Petition For Extraordinary Writ
to the Supreme Court of the United States in the case of DSR Karis
North Consulting Inc. v. State of Delaware under original jurisdiction;
she did so while in custody at NEVADA SOUTHERN DETENTION CENTER and
her lawyer JAY witnessed her signature and mailed high priority such
petition on her behalf from the City of Las Vegas in the STATE OF NEVADA on
December 7 of 2020. The mail for such application was suspended for
unknown reasons and received on December 10 of 2020, however, ROBERT
delivered the required 40 copies to the SUPREME COURT OF THE UNITED
STATES in person on December 9 of 2020 under open filing on behalf of
25

148a

WlSEWORK CONSULTING CORP., a Delaware corporation, on behalf of DSR
KARIS NORTH. The petition contained the respectful request for the following
remedy in the form of an alternative writ:
to compel President Donald J. Trump in his official capacity to
declare the mismanagement of the Covid emergency by
MASONIC conspirators to be a national emergency, as the same
extends to the STATE OF DELAWARE and The Biden Plan to
Combat Coronavirus by the supposed presidential elect JOSEPH
R. BlDEN, which threatens the legitimacy of this presidential
election and by consequence threatens to deprive persons in the
United States of America of CHRISTIAN RIGHTS AND FREEDOMS,
among them the free exercise of RELIGION and the unalienable
rights to Life, Liberty, and pursuit of Happiness.
50.

This extraordinary writ was requested as the STATE OF DELAWARE lacked the
executive power to fix the damage it caused to the AMERICAN people and DSR
KARIS NORTH by hindering an investigation into and covering up the
mismanagement of the Covid emergency, which was crucial to the general
public and the electoral college making an informed decision in this
presidential election.

51.

Clara Houghteling (“Clara”) on behalf of Clerk Scott S. Harris of the
Supreme Court of the United States, filed the petition on December 15 of
2020 purporting that it was received on December 14 of 2020 and arbitrarily
refused to accept the petition purporting that no remedy was specified and
that individuals could not file pro se for a corporation or business entity, but
she cited no rules for the same as no relating rules exist. In so doing, the
Clerk exercised judicial authority which is beyond the scope of its office in an
effort to cover up the mismanagement of the Covid emergency to build a
world without freedom: “The Clerk receives documents for filing with the
Court and has authority to reject any submitted filing that does not comply
with these Rules” under Rule 1(1) of the Rules of the Supreme Court of the
United States, adopted April 18, 2019.
26

149a

J.

Another Another Application for Writ of Habeas Corpus

52.

After sunset on Thursday December 24 of 2020, ROBERT submitted an Ex
Parte & Pro Se Original Application for Writ of Habeas Corpus on behalf of
Kaysha to the Supreme Court of the United States and personal delivery
thereof was effected on Monday December 28 of 2020; the same was a
successive original application and such application purported the suspension
of the first application for writ of habeas corpus by the UNITED STATES
District Court for the District of Nevada due to its “extremely heavy
case load”. The first application was misinterpreted as pro se legal
representation by KAYSHA instead of ROBERT which also constituted
suspension. The successive application made it explicitly clear that ROBERT
was the applicant. There is no law of any kind that forbids successive
applications for writ of habeas corpus by the same or other applicants for
KAYSHA as she has never been sentenced by any court for any crime
anywhere in the world,

53.

ROBERT was unable to get in contact with the case analyst responsible for his
name in the alphabet, CLARA, as she has yet to reciprocate contact by phone
as of February 28 of 2021. Robert was able to contact case analyst SUSAN of
the Supreme Court of the United States on January 6 of 2021 and
received a letter from CLARA allegedly sent on December 31 of 2020 in which
she refused to accept the original application for writ of habeas corpus under
the guise of the following: (1) the original application for writ of habeas
corpus was interpreted as an extraordinary writ instead of original
jurisdiction under 28 U.S.C. § 2241 and § 2242, (2) the application was not
formatted as an extraordinary writ, (3) the application would need a motion
for forma pauperis despite the $300 filing fee being provided as a cheque, (4)
only an attorney can file habeas corpus for a detainee which contravenes the
foregoing codes, and (5) the ex parte application must be served on the
Respondents', these egregious lies in contravention to the fundamental

27

150a

principles ofjustice and all forms of law and subsequent return of documents
and cheque by the court clerk constitute suspension and an attempt to keep
evidence of treason and terrorism out of court.
54.

Such refusal and subsequent return of documents by CLARA purported by
Susan constitute suspension by the SUPREME COURT OF THE UNITED STATES
as Clara is the only case analyst ROBERT can apply through as she was
responsible for his name in the alphabet in accordance with the procedure of
such Court according to SUSAN. When ROBERT purported to SUSAN that
Clara broke the law, she replied: “its our rules”. Iii so doing, the Clerk
exercised judicial authority to suspend the CHRISTIAN right of Privilege of
Writ of Habeas Corpus which is beyond the scope of its office in an effort to
cover up the mismanagement of the Covid emergency to build a world
without freedom, a world without CHRISTIANITY.

K.

Petition to Congress

55.

On Monday January 4 of 2021, ROBERT, a UNITED STATES citizen living
abroad in CANADA, attempted to exercise his first amendment right to
petition congress for a redress of grievance and delivery thereof to the visitor
entrance of the Cannon building of the UNITED STATES HOUSE OF
Representatives guarded by Officer Parker and Officer Lee of the
United States Capital Police. Robert was instructed by Officer Parker
that due to Covid only employees would have access to any of the government
buildings in the capital and that ROBERT would be be required to contact his
representative in the UNITED STATES HOUSE OF REPRESENTATIVES; ROBERT
explained that he was a nonresident living abroad that did not have a
representative in CONGRESS and that the only way for him to petition
Congress was by delivering it to the UNITED STATES HOUSE OF
REPRESENTATIVES directly, the Metis face the same barrier to petition.

28

151a

56.

OFFICER Parker ignored Robert and instructed him to google a phone
number and call someone and that he should do so outside. ROBERT
purported that he was simply there to exercise his first amendment rights to
petition and needed to effect delivery directly; OFFICER PARKER began
threatening ROBERT with the statement “Do you want to be arrested?” to
which the answer was obviously “No”. When ROBERT asked under what
grounds could a person be arrested for when trying to exercise their first
amendment rights to petition, OFFICER Lee responded with “Our rules”, a
seemingly common trend. At no point did either OFFICER PARKER or OFFICER
LEE provide any viable means for ROBERT to exercise his first amendment
rights as a citizen living abroad. Eventually, OFFICER LEE turned to OFFICER
Parker and said I’m just going to do it, I’m going to arrest him. OFFICER Lee
approached ROBERT and said put your hands behind your back to which
ROBERT replied “Why?” having never been told that he was going to be
arrested. OFFICER LEE replied because it was resisting arrest, an arrest
which was never purported by anyone at any point to the knowledge of
Robert.

57.

ROBERT was processed and held in captivity for between 23 and 24 hours,
until the afternoon of Tuesday January 5 of 2021 when it was purported that
the charges were dropped and he was released; ROBERT was never given the
opportunity to stand before a judge probably because his arrest was in
violation of international, declarational, constitutional, statutory, and
common law and if he stood before a judge and pled his case, the judge would
be authorized and compelled to issue warrants for the arrest of OFFICER
PARKER and Officer Lee and conduct an investigation into his petition and
ensure that the petition was submitted to CONGRESS before Wednesday,
January 6 of 2021 as it purported various crimes which related to JOSEPH R.
BlDEN and the presidential election.

29

152a

58.

ROBERT was required to retrieve his belongings including without limitation
the petition from another location and was unable to submit his petition on
January 5 of 2021; he was also scared to be arrested again if he attempted
delivery on January 6 of 2021 so decided to allow delivery by email and mail
which would arrive at a later time given the mail service suspended his mail
again. ROBERT being detained in this manner and not given trial constitutes
arbitrarily detention to prevent him from petitioning CONGRESS in person
before Wednesday, January 6 of 2021. Robert was arbitrarily detained and
denied access to a Bible under the colour of authority of the UNITED STATES
attempting to exercise the constitutional right to petition for redress of
grievance to CONGRESS with respect to and citing the Ex Parte & Pro Se
Original Application for Writ of Habeas Corpus which was arbitrarily
rejected by CLARA of the SUPREME COURT OF THE UNITED STATES. DALE
mailed a petition for Congress on January 13 of 2021. DALE later petitioned
the Parliament of CANADA for the same.

L.

More Extreme Prejudice

59.

After failing to unlawfully deport KAYSHA which is a METIS card holding
citizen, JUDGE JENNIFER A. DORSEY of the UNITED STATES DISTRICT COURT
FOR THE DISTRICT of Nevada proceeded to hear the petition for a writ of
habeas corpus on January 27 of 2021 and dismissed it. JUDGE JENNIFER A.
DORSEY recognized that “Richardson alleges that the petition arises under
the United States Constitution, the Immigration and Nationality Act (“INA”),
the United Nations Convention Against Torture, and the United Nations
Refugee Convention. She claims that her detention is arbitrary, unlawful,
and violates the Fourth, Fifth, and Eighth Amendments. In the prayer for
relief, Richardson asks the court to assume jurisdiction over this matter,
order respondents to release her on her own recognizance, and grant any
other relief deemed proper”; however, the judge ignored her claim under the
United Nations Declaration on the Rights of Indigenous Peoples as a METIS

30

153a

card holding citizen and her claim that she was not given her immigration
hearing within seven days pursuant to 235(h)(l)(B)(iii)(III) of the
Immigration and Nationality Act which both qualify KAYSHA for immediate
release.
60.

JUDGE Jennifer A; DORSEY also ignored purports of UN Torture Convention
violations relating to the credible fear of persecution interview process not
being a competent authority and thereby acquiesced. JUDGE JENNIFER A.
DORSEY claimed that Kaysha was challenging the order of removal which is
at no point was purported; KAYSHA received her final order for deportation on
December 17 of 2020 which is reasonably demonstrable as a result of the
petition for a writ of habeas corpus. JUDGE JENNIFER A. DORSEY “took judicial
notice of the status of the proceedings in Richardson’s immigration case
before the Las Vegas Immigration Court”, a status that did not exist at the
time of filing. JUDGE JENNIFER A. DORSEY proceeded to order KAYSHA to “sign
and submit any future documents personally” claiming that ROBERT was
involved in the “unauthorized practice of law” for filing for an application for
a writ of habeas corpus on behalf of KAYSHA.

61.

On January 26 of 2021, ROBERT received notice of an upcoming hearing for
the appeal to the first habeas corpus in CANADA suspended by JUSTICE J.A.
SCHWANN and submitted four months prior on September 23 of 2020; the
appeal was to be heard on March 1 of 2021 and Robert would be given four
hours to present the case. On January 29 of 2021, ROBERT attempted to file
an Ex Parte Motion for Leave to Appeal to the Supreme Court for Writ of
Habeas Corpus which purported the prejudice demonstrated by JUSTICE J.A.
Schwann and Justice J.A. Caldwell of the Court of Appeal for
SASKATCHEWAN and requested the habeas corpus to be referred to the
Supreme Court of Canada; otherwise, the Court of Appeal for
Saskatchewan would have to decide whether to put Justice J.A. Schwann
and JUSTICE J.A. CALDWELL in prison. Such motion was denied by JUSTICE

31

154a

RALPH K. Ottenbreit purporting that he did not have the authority to file it.
Under the instruction of JUSTICE RALPH K. OTTENBREIT, ROBERT served and
filed a Motion to Adduce Fresh Evidence for a Writ of Habeas Corpus which
included such request to refer the case to a higher authority and included
evidence of the involvement the rogue agents of INNOVATION CREDIT UNION
in the July 23rd Terrorist Attacks such agents stood the most to gain from
the fraudulent orders of JUSTICE R.W. ElSON.
62.

On February 24 of 2021, JUSTICE J.D. KALMAKOFF of the COURT OF APPEAL
FOR SASKATCHEWAN presided over writ of mandamus and prohibition in
chambers; daring such hearing, he presumed to shield opposing counsel from
questions as to where the sudden windfall came to pay for the previously
infeasible legal fees on appeal purporting that such had no relevance. DALE
learned on March 14 of 2021 that KlM came into money from mortgage fraud
which included rogue elements of INNOVATION CREDIT UNION by the
fraudulent sale of his house without his knowledge or consent and the
unlawful transfer of the title. JUSTICE J.D. KALMAKOFF then proceeded to
participate in the unauthorized practice of law when he assumed the role of
opposing council to strike down the writ which was to force the officials of the
Court of Queen’s Bench for Saskatchewan to follow their own laws and
rules to accept evidence of torture and judicial interference to allow due
process of law in his appeal for the right of custody.

63.

JUSTICE J.D. KALMAKOFF was unable to declare DALE mentally ill in
chambers due to the overwhelming evidence to the contrary and was forced to
simply construe him as such in his subsequent brief of law disguised as court
orders which purported that DALE being strapped to a bed and drugged
against his will and the abduction of his children was not torture. JUSTICE
J.D. KALMAKOFF refused to make a decision based on the facts and legal
arguments presented in the hearing; in the absence of PATRICIA J.
MEIKLEJOHN making any legal arguments or presenting any evidence,

32

155a

JUSTICE J.D. Kalmakoff went and created legal arguments for her and
disregarded compelling evidence to the contrary in order to commit purgery
in his brief of law to shield INNOVATION CREDIT UNION, the COURT OF
Queen’s Bench for Saskatchewan, the mortgage fraud involving both as
the court would possess the funds pursuant to the final Orders of JUSTICE
R.W. ELSON disguised an interim orders.
64.

JUSTICE J.D. Kalmakoff was caught exercising extreme prejudice and
misrepresenting the law in an attempt to avoid the responsibility of his
position and his responsibilities under the UN Torture Convention.

65.

On March 1 of 2021, ROBERT was ambushed by a panel of judges, specifically
Justice Jacelyn Ryan-Froslie, Justice Georgina Jackson, and Justice
B.A. BARRINGTON-FOOTE (the “PaneT’) as he was not notified that Dale
would be speaking in the hearing. The Panel attempted to exceed their
jurisdiction purporting that they would decide on whether the constitutional
questions pertaining to forced medical treatment would be permitted in the
court room which the law does not permit. After witnessing the respondents
request the court to punish ROBERT on their word alone in order to torture
DALE, Karis, and KaySHA, the Panel decided to suspend their decision which
tortured them anyway even after MICHAEL B. GRIFFIN was caught
implicating all of the respondents in purgery and conspiracy to commit
torture and terrorism when he claimed that DALE and DSR Karis were
Robert’s clients and that ROBERT should be held financially responsible for
their actions, both of which were lies.

66.

One of the main perpetrators of the mortgage fraud, VlRGIL A. THOMSON of
OWZW LLP, was not present and the only intervenor for the constitutional
questions, LYNN CONNELLY representing the ATTORNEY GENERAL OF
Saskatchewan, was not present. The Attorney General of Canada was
present, but was not an intervenor in the constitutional questions—leaving
the factums requesting the questions to be struck down defenceless.
33

156a

67.

Almost all of the counsel which incriminated themselves in the March 1 of
2021 hearing with Robert, specifically not denying torturing DALE or being a
conspirator to terrorist activity, are the counsel in the upcoming unlawful
case management on March 23 of 2021 which undermines the integrity of the
entire judicial system and violates the distinct natural person as DSR KARIS
was never notified or allowed to defend itself from the remedy of case
management which caused it irreparable harm and caused a server
disruption of an essential service in CANADA and hindered the development of
critical infrastructure in the UNITED STATES crippling its AMERICAN
associate, DSR KARIS NORTH and further enabling the invariable pursuit of
the Object.

68.

On February 28 of 2021, KAYSHA submitted from federal prison to the
United States Court of Appeals for the Ninth Circuit and the Supreme
Court of the United States applications relating to habeas corpus and the
whistling-blowing the invariable pursuit of the OBJECT perpetuated by the
PROVINCE to THE North, a country known for torturing its citizens abroad.

69.

See the following exhibits for the documentary evidence relating to the
foregoing events:
Exhibit A: The Child

39

Exhibit B: God’s Judgment and A Parable
Exhibit C: Wrongful Removal and Retention of the Child,

....51
53

Exhibit D: DSR Karis Consulting Inc. Mission and Initiatives 57
Exhibit E: Covid Report by DSR Karis Consulting Inc., “Will
This Kfil People?”............................................ ............. .............. ...63
Exhibit F: The July 23rd Terrorist Attacks of 2020 by Canadian
134
Government Officials,

34

157a

Exhibit G: Certificates for Involuntary Medical Treatment of
the Applicant................................................................................ 146
Exhibit H: Mental Health Warrant used to Prevent an
Investigation in Innovation Credit Union..... .................

148

Exhibit I: Dale’s Medical Records which were Associated with
........ 150
the Warrant by Tonya
Exhibit J: Application for Habeas Corpus and Affidavits from
..151
Robert.
Exhibit K: Non-Disclosure Agreement between DSR Karis and
Innovation Credit Union.
185
Exhibit L: Innovation Credit Union Meeting with Chad Gartner
188
Transcript July 7 2020
Exhibit M: Rogue Email Chain from Innovation Credit Union
Breaching NDA with DSR Karis
199
Exhibit N: Innovation Credit Union Closing DSR Karis Account
in Violation of NDA.
206
Exhibit O: Clean Bill of Mental Health for the Applicant from
the Family Doctor After Detention.
207
Exhibit P: Innovation Credit Union Rogue Agents Funding
Transnational Terrorist Activity............................................. . 209
Exhibit Q: Notice of Constitutional Questions in Custody
Appeal for Karis................................................................ .....

216

Exhibit R: Petition to the United States Congress for Rights of
the Metis,
241
Exhibit S: Innovation Credit Union Mortgage Fraud to Transfer
Habitual Residence of the Child,
,245
Exhibit T: Dale Notifies the Land Registry that the Sale of
Fraudulent...... ......................................................................... 247

35

158a

Exhibit U: DSR Karis Consulting Inc. Possesses an Active
Lease at 1292 95th Street........ ,.........

249

Exhibit V: Virgil Representing Innovation Credit Union Forges
251
Dale’s Signature in Court,
Exhibit W: Justice J.D. Kalmakoffs Brief of Law-

253

Exhibit X: Justice J.D. Kalmakoff Participating in the
Unauthorized Practice of Law....................... ............—

263

Exhibit Y: Justice J.D. Kalmakoff Assumes the Role of
Opposing Counsel in Chambers on February 24 of 2021.

318

Exhibit Z: The False Shepherd of the Liberty Coalition in
Canada.............. ............................................ ..................

,344

Exhibit AA: Petition for World Writ of Habeas Corpus in the
International Criminal Court..... ............................................... 346
Exhibit AB: On Petition for Extraordinary Writ and Application
...397
for Writ of Habeas Corpus.
Exhibit AC: March 1 of 2021 Habeas Corpus Hearing in Which
...409
Respondents Confess
Exhibit AD: Recipients of this Application................

420

DATED at Chestermere, Alberta, this 15th day of March of 2021,
ALL OF WHICH is respectfully submitted,

Dale J. Richardson
Father of the Child
1292 95th Street,
North Battleford, SK S9A 0G2
Tel:
1306 441-7010
Email: nnitv@dsrkarisconsulting.com

36

159a

VERIFICATION OF APPLICANT
1, Dale J. Richardson, hereby certify that I am familiar with the case of the named
Child Karis K.N. Richardson specified in paragraphs 1 to 69 and that the facts as
stated above are true and correct to the best of my knowledge and belief.

iale J. Richardson
Affirmed before me at the City of Chestermere, in the Province of Alberta, in the
Country of the Canada, this 15th day of March of 2021.

=

1

Notary Public

;

Sk-

ANDREW 6. KEIRSTEAD
;.«rrister and Solicitor, Notary Public
In and for Alberta

NOTARY
PUBLIC

\-yjl

:03
: I

VERIFICATION OF THE SECOND WITNESS
I, Robert A. Cannon, hereby certify that I am familiar with the case of the named
Child Karis K.N. Richardson specified in paragraphs 9 to 69 and that the facts as
stated above are true and correct to the best of my knowledge and belief.

Robert A. Cannon
Affirmed before me at the City of Chestermere, in the Province of Alberta, in the

Country of the Canada, this 15th day of March of 2021.

ftk...%\

ft NOTARY fB*

Notary Public

| \
ANDREW S. KEIRSTEAD
Barrister and Solicitor, Notary Public
in and for Alberta
37

PUBLIC

/

.••''tS-'J?
Of

1

160a

Exhibit A: The Child
! ltlHUll,,,
G.
.*»
S-

This is Exhibit id....,." referred to in the
Sv^efore me
A«0» 20.... .
r for Oaths in and for
of Alberta

IRSTEAD

otary Public

I

I

I;
s

1

J

i

■■■

■I
m m
m

-> *.
"
‘y\, “5

»

gffig

172a

Exhibit B: God’s Judgment and A Parable

Sat, May 30 2020 7:03 PM
From: "mr. d" <ddreadnaught@yahoo,com>
To: A Hinds <ainzee3@hotmail.com>, Alicia Dawn Hydukewich <a.hydukewich@gmaiLcom>,
Andrew Kelley <andly777@yahod.com>, Arlen Kapiniak <arlenk@xpIomet.ca>, B Gilbert
<bmgilbeit92@gmail.com>, barbcarley@idoud.corn, bcgieason@earthlink.net,
beningerlena@hotmaiI.ca, Boram-Lee Kwon <bkwon3004@gmail.com>, cadubyna@gmail.com,
carleyc@sasktel.net, carolinsask@yahoo.ca, cgosadchuk92@sasktel.net,
chadrick.carley@syngenta.com, dprianbolah@gmail.com, cscarley@sasktel.net, Darlene Kivimaa
<banddkivimaa@sasktel.net>, Dawn Limd <d.lund@Sasktel.net>, dollysel3@gmail.com,
donmvsb@idoud.com, eddieg@sasktel.net, elysyshyn@hotmail.com, Gary Lund
<g.lund@sasktel.net>, guizz4bel@gmail.com, hebertkim@hotmail.com, Helen Becker
<rhbecker@littleloon.ca>, hoImlaw@saskteLnet, J Baron <janoyany@hotmail.com>,
j.wright@sasktel.net, James Kwon <jkwon@mansaskadventist.ca>, Jason Alvarez
<jaysonaivarez017@yahoo.com>, Jen Bakos <jenbakos2013@hotmail.ca>,
jhydukewichi6@gmail.com, Jim Rogers <jimrogersrce@gmaiLcom>, kcarleyl@blackbeny.net, L
Harris <j_harris07@hotmail.com>, Laureen Bounting <laghbo@gmail.com>, laxdal52@hotmail.com,
Lindsay Boscher <mcbean32@rae.com>,Lorraine Geates <wgeates@sasktel.net>,
l.yle_wi31iams@hotmail.com,Maryna Shkarupa <mysha393@gmaiLcom>, mazel@sasktel.net,
mieke_williams@hotrnail.com, huisebearl6@gmail.com, ooical5@gmail.com,
P Geerdts <geerdtsfamily@sasktel.net>,Paulie Louise Rogers <luvme@sasktel.net>,Rhoda Geollegue
<rhoda624@yahoo.com>, Robert.Holm <ve5tnt@yahoo.com>, rondi_a_kapiniak@hotmml.com, Ruby
Gilbert <ruby_ann_22@msn.'com>, s.beninger@hotmail.com, Samuel Baah
<tiibred7@yahoo.com>,Sheila Guttonnson <sheilargut@hotmail.com>,Shirley Baldwin
<sagreenhough@hotmail.com>,Silvie Baah <sboateng20@outlook.com>, tatarynj@hotmail.com,
thegoodlife@littlelOon.ca, txcl64@case.edu,Tyrone Pynn <tie454@hotmail.com>,
ve51od@gmail.com,zwfriend@yahoO.com, Michael Collins <fncollins@mansaskadventistca>
Subject: Now God Speaks.
Clifford Anton Holm, you have been a skillful lawyer in the service of Satan. You have led many souls
to perdition with the doctrines of devils kindled from the hellish torch of Satan. You are weighed irt the
balances and found wanting. Today will be your last God has required your blood this day.
James, God bore long with you and has sent his servantto plead with you, rather than choosing light,
you chose darkness. You used the position given to you by God to fasten people into deception. You
have squandered your life. Today will also be your last You are weighed in the balances and found
wanting.
Gary you have forfeited your life. Ciprian you have failed yourposition, the King of Kings and Lord of
Lor<jyia| r|giji|ijl yog- hfe. Judgement begins in the house of die Lord.

Sworn before me this.....(S...........day
of AWcK
Aq 20^1

/•#

1"7 Rotary Vgl

A Commissioner for Oaths In and for
the Province of AlOorta

U PUI*LIC

ANDREW G. KEIRSTEAD

: j

........•-$/

Barrister and Solicitor, Notary Public
in and for Alberta

50

173a

The Judgment Of God
This messenger of our Lord Jesus Christ instructed by Him through the Holy Spirit presents God’s
testimonies. In all that we do, we are to honour God and present His testimony. How long halt ye
between.two opinions? If the LORD be God, follow him: but if Baal, then follow him. Let the Church
wake out of its slumber to the sound of abundance of rain. Apostasy in the Church with eisegetical
interpretation at its core, will be rooted out by God’s testimonies. Eisegetical interpretation leads man
to do that which is right in his own eyes as he uses his own understanding to interpret God’s
testimonies.
Listen To This Parable
In this parable, no identification with persons and places is intended or should be inferred.
There once was an ordained pastor that, believing the doctrines of man derived by eisegetical
interpretation, began to believe the false doctrine of original sin, that men have no power to resist
temptation and will sin till Jesus comes. This pastor began to struggle with the temptation to molest his
own child. With the belief that he had no power to resist temptation, he began to indulge this sin.
Knowing in his heart that he had committed evil in the sight of God and man, he chose to become a
lawyer in the service of Satan to hide his cherished sin.
As this lawyer continued in his sirt, he began to despise all who were righteous in the sight of God. To
quell his conscience, he sought opportunity to corrupt or cast out these righteous men. Justified by
eisegetical interpretation and united with Satan in the destruction of God’s righteous, he began to
practice spiritualism in the form of contemplative prayer and gained a strong affinity with demons. In
contemplative prayer, this lawyer and those that supported his cause exercised their wills to exert
demonic oppression over anyone that sought after righteousness and many of these that were plagued
by demons corrupted or fled.
God bore long with this apostate lawyer and those that supported his cause. But last of all God sent
unto them one of His elect to prepare the way for His outpouring of the latter rain. These wicked men
sought every opportunity to corrupt the character of this elect and those associated with him and spent
many days and nights in contemplative prayer to plague him with demons. Subject, to Satan, these
wicked men sought to misrepresent God’s character by conspiring to frame His elect for molesting his
own child.
When God therefore cometh, what will he do unto those wicked men? He will miserably destroy those
wicked men, and will give their place unto others that will cry out for His outpouring of the latter rain
and for Him to worketh in them to will and to do of His good pleasure.
The Judgment Starts In The House Of God
What will God do to those who turn a blind eye to eisegetical interpretation, the doctrine of original sin,
or contemplative prayer in His church? God will spew into outer darkness every unrepentant person
that turns a blind eye to such wickedness by staying silent in the midst of it. How long halt ye between
two opinions? If the LORD be God, follow him: but if Baal, then follow him. Let the Church wake out
of its slumber to the sound of abundance of rain. We are to honour God and present His testimony.

51

174a

Exhibit C: Wrongful Removal and Retention of the Child
.ill #StaySafe 3G

B 76% (BD>

6:47 PM

<

Kimberley >
4

r':'

Why;
.j

A

i'll speak to you about it
tomorrow.
Mon, Jun 1,12:22 PM

;
;
;
;

Dale, I've spoken to my lawyer
this morning and have been
advised to let you know that at
this time you will not be given
access to Karis.

’

This is also to advise you that
j you are no longer permitted on !
my parents property and we've
i
i
been advised to contact the
: RCMP if you come on to their
land.
>

This is fliegal based
on Saskatchewan
Law. Also since i
havB two tool boxes
on the property this is
essentially using the
RCMP as a tool to
enforce their Illegal
activity. When this
was mentioned to the
RCMP I was told It
was a dvil matter.
How is this a civil
matter when the
RCMP am used to:
a) Keep me away
from property mat he
has a legal right to.
that I owned before I
was married?
b) To use the RCMP
to prevent me from
seeing our daughter
whidi Saskatchewan
Law states that he
has rights to?

Note the response of
Mr. Richardson

This is Exhibit \CSn
referred to In tha
Sworn before me this.. ^

.da

____N —.... .............. A.D.
**

■

■**’ i......T-^

.........................

Ok Kim, I am sorry that you
made that choice. Have a good
day and God bless you him.

.........................*

A Commissioner for Oaths"in and‘for
the Province of Alberta

ANOREW G. KEIRSTEAD
Barrister and Solicitor, Notary Public
in and for Alberta

I <:
I •

NOTARY
PUBLIC

.
:

=

y...#/
52

V

175a

COURT FILE NUMBER

DIV NO. 70 OF 2020

COURT OF QUEEN'S BENCH FOR SASKATCHEWAN
(FAMILY LAW DIVISION)
JUDICIAL CENTRE

BATTLEFORD

PETITIONER

KIMBERLEY ANNE RICHARDSON

RESPONDENT

DALE JAMES RICHARDSON

INTERIM ORDER

Before the Honourable Mr. Justice R.W. Elson in Chambers the 23,d day of July, 2020.
On the application of Patricia J. Meiklejohn, lawyer on behalf of the Petitioner and on Dale James
Richardson, the Respondent, not being present and on reading the materials all filed:
The Court orders:
1. The Petitioner, Kimberley Anne Richardson, shall have interim sole custody of the child, Karis
Kenna Nicole Richardson, born February 9, 2019.
2. The Primary residence of the child, Karis Kenna Nicole Richardson, born February 9,2019 shall
be with the Petitioner, Kimberley Anne Richardson.
3. The Respondent, Dale James Richardson, shall have supervised specified access to the child,
Karis Kenna Nicole Richardson, born February 9, 2019.
4. The Respondent is prohibited from the use or consumption of alcohol and/or nOnprescription drugs while the child, Karis Kenna Nicole Richardson is in his care or in his
presence.
5. The child, Karis Kenna Nicole Richardson, born February 9, 2019, shall remain resident in the
Province of Saskatchewan.
6. The Respondent shall not leave the Province of Saskatchewan with the child, Karis Kenna
Nicole Richardson, born February 9,2019, for any period of time without the written advance
consent of the Petitioner.

Page 1 of 2

53

176a

•?>

7, The child, Karis Kenna Nicole Richardson, born February 9,2019 shall not be left alone with
or in the care of Kaysha Faith Neasha Richardson born March 16,1997,
8. The issue of parenting is adjourned to August 27, 2020 to be reviewed.
9. The Respondent shall provide financial disclosure pursuant to the requirements of the
Federal Child Support Guidelines.
10. The Petitioner, Kimberley Anne Richardson, shall have exclusive possession of the family
home and household goods. The Respondent shall vacate the home on or before July 30;
2020.
11. The family home located at 1292 95th Street North Battleford, Saskatchewan, Surface Parcel
#153874659 shall be listed for sale With a registered Real Estate Broker forthwith.
12. The Petitioner shall be authorized to solely negotiate and agree to the listing agreement and
sale price and sale terms
13. The Net Sale Proceeds be held in trust by counsel for the Petitioner or alternatively that the
Net Sale Proceeds be paid into Court to the credit of this action.
14. The Respondent shall not molest, annoy, harass, communicate with or otherwise interfere
with the Petitioner, Kimberley Anne Richardson.
15. Costs of this application be paid to the Petitioner, Kimberley Anne Richardson.
ISSUED at Battleford, Saskatchewan this

day of July, 2020.

nEPUTUOMUEfflSffiffl

Seal

Local Registrar

col

INFORMATIQWWD ADDRESS FOR SERVICE
Matrix
[■Patricia I. Melklejohn 1421101" Street, North Battleford SK S9A1A1
Telephone number: (306) 445-7300; Fax number: (306) 445-7302; Email Address: patriclam@matrixlawgf6up.ca;
File Number: 63095-412 PJM

Page 2 of2

54

177a

JUDICIAL CENTRE OF BATTLEFORD
DIV70/20

7764
KIMBERLEY RICHARDSON v. DALE RICHARDSON

Judge

Nature of Order

Date

i
l

July 23/20
I

1

djjJj plrviiTV

.?
______

t~v> c*Aa

r^n'_______

^t iJ>/jiff cL> ^I i h JCm rr\(SiaT} \ |A &fi\, V*A k

:=

fI

Elson, J,
—------— P. Meiklejohn telephone
—
:
no one for
W"U
respondent
KW
.. ..unintelligible...

h ii , HA.

I

i.

i

ff

f' SuiVb/ «?3

-

/* 'p^b^

I
1

^o<r

\
!
PrlSXOO

(

J

.

i

I

-3
3
•?:
!
/

I

/
i
it

.Jfcfe

2
49^1

«a4afea^t.

•I

I
1

j&Am

July 23, 2020
:
Counsel
for
yy»,y^<g^tlie petitioner has
/■ •
jprovided the Court
her dient>s
y jtzp*-'' *=a~=... S*L- informal estimate of
7
y .
' the amount of equity in
■
the family home,
£ 1b'k&s
Roughly between $8,000
^ :«•'
■
andr$12,000. With that
tfAii^awu g^^jg^fetimation, I am
satisfied that the
interim draft order
should issue. The order
includes authorization
“ for the petitioner to list
_ and sell the house,
y^mcssa^U------followed by an
accounting for the
^
proceeds.
i4a^
.
.
(
The only thing that
—lz£.—<a^c*. ,ZJ£ri?t ^^-^ffiould be included in

^£»-..

J^gKjE.

>..^y

<»t,

~~7yig*

^-7,^2.

Gourael Notified copies ftovldedDote:
miL 2 8 2028
rV .

A

AU k .

/

55

*/LS«f

interim order is for

the issue of parenting
to be reviewed in one
month’s time. This
should occur on
Ausgust 27, 2020.
Elson, J.
KW
.. ..unintelligible...

178a

Exhibit D: DSR Karis Consulting Inc. Mission and Initiatives

Hello Friends,
On behalf of DSR Karis Consulting Inc. ("DSR Karis") I am pleased to introduce us and our
services to the Indigenous communities and their agencies.
As we have all seen, the Battlefords have been faced with new challenges arising from the
COVID-19 pandemic and the subsequent global shutdown, You have the opportunity to alleviate
strain by minimizing long-term costs associated with Heating, Ventilation, and Air Conditioning
("HVAC") systems.
As a visible minority with Metis ancestry, I am proud to say that we at DSR Karis believe in
supporting Indigenous owned businesses, We especially support young Indigenous women,
which is why we had a young Indigenous woman contribute to the graphic design of our
company logo. We would like to partner with Indigenous owned businesses as much as possible
in the future.
As people in the field of engineering, we are the builders of the world we live in. We touch the
lives of people who will never know our names and save the lives of people who will never see
our faces. We create the means to give bread to the hungry and to relieve the suffering of the
fatherless, the widow, and the oppressed - This is Engineering Reimagined.
We must be the ones who create the means to effect change. We redesign things that others
think cannot be saved; this kind of mentality must be translated into our ethics and all that we
do. Integrity must be interwoven into all that we design. We must be a voice for the voiceless.
We must champion the oppressed. We must effect real change - This is Engineering Reimagined.
We are a sensible and local engineering firm with a focus on mechanical engineering that desires
to help you by minimizing costs associated with design, drafting, installation, and operational
maintenance. We are proactively working to comply with building standards, recommendations
and fostering environmental sustainability to all communities - This is Engineering Reimagined.
We are participating in initiatives to promote diversity in STEM fields and equity of education as
well as the training of indigenous persons, women, and other underrepresented groups as
engineers and technologists. We are also working with Saskatchewan Polytechnic and Northwest
College to help support indigenous success in engineering technology programs - This is
Engineering Reimagined.
We have a unique vision to create synergy between engineering and trades through its Project
Delivery Team, which is led by an individual with both an engineering and trades background as
a Heavy-Duty Mechanic - This is Engineering Reimagined.
The Project Delivery Team lead has been a member of the American Society of Heating,
Refrigerating and Air-Conditioning Engineers C'ASHRAE’’) for the past four years and has been
closely following the guidance documents related to the COVID-19 engineering support as given
by ASHRAE in addition to federal and provincial guidelines. By monitoring COVID-19 guidance
updates, we will use the current information to assist with your COVID-19 response from an
engineering perspective.
The vision, Engineering Reimagined, makes us at DSR Karis a desirable partner for upcoming
projects and we look forward to partnering with your Indigenous communities and agencies.
Kind regards.
Kaysha Dery
n
Contact Us
chiefrCtslatfcdiJbttttoflilfTi^erred to in tbeeptionist(5>dsrkarisconsuiting,mm. /<&••*.......... *

Sworn before me this
Of

,.,S2

day
A.D. 20lf,

A Commissioner for Oaths In and for
the Province of Alberta

56

ft
I \

NOTARY

v&.

ANDREW G. KEIRSTEAD
Barrister and Solicitor, Notary Public
In and for Alberta

public

:

I

• |

..•&

179a

List of Services
DSR Karis Consulting Inc. provides the following services:

HVAC
•
•
•

Design, layout, building envelope, equipment selection, 3D modelling and 2D drafting
Heating arid cooling load calculations
Modifications of existing systems

Engineering Drafting and Design
•
•
•
•
•
•
•
•
•

Design mechanical components
Testing and analyses of machines
Piping system design
Material and equipment selection
Industrial instrumentation
Inspect mechanical installations and construction
Prepare computer-assisted design (CAD) drawings for mechanical components, power
transmission systems, process piping, HVAC systems
PStlD for piping
AutoCAD, Revit, Plant 3D, Inventor

Maintenance
•
•

Prepare standards and schedules and supervise mechanical maintenance programs or
operations of mechanical plants.
Facility assessment

57

180a

DSR Karis Consulting Inc.
1292 95th Street,
North Battleford, SK S9A 0G2
May 20, 2020
The Battlefords Seventh-Day Adventist Church
1611 93 St,
North Battleford, SK S9A0C5
RE: The Battlefords Seventh-Day Adventist Church Pandemic And Legionellosis Mitigation
The Battlefords Seventh-Day Adventist Church should be champions of health and safety in the
Battlefords community and of the first to respond to recommendations by the government and leading
engineering regulatory bodies for pandemic and legionellosis mitigation. To protect our children, our
elderly, and others with weaker immune systems, die church needs a qualified engineering firm to
assess its compliance with these recommendations.
DSR Karis Consulting Inc, an Seventh-Day Adventist managed engineering firm in the Battlefords,
proposes to conduct a facility assessment of the church building at cost for compliance with (1)
building codes, (2) pandemic mitigation, and (3) legionellosis mitigation, and for ways to minimize
long-term costs.
1. For building codes, the current state of the church’s blueprints and documentation needs to be
fixed and compared against applicable codes and regulations.
2. For pandemic mitigation, the church’s Heating, Ventilating, and Air Conditioning (“HVAC”)
system needs to comply with (i) Canadian and Saskatchewan building codes and regulations
and (ii) the American Society of Heating, Refrigerating and Air-Conditioning Engineers
(“ASHRAE”) standards.
3. For legionellosis mitigation, the church needs to comply with the ASHRAE’s Epidemic Task
Force re-opening recommendations which are “if a building’s HVAC systems have been
operated minimally or shut down, we recommend that the systems go through a startup process
in keeping with how the systems would be inspected, started up, and functionally tested for new
construction” in compliance with “ASHRAE Standard 180-2018”.
4. For minimizing long-term costs, the church needs to (i) be aware of anticipated building codes
and standards and its systems should able to quickly adapt to them, (ii) be aware of its the
HVAC system’s condition and ways to improve the system’s longevity and productivity.
To determine the required tests and procedures for and subsequent cost of the assessment, a preassessment package must first be prepared, which will include (1) prior design and maintenance
information, (2) risk assessment, (3) preliminary cost analysis, and (4) recommendations for the
assessment.
To discuss DSR Karis Consulting Inc conducting a facility assessment at cost to help the church protect
our children, our elderly, and others with weaker immune systems, please contact the Chief Executive
Officer at the phone number or the email address below.

58

181a

Introducing DSR Kan's Consulting Inc.
The world we live in is facing times of great uncertainty, and there are challenges that we are all facing
now as we are emerging from the first wave of the COVID -19 pandemic. DSR Karls Consulting Inc. ("DSR
Karis") is here to help. The Battlefords has had a long and vibrant history, and DSR Karis wants to
continue to ensure that the Battlefords history will be vibrant from the area that it can contribute to mechanical engineering.
And now a little history of the name.
Karis is the name of Dale Richardson's youngest daughter. He and his wife Kim came up with the name
after about a day after she was born eight weeks premature. Kim and Dale experienced a challenging
pregnancy, and there were many times they thought that they, would lose her. By the time Karis came,
Dale was confident that she would make it after all the struggles that she had before coming into the
world. There were many Sleepless nights for Kim while Dale finished school while his family was in the
NICU, and he was only able to visit on the weekend when Karis Got airlifted to Regina. During the time in
the NICU in Saskatoon, Dale understood more fully the meaning of the name Karis. Karis means grace,
divine gift and the divine influence on the heart. As he stood watching her fighting to make her way in
the world, Dale understood what it meant to experience all three. The selection of the name Karis
speaks that the work that DSR Karis provides will demonstrate the gift that Kim and Dale have received.
As the first thing to demonstrate, that gift, all not for profits and houses of worship in the Battlefords
area, will have any COVID-19 related work done at cost. DSR Karis will also announce that it will be the
title sponsor of the Swing Fore Summer Camp golf tournament founded by Dale and Kim and the
Battlefords SDA church. The tournament was created by the Richardson's to send children from the
Battleford's Boys and Girls Club to summer camp. DSR Karis is part of this community and looks to grow
with this community.
DSR Karis looks forward to partnering with local businesses in the Battlefords to enhance and assist the
future of this community. This is Engineering Reimagined.

Chief Communications Officer
KaysHa Dery

59

182a

Good day,
DSR Karis Consulting Inc. (“DSR Karis”) is pleased to introduce itself and
its services.
The Battlefords are faced with new challenges arising from the COVID-19
pandemic and ensuing global shutdown. They have an opportunity to
alleviate some of that strain by minimizing long-term costs associated With
their Heating, Ventilating, and Air Conditioning (“HVAC”) systems.
DSR Karis is a sensible and local engineering firm with a focus on
mechanical engineering that exists to assist the Battlefords by minimizing
costs associated with design, drafting, installation, and operational
maintenance. DSR Karis is proactively working to comply with building
standards, recommendations and fostering environmental sustainability.
DSR Karis is participating in initiatives to promote diversity in STEM fields.
Equity of education and training of indigenous persons, women and other
underrepresented groups as engineers and technologists is a high priority.
DSR Karis has a unique vision to create synergy between engineering and
trades through its Project Delivery Team, which is led by an individual with
both an engineering and trades background as a Heavy-Duty Mechanic - It
is Engineering Reimagined. DSR Karis uses standard engineering
practices, drafting, and cost analysis to determine optimal solutions for
minimizing long-term costs while complying with building standards and
recommendations.
The Project Delivery Team lead has been a member of the American
Society of Heating, Refrigerating and Air-Conditioning Engineers
(“ASHRAE”) for the past four years and has been closely following the
guidance documents related to the COVID-19 engineering support as given
by ASHRAE in addition to federal and provincial guidelines. By monitoring
COVID-19 guidance updates DSR Karis will use the current information to
assist local businesses with their COVID-19 response from an engineering
perspective.
The vision, Engineering Reimagined, makes DSR Karis a desirable partner
for upcoming projects and looks forward to partnering with your
organization.
Kind regards,

\

Dale Richardson, MET, TT (AB)
Chief Executive Officer

60

183a

North West Partnership Outline
The provisions Of the partnership outline between North West College and Dale Richardson
are as follows:
1. Develop professionals among indigenous persons through education at North West
College and support the promising graduates in seeking employment and establishing
business relationships.
1. Reach out to local businesses to find placements where students can gain
practical experience in their field. Companies can receive funding from the
government for indigenous work placements. Anderson pumphouse has already
indicated that they would take a summer student. Also, explore funding options as
well.
2. Deliver a Civil Engineering Technician course to give interested young and adult
indigenous learners prior exposure to essential and challenging design software in
the civil engineering technician field. We are proposing a one year certificate to
get faster entry into the workforce. Would examine course and make modifications
based on local needs.
2. Enhance the local economy by developing relations between local indigenous
communities, businesses, and primarily, secondary, and post-secondary schools.
1. Pursue strategic planning between education and industry by reaching out to
the local businesses in the community. Initiating dialogue with local companies in
the industry will ensure that programs are beneficial to the students’ future
employment and/or business relationships. Will examine methods to gain
information from the industry.
2. intentional engagement to foster indigenous success by initiating dialogue with
indigenous communities to gauge what their needs are to promote success in their
community. Also, to determine what aspects of civil engineering are most indemand in their communities. Target indigenous students to develop talent and
have these students return to work in their community.
3. Propose a CAD class to the BATC This introductory course will equip students to
go through the civil technician program. Desire involvement of the communities
which the BATC presides over. This program is to help build confidence and
increase the reach of the technician program.
Bibliography

[1]

Ashrae.org. 2014. ASHRAE Position Document On Airborne Infectious Disease, [online] Available at:
<https://www.ashrae.org/file%20library/about/position%20documents/airborne-infectiousdiseases.pdf> [Accessed 31 March 2020],

61

184a

Exhibit E: Covid Report by DSR Karis Consulting Inc^Will IWs JE^l People?’^

CU,

/---K
ASHRAE)
\

Swogjtefgre ms this ,,r
day
.A.D. 20?.l...
mi

/

Environmental Health Committee (EHC) Emerging Issue Brief:

A Commissioner for Oaths in and for^
the Province of Alberta
ANDREW <3. KEIRSTEAD
Barrister and Solicitor, Notary Public
in and for Alberta ‘
.

Pandemic COVID-19 and Airborne Transmission
____________

;.<G”KE&X

/#"......... %\

What is the issue?
Late in 2019, China experienced a large outbreak of a novel coronavirus called SARS-CoV-2 that | •'
P\
caused the respiratory disease COVID-19. Initial assumptions by the World Health Organization H<* HO.r :
=
(WHO) and Centers for Disease Control and Prevention (CDC) were that this new virus had
% \ pUB'-'
/
=
transmission characteristics of similar type and magnitude to a virus that caused a global outbreak^
/<£" *
2002-2003 (SARS). That outbreak subsided after 9 months resulting in about 8000 infected cases inv^S..........
26 countries that occurred mostly in healthcare settings.1 In contrast by the end Of January 2020, Riou%^/;VQg qV
and Althaus predicted both human-to-human transmission of COVID-19 and the ensuing pandemic ?
On February 16, WHO declared the COVID-19 outbreak a Public Health Emergency of International
Concern (PHEIC). On March 12,2020, WHO proclaimed COVID-19 a pandemic. At that time there
were more than 118,000 cases in 114 countries and 4291 deaths. By early April 2020, there were
more than 1.5 million COVID-19 cases worldwide and more than 80,000 deaths.
Early hypotheses based on the genetic composition of SARS-CoV-2 were that it originated in bats and
passed to humans through a different animal host in the winter of 2019-2020 at a wet market in
Wuhan, China.3 These hypotheses included an assumption of transmission based on the experience
of SARS-CoV in 2003 and centered on droplet transmission at close range. During the 2002-2003
pandemic, SARS-CoV was shown to have airborne disease transmission potential.4 COVID-19 has
developed into a pandemic more severe than SARS in 2003. Subsequent observational studies and
modeling of OOVID-19 suggest the likelihood of transmission through the air via aerosols.s 6 7 8 9 10
Two important questions that urgently require answers include:
1, What are the engineering interventions that may be applied to minimize the spread of the
disease through the air?
2, How effective are those engineering interventions at minimizing the spread of disease?
Integral to determining rational engineering interventions is having a clear understanding of how
effectively the disease is transmitted through the air by infected people. Also needed is an
understanding of other types of controls, such as administrative or engineering interventions, that may
be applied in hospitals and other high-risk spaces and help reduce exposure.
What does this mean for ASHRAE?
There is great concern about the possibility of transmission through the air of various pathogens,
especially SARS-CoV-2, among staff and administration in healthcare facilities; workers jn office
environments, staff and patrons jn retail settings, workers in manufacturing, residents in private
and public facilities, and the general public in outdoor settings and in public transportation.
ASHRAE is uniquely qualified to provide guidance on the design, operation, and maintenance of
heating, ventilating, and air-conditioning systems to help reduce the dangers of pathogen
transmission through the air in these settings.

Note: Emerging Issue Reports ere developed and approved by the ASHRAE Environments Health Committee (EHC).
Pandemic SARS-CoV-2 and Airborne Transmission Emerging Issun Brief was approved by EHC 04/17/20.

62

185a

What is the role of ASHRAE in this pandemic?

ASHRAE, through its Environmental Health Committee, created the Epidemic Task Force, and has
issued the following statements:
Statement on airborne transmission of SARS-CoV-2
Transmission of SARS-CoV-2 through the air is sufficiently likely that airborne exposure to the
virus should be controlled. Changes to building operations, including the operation of heating,
ventilating, andair-conditioning systems, can reduce airborne exposures.
Statement on operation of heating, ventilating, and air-conditioning systems to reduce SARS-COV-2
transmission
Ventilation and filtration provided by heating, ventilating, and air-conditioning systems can
reduce the airborne concentration of SARS-CoV-2 and thus the risk of transmission through
the air. Unconditioned spaces can cause thermal stress to people that may be directly life
threatening and that may also lower resistance to infection. In general, disabling of heating,
ventilating, and air-conditioning systems is not a recommended measure to reduce the
transmission of the virus.
In this critical time, ASHRAE is actively seeking solutions by using its internal and external resources
to develop guidance that can be used now and by supporting research on building design for future
mitigation of the transmission of pathogens through the air.
To that end, ASHRAE will
•: recognize the devastating consequences of global pandemic viral or bacterial outbreaks and
be proactive in developing engineering guidelines for minimizing the spread of these biological
hazards in building systems;
• provide guidance on the use and operation of interventions that promote healthy air quality in
spaces and facilities for institutional buildings, residences, healthcare facilities, workplaces,
and public transportation;
• conduct training on these interventions that are not always understood in the context of
building design, construction, and operations;
> take full advantage of the knowledge among its members to create evidence-based infection
control practices during this pandemic and prior to future pandemics; and
provide Society membership and the worldwide community a greater appreciation and
Understanding of the role played by heating, ventilating and air-conditioning to minimize the
risk of infection from airborne transmission within the built environment.
Many of these are already underway at ASHRAE through its extensive technical and educational
committee structure.
Further information on the ASHRAE response to the pandemic can be found at:
https://www.ashrae.org/technical-resources/resources
Questions about the pandemic and about HVAC can be addressed to:
COVID-19@ashrae.org

Note: Emerging Issue Reports are developed and approved by the ASHRAE Environmental-Health Committee (EHC).
Pandemic SARS-CoV-2 anid Airborne Transmission Emerging Issue Brief was approved by EHC 04/17/20.

63

186a

REPORT:
QUESTIONS OF GOOD ENGINEERING
PRACTICE
IN THE REPRESENTATION OF “SETTLING TIMES” IN
THE SASKATCHEWAN HEALTH AUTHORITY’S
AEROSOL GENERATING MEDICAL PROCEDURE
GUIDANCE DOCUMENTATION

64

187a

DSR Karis Consulting Inc. (The Corporation) a North Battletbrd Corporation in the
mechanical engineering sector was contacted by two entities in to assess the HVAC system
and recommendations set forth by the College of Dental Surgeons of Saskatchewan
(CDSS) and make recommendations based on its findings. DSR Raris Consulting Inc. sent
agents to one of the entities to perform a site visit and examined the building and attempted
to procure drawings of the mechanical systems. The mechanical drawings were not
present, and the agents Were advised to speak with, owner of the building in which the
entity was located in North Battleford. The Chief Executive Officer of the Corporation Mr.
Richardson inquired about the mechanical drawings of the entity. The CEO was
advised by the person he spoke to that they did not have the mechanical drawings although
the owner had other drawings in his possession. The CEO was directed to speak to Todd
Wynterhalt at River City to inquire about the mechanical drawings. After Speaking with
Mr. Wynterhalt, the Corporation was advised that there were no mechanical drawings and
that drawings would have to be created. The relevant communication between the
Saskatchewan Health Authority (SHA) and lire CDSS are outlined at the end of the
document.

The issue at hand is the refusal of the Saskatchewan Health Authority to provide
justifications for the document shown below in figure 1. The complete table is shown in
figure two and this was taken from the original document released in 1994 by the Center
for Disease Control (CDC). Fig 4

Based on this information one must question why this information has been omitted.
Determining what the mixing factor is, is critical in determining what measures need to be
taken to achieve the desired results. The mixing factor needs to be determined in order to
correctly apply the table. If the mixing factor is unknown, it could pose considerable risk
because the mixing factor is a multiplier.

Here is an example. If the unknown mixing factor is 5, but one assumes that the mixing
factor is 1 based on the incomplete information, and the system had 12 air exchanges
per hour. The desired reduction of contaminants based on diat table is 99% and the time
to “clear” the room is 23 minutes based on a mixing factor of 1. However the unknown
mixing factor is actually 5, therefore, the 23 minutes found on the chart must be
multiplied by 5.
Mixing factor = 5
Time = 23 mins
total time to reduce contaminants = Time x Mixing factor
Report by Dale Richardson, MET

Updated Oct 27,2020
1 of 79

65

188a

= 23 mins x S
= 115 mins

Based on this calculation, it is evident that if mixing factor is unknown and a person is
placed into a room for a procedure this could potentially create a build up of pathogens
into the air and. create a health hazard to both the patients and the employees. Since it.is
clear that based on not defining the mixing factor creates an unknown that poses a
significant risk to health and life based on the possibility of not meeting the
requirements based on incomplete information. Information does not follow good
engineering practices and does not follow the Code of Ethics as laid out by Technology
Professionals Saskatchewan. When the information regarding the mixing factor has
been given, it’s importance becomes evident. Information about determining mixing
factor has been attached at the end of this document as an appendix. This information
regarding determining the mixing factor has been produced by a professional engineer
that is licensed to practice in multiple jurisdictions and has extensive experience on the
subject.

The laws that govern the Association of Professional Engineers and Geoscientists of
Saskatchewan (APEGS) does not support the Way that the information has been
presented by the SHA document. Section 5 of the The Engineering and Geoscience
Professions Act of Saskatchewan has been linked.

Objects 5

The objects of the association are the following:
(a)! to ensure the proficiency and competency of members in the practice of
engineering or the practice of professional geoscience in order to safeguard the public;!
(b) to regulate the practice of professional engineering and the practice of
j
geoscience by members in accordance with this Act and the bylaws;
(c) to promote and improve the proficiency and competency of members;
(d) to foster the practice of professional engineering and the practice of professional geoscience
by members in a manner that is in the public interest.'
It is evident that section 5 of the aforementioned act does not support incomplete
information as supplied by the SHA. APEGS has not responded to any inquiry as of the
Date of this writing Oct 10», 2020.

Report by Dale Richardson, MET

Updated Oct 27,2020
2 of 79

66

189a

COVID-19

m

NOVEL CORONOVIRUS (COVID-19): Infection Prevention and Control
Guidance for Acute Health Care Settings

PROCEDURES{AGMPs}

The number of HCWs in the room should be limited to those necessary to
perform the AGMP
•

Place patient in a private room with hard walls and a door. Ensure the door is
dosed

•

If available, place patient fn an Airborne infection Isolation Room {AilR)

•

If AllRs are limited, consider prioritizing patients Into these rooms {e:g.,
critically ill patients with confirmed COVID -19 due to the likelihood of
requiring AGMPs on a regular basis)

•

Droptet/Contact Plus^precautlons and Airborne precautions/aerosoiize
settle time signage should be placed at the entrance to the room

•

Airborne orecautions/aerosolize settle time signage should remain in
place until after AGMP has been performed and air settle tirfte has been
achieved. The settle time should never impact, patient, care needs and should
not delay essential patient or staff movement in and put of the room,

•

If the number of air changes per hour Is unknown, then air settle time for a
patient room is 21fours or 120 minutes

•

It the number of air changes per hour is known, refer to Table .1

Table 1- Time in Minutes Needed {by number of air exchanges per hour) to Reduce
Airborne Contaminants fcy999&.Adapted from Airborne Contaminant Removal -Centers of:
sC&ease Control, USA
Air exchanges per
hour

99%

/

138
69

<1

.

b

12
15
70

'

HH

23
38_,

14

•

Before air settle, time has been achieved: Do NOT admit a new patient. If
entering room, wear.an N9S respirator

•

-After air settletime has been achieved: Airborne Precautions/aerosolize
settle time signage can be removed. N95 respirators are no longer required

Note: Some patients may require ongoing or continuous aerosol generating
treatments (e.g., CPAP. BiPap,Optif!owJ. Under these circumstances airborne
precautions sien/aerosoli2e settle time signage must remain posted for the
duration of the therapy and up until therapy has been discontinued and air settle
time has been achieved
CONTINUOUS MASK USE

*

Follow Continuous Mask Use for use of masks by all health care providers
who work in a clinical area/facility where there will be direct or indirect
contact with patients

Saskatchewan
Tig. l

Health Authority

developed by SHA Infection Prevention and Control

saskatchwan.ca/CO1/7019
CV-.19 G0Q41 June 2,2020
Page 2 of 6

Courtesy ofSaskatchewan Health Authority

Report by Dale Richardson, MET

Updated Oct 27, 2020
3 of 79

67

190a

emerging viral pathogen claim, use products with label claims against human coronaviruses,
or enveloped or non-enveloped viruses, according to label instructions*
3. Once the patient leaves, follow CDC recommendations for time the exam room should
remain vacant:
• Interim Infection Prevention and Control Recommendations for Patients with
Suspected or Confirmed Coronavirus Disease 2019 (COViD-191 in Healthcare Settings
• Healthcare Infection Prevention arid Control FAQs for COViD-19
• Table B1 "'Air changes/hour (ACH) and time required for airborne contaminant
removal bv efficiency” from the 2003 Guidelines for Environmental Infection Control
in Healthcare Facilities.
Table B.l. Air changes/hour (ACH) and time required for airborne-contaminant removal by efficiency *

I,

4
6*
8
10*
12*
15*
20
50

69
46
35
28
23
18
14
6

104
69
52
41
35
28
21
8

• this table is revised from table S3-1 in reference 4 and has been adapted from the formufa for.the rate of purging
airborne contaminants presented in reference 143S.
♦ Denotes frequently cited ACH for patient-care areas.
§Values were derived from the formula: t2-tl = - [in (C2/Cl}/(Q / V)] X60, with tl=0

Patient Disposition
1. Home care: If a patient is suspected or confirmed to have COVID-19, they should remain
under home isolation until
a. At least 3 days (72 hours) have passed since recovery defined as resolution of
fever without the use of fever-reducing medications and improvement in
respiratory symptoms (e,g., cough, shortness of breath); and,
b. At least 10 days have passed since symptoms first appeared, or since the first
COVID-19 diagnostic test if asymptomatic and has remained asymptomatic*
2. Patients with fever with cough or shortness of breath but in whom COVID-19 is not
suspected should stay home away from others until 72 hours after the fever is gone and
symptoms get better. See
https://www.doh.wa.gov/Portais/l/Documents/16(K)/coronavirus/COVIDcasepositive.p
df
To request this document In another format call 1-800-525-0127. Deaf or hard of hearing
customers, please call 711 (Washington Relay) or email civil.rights@dofhwa.gov.

Fig. 2
Court«yof Hfash/mjron Sfom
'Departmental Health

Report by Dale Richardson, MET

Updated Oct 27,2020
4 of 79

68

I

191a

1. Airborne Contaminant Removal
Table B.i. Air changes/hour (ACH) and time required for airbornecontaminant removal by efficiency *
ACHM

Time (tt'irts.j required for removal
9994 efficiency

2

13S

207

4

69

104

6*

46

69

35

52

10*

23

4!

12*

23

•35

15*

18

28

2G

14

21

6

8

50

1.

Time

required for removal
99 9H efficiency

* This table is revised fresh Table S3-! m reference 4 and has been adapted from the formula for the rate of purging
airborne contaminants presented In reference 1435.
* Denotes frequently cited ACH for patient-care areas.
§ Values were derived from the formula:

a-d«-{fnCa/C1)/(Q/V)JX60,vtftht1«O
where
rl -'initial timeposnt in minutes
T2 B final timepoint In minutes
C1® initial concentration of contaminant
C2 » final concentration of contaminant
C2/C? - 1 -(removalefficiencynQQ)
Q = air How rate fn cubic feei/ho-ur
V * room volume in cubic feet
Q/V-ACB

1! Values apply to an empty room with no aerosol-generating source. With a person present and generating aerosol, this
table would norapply, Other equations are available that include a constant generating source. However, certain diseases
(e.g.{ Infectious tuberculosis) are not likely to be aerosolized at a constant rate. The times given assume perfect mixing of the
air within the space (i.e., mixing factor * t).. However, perfect m ivlng usually does not occur. Removal times will be longer in
rooms or areas with imperfearmxing or air stagnation.-8 Caution shouid be exercised in using bistable in such situations.
For boodns or other local ventilation enclosures, manufacturers' instructions should be consulted.

Fig. 3
Cou/tesy of Center for Disease
Control

Report by Dale Richardson, MET

Updated Oct 27,2020
5 df 79

69

192a

TableJS31
Note; To print latge tables and graphs users may have to change their printer settings to landscape and use a small font size.
TABLE S3-1. Air changes per hour (ACM) and time ir. asidutes required
efficiencies of 80S, $9%, end .99.9S: -of airborne corttetsinants *
Minutes

required for *• resoval efficiency of;

Ath

93*

<39%

95.9%

1-

138

276
136

414

.52

136

€3
4$

3
4

207

s

69

2B

ss

104
83

.6
7
S

23
•20

46
39
25
31

69
59
52
•<6
41

35'

17
is

9
18

14

XI
13.

S11

14

IS

12

is

28

»

23
21
20
18

9

IS'

17
16
is
15
14

6
8
S

17
18
19

7

28

25

6
5

33

35

12
6

$

4
3
3
3

48

45
S8

far reasoval

7

6
6

32
30
28

The Mixing factor defined in the red
box below plays a significant part in
the outcomes of the times on this
chart, it is a multiplier for the re­
quired time. This information is im­
perative to intelligently make a de­
cision with respect to this table.

26
.24
23
22

21
17

14
12
16
9

* This table has been adapted frost the fcrnule for the fete of purging airborne centensinants
(99). Values have been derived fnw the formula t(l) * {In (C(2) t C (1)) /
/ V)S.X 60/
with T{1) « 8 and c(2) i <(iy * (reeavel efficiency / ISC), end afeere;
t{l)
C(l)
C{2)
$
V
Q / V

»
*
*
*
*

initial tieejjsint
initial concentration of contaainant
final concentration of contaminants
air flow rate (cubic feet per hour)
room volume (cubic -feet';
«£H

•The times giv so assume perfect mining of the. Air within the space (ire,., fixing factor * 1).
»r?
•However, perfect
mixing usually docs .not occur* and'the nixing factor could be as high as 18'
•if air distribution is vary poor (S3). The required time is derived hy roltislying the epprop niecetime fro* the table by the mixing factor that has been determined for the booth or room. The
factor and required time should fee included in the operating instructions provided fey the
.■manufacturer .©f the booth or enclosure, and these instructions should be fallowed.

Fig. 4
Courtesy of Center for Disease
Control (Table S31) Markups DSR
-Karis Consulting Inc.

Report by Dale Richardson, MET

Updated Oct 27, 2020
6 of 79

70

193a

10/11/2020

Routine Practices akJ Additional Precautions for Preventing tt>e Transmission of infection in Hea&hcate Settings - Canada .ca

Appendix VIII: Air changes per hour and time in minutes required for removal
efficiencies of 90%, 99% and 99.9% of airborne contaminants^

Air changes per hour and time in minutes required for removal
efficiencies of 90%, 99% and 99.9% of airborne contaminants1
Minutes required for each removal efficiency

Air changes per hour

90%

99%

99.9%

1

138

276

414

2

69

138

207

3

46

92

L

t

I

138

4

35

69

5

28

55

83

6

23

46

69

7

20

39

59

8

17

35

104

1

52
i

9

15

31

10

14

28

41

11

13

25

38

12

12

23

35

13

11

21

32

14

10

20

30

15

9

18

28

16

9

17

26

17

8

16

24

18

8

15

23

19

7

15

22

14

21

I

46

]

20

!

7

wrpsYAww.canaaaca/Gh/pubik^hoaJth/servfees/pubBcatiQfis/diseases-c^

1/2

Fig. 5

(ZHirtesy of Public Health Agency Canada

Report by Dale Richardson, MET

Updated Oct 27,2020
7 of 79

71

194a

iom/2020

Routine Practices end Additional Precautions for Preventing the Transmission of Infection m Reatthcwe Settings - Canada.ca

This table is prepared according to the formula t - (in C2/C1)/(Q/V) = 60,
which is an adaptation of the formula for the rate of purging airborne
contaminants (100-Mutchler 1973) with t1 = 0 and C2/C1 = 1 - (removal
efficiency/100). Adapted from CDC Guidelines for preventing the
transmission of Mycobacterium tuberculosis in health-care
facilities, 1994s25.

The Public Health Agency of Canada (PHAC) has produced a similar able (Fig. 5) to the one produced
by the SHA (Fig. I). The Washington State Department of Health has also same table represented in the
same fashion as the SHA. The 2003 table (Fig. 3) from the Center for Disease Control (CDC) has the
same lack of definition of the mixing factor. The missing information that defines the mixing factor is a
misrepresentation of the information, and without having the understanding to search for the proper
information, it has significant potential to be applied incorrectly. With the mixing factor acting as a
multiplier for the settling times it is a critical piece of information that needs to be represented with the
table for it to be properly understood. Only table S3-.1 (Fig. 4) demonstrates clear representation Of the
mixing factor and how it applies to the data contained in the table.
The assumption of 120 minutes if the air changes are unknown is unreasonable. An assumption must be
made for a worst case scenario if the air exchanges are unknown which means that according to the
chart it would be 138 minutes with 2 air exchanges per hour and assuming a mixing factor of 1.
However on table S-31 the air exchanges goes down to 1 and that settling time is 276 minutes. S-31
also states that the mixing factor can go as high as 10 which means that the 276 minutes must be
multiplied by 10 for a worst case scenario to ensure that the target is reached, giving a settling time of
2760 minutes. It is unreasonable to use an arbitrary settling time, because the mixing factor acts as a
multiplier to the settling times. There is a vast difference between 120 minutes and 2760 minutes. It
would be advisable for the document to recommend that a qualified engineer or technologist determine
the mixing factor to properly assess the appropriate time to remove the required 99% of airborne
contaminants specified on the table. The missing information on this table is a deficiency that does not
follow good engineering practice. When placing a guidance document that requires engineering
controls, best engineering practice should always be followed during a pandemic when attempting to
reduce airborne contagions generated from procedures that increase the risk of airborne transmission.
When the safety of human beings are at risk, their best interests should be the prime focus, and it serves
the public interest to ensure that proper practices are promoted to keep the .risk to the public at a
minimum.

Inadequate ventilation / air handling was identified by the CDC as a special case in which SARSCO V2 can be transmitted. They go on to state that engineering controls that reduce the release of

Report by Dale Richardson, MET

Updated Oct 27,2020
8 of 79

72

195a

infectious material should be routine practice as a part of safe work practices as this will assist in
reducing the spread of contagions in Health Care Personnel (HCP) and patients.

The American Society of Heating Refrigeration and Air conditioning Engineers (ASHRAE) has placed
this information regarding the spread of SARS-Cov-2 and the operation of Heating Venti lation and Air
Conditioning systems during the pandemic:
Transmission of SARS-CoV-2 through the air is sufficiently likely that airborne exposure to the
virus should be controlled. Changes to building operations, including the operation of heating,
ventilating, and air-conditioning systems, can reduce airborne exposures.
Ventilation and filtration provided by heating, ventilating, and air-conditioning systems can
reduce the airborne concentration of SARS-CoV-2 and thus the risk of transmission through
the air. Unconditioned spaces can cause thermal stress to people that may be directly life
threatening and that may also lower resistance to infection. In general, disabling of heating,
ventilating, and air-conditioning systems is not a recommended measure to reduce the
transmission Of the virus, (2019Novel Comnavirus (COVID-1S) Response: Infection Prevention for Outpatient
Settings, 2020, ASHRAE)

The engineering controls are best understood by those in the field of engineering, and as ASHRAE is a
major contributor in HVAC engineering, and their recommendations come with substantial professional
expertise. Using engineering controls should be standard practice in infection prevention and control
for airborne pathogens and since there is evidence to suggest that there is transmission of SARS-Cov-2
through aerosols, it is advisable to follow recommendations to use engineering controls during this
pandemic for contagion mitigation and prevention. The engineering controls will reduce the
transmission of some other contagions that are spread through AGMP’s. Tremendous care should be
taken when making any determination of engineering controls for contagion removal. Improper
procedures could result in increasing the spread of SARS-Cov-2 or other deadly pathogens. The safety
of the public must be made paramount in any decision-making process, as negligence could result in
unnecessary exposure to contagions that could resul t in sickness or death.

Dale Richardson, TT (AB), Associate
member TPS (SK) CEO,
DSR Karis Consulting Inc.

Report by Dale Richardson, MET

Updated Oct 27, 2020
9 of 79

73

197a

June I-, 2020 10:21 AM
On behalf of the Corporation, Mr. Richardson contacted the CDSS inquiring as to the
basis of the CDSS recommendations for HVAC systems. The woman representing CDSS
responded stating that there was another engineering firm working on the technical report
[for the already published recommendations] which would be done within a week. The
CDSS representative refused to name such engineering firm and recommended to call back
in a week for the report.

June 8*. 2020 4:22 PM.
On behalf of the Corporation, Mr. Richardson contacted the SHA inquiring about the
alleged technical report that supported the SHA recommendations.
In this communication. Dale Richardson mentioned medical professionals are not
qualified to make technical judgements to implement engineering related pandemic
protocols, A qualified mechanical engineer or technologist must determine a mixing factor
for each room and then use it with the table provided by the SHA, however the term
HVAC Consultant is too vague and does not specify whether any qualifications are
required nor is the mixing factor defined or how to use it or how it applies to the table.

June 10*. 2020 9:27 AM
The representati ve of the SHA responded to Mr. Richardson, the representative of the
Corporation, saying that the Director had said he did not know where the clinics [that the
SHA was responsible for advising] should acquire their air exchange rates, effectively
ignoring the other concerns presented by the Corporation including the technical report
and clarification on the HVAC Consultant recommendation and how to acquire and use
the mixing factor with the table.

June 25-. 2020
On behalf of the Corporation, Dale Richardson informed the federal government that the
SHA was not reciprocating the Corporation’s demands for information and justification as

Report by Dale Richardson, MET

Updated Oct 27, 2020
11 of 79

75

198a

to why the SHA would put out a guidance document without providing a technical report,
specifying the required qualifications of the recommended HVAC Consultant, and how to
acquire and use the mixing factor with the table in the document. The Association of
Professional Engineers and Geoscientists of Saskatchewan (APEGS) was also informed of
the SHA inquiry into the table pertaining to the Aerosol Generation Procedure guidelines.
APEGS has yet to respond to the issue of professional misconduct relating to the issue.

The following is an excerpt from a communication Dated June 25 2020.
The CEO contacted the SHA and was referred to the BRT. The email communications are
attached to this transmittal. The CEO submitted the document to the BRT on June 9th
2020, at the time of this writing it is June 25th 2020. Sixteen days has passed with no reply
from the BRT or the SHA regarding the technical document oil which these guidelines
were based on. They have provided no justification from an engineering perspective as to
why the information was presented in the manner in which it has been. The material
contained in the appendix has been thoroughly investigated and some troubling
concerns have been noted. The mixing factor from Table S31 (Highlighted in the document
named Table S31 with comments) on the 1994 document which states that the times on the
table ate to be multiplied by whatever the mixing factor is. Therefore, if there is a
clearance time of 100 minutes and there is a mixing factor of 5 that would bring the
clearance time to 500 minutes. This is extremely important information to know in order to
properly select a correct system. Not supplying this critical piece of information is poor
engineering practice and whomever put this document together should be disciplined. This
type of report is misleading and could potentially cost people their businesses if there is an
outbreak and they find that their system is not adequate. It could cost people their lives.

On June 29th, 2020
DSR Karis Consulting Inc. was issued an unlawful Order to release confidential
information by letter from Association of Professional Engineers and Geoscientists of
Saskatchewan, represented by Robert H. McDonald, through misapplication of The
Engineering and Geoscience Professions Act, 1997. To the date of this report APEGS has
not responded to the question of the mixing factor non-representation, nor the poor
engineering practice demonstrated in the SHA document.

Report by Dale Richardson, MET

Updated Oct 27, 2020
12 of 79

76

199a

10/11/2020

Reducing COVID-19 Exposure Risk from aerosol generating patient medical procedures - JLEngineering Calculations

JLEngineering Calculations {https://jlengincering.net/blog/)
Formula Solutlonsfor Mechanical Engineers
• B#nfo@jlengineeringjhet (mailto:info@jiengineering.net)

Reducing COVID-19 Exposure Risk from aerosol generating
patient medical procedures
Home (httpsV/jlengineering.net/blog) / Reducing COVID-19 Exposure Risk from aerosol generating patient medical procedures

• 29
May 20

0(https7/jlengincerir\g.nct/btog/2020/05/29/rcducing-covid-19«posurc-risk-from-aerosoi-gcneratfng^pat)enC'mcdica|-procedurcs/#respond)

Reducing COVID-19 Exposure Risk from aerosol generating patient medical
procedures (https://jiengineering.net/blog/202Q/05/29/reducing-covid-19exposure-risk-from-aerosol-generating-patient-medical-procedures/)
Tags: ACt (hnpsV/jlengineering.net/blog/tag/ace/) ACH (https://jlengineering.net/blog/tag/ach/) AGP (https://jiengineering.net/blog/tag/agp/) Air Change Effectiveness
(httpsV/jiehgineering.net/blog/tag/aif<hange-effectiveness/) Air Changes (https://jlengineering.net/blog/tag/air-changes/) COViD-1 9
(https://jlengiheering.net/blog/tag/covfd-19/) Dentistry (https://jlengineering.net/blog/tag/dentistry/) HEPA (https://jlengineering.net/blog/tag/hepa/) In-Room Air
Cleaners (httpsV/jlengineerlng.net/blog/tag/in-room-air-cleaners/)
The generation of aerosol particles from patient procedures posses great risk for exposure to COVID-19 to dentistry workers and employers (1). Other commonly
performed medical procedures that generate aerosols or that create uncontrolled respiratory secretions, include.{4):
•
•
•
•
•
•
•
•
•

open suctioning of airways
sputum induction
cardiopulmonary resuscitation
endotracheal intubation and extubation
non-irivastve ventilation (e.g., BiPAP. CPAP)
bronchoscopy
manual ventilation
nebulizer administration (uncertain)
high flow 02 delivery (uncertain)

Aerosol particles in a treatment room may remain in suspension for up to 13 to 20 hours (99% to 99.9% deposition) after the procedure for particles between 0.3 to
10 microns (2). This posses a risk of exposure for any patient or personnel that enters the room where the procedure was previously performed if proper
Environmental Infection Control measures are not put into place.
CDC Interim Infection Prevention and Control Recommendations for Patients with Suspected cr Confirmed Coronavirus Disease 2019 (COViD-19) in Healthcare
Settings (4) recommends the following:

14 of 79
https://jlengineering.net/blog/2020/05/29/redudng-covid-19-exposure-risk-from-aerosol-genefating-patient-rnedicai-procedures/

77

1/3

200a

Reducing COVID-19 Exposure Risk from aerosol generating patient medical procedures - JLEngineering Calculations

10/11/2020

"Once the patient has been discharged or transferred, HCP, including environmental services personnel should refrain from
entering the vacated room until sufficient time has elapsed for enough air changes to remove potentially infectious particles.
After this time has elapsed, the room should undergo appropriate cleaning and surface disinfection before it is returned to
routine use.”
The only way to minimize the risk of exposure from aerosol particles is to maintain the room negative pressure at all times, close the treatment room after the
procedure is finished and the patient and personnel Is no longer in the room and provide proper filtration for a prescribed duration,
Calculation of the Room Air Changes (ACH) and the elapsed time for aerosol partides count to be reduced to less than one percent of the Initial concentration is
necessary to properly size and select in-rpom air cleaners.
Current CDCguidelines (5) provides in Table B.1 the elapse time for removal of aerosoi partides as follows:
Room Air Changes
99% Removal
99.9% Removal
Rate per Hour
Elapse Time (mins)
Elapse Time (mins)
2
138
207
4
69
lti4
6
46
69
8
35
52
10*
28
41
23
35
12*
15*
18
28
20
14
21
50
6
8
* Most commonly .design guidelines and codes prescribe rates for patient-care areas.
Notes to this table emphasize that these values apply for perfect mixing conditions of the air within the Space, it also warns thatperfeet mixing does not usually
occurs and that removal tlmes will be longer in rooms or areas with imperfect mixing or air stagnation:
A study done by the US Environmental Protection Agency on In-Room AirCleaners (2) shows that fora room witha 2:1:1 (L;W:H) aspect ratio with central furniture
and an air cleaner in a corner at an angle, the mixing efficiency or air change effectiveness (ACE) can be as low as'44%. This means that the amount of air obtained
from the above table Room Air Changes Rate would have to be multiplied by a factor greater than .2.25.
As we can see great care must be taken when using In-Room Air Cleaners to reduce the risk of exposure to COVID-19 from aerosol partides. Air distribution factors
are important and can only be assessed by.a competent professional engineer.
References
1. COVID‘10-1 Control and Prevention; Dentistry Workers and Employers (https://www.oshagov/SLTC/covid*T9/dehtistry.himl). US Department of Labor,
Occupational Health and Safety Administration Website. Obtained May 29,2020.
Z Evaluation of In-Room Air Cleaners for Building Protection - Hnal Report (https://nepis.epa.gOv/Exe/ZyNET:exe/Pl 005VBQ.TXT?
ZyActlonD=ZyDocument&Client=EPA&lndcx=2006+Thru+2010&Docs=&0uery=&Ttme=&End'nmc=&SearchMethod=1&TocRestrict=n&Toc=&TocEntfy=&oneld=fieQ
&MaximumDocUments=1&FuzzyDegree=0&lmageQuality=r75g8/f.75g8/x150y150g16/i425&Display=hpfr&Def5eekPage=x8iSearchBatk=ZyActionL&BaGk=ZyAction$
US Environmental Protection Agency, EPA/600/R-08/012, January 2008.
3. Guidelines for Environmental Infection Control in Health-Care Fadlities (https://vvww.cdc.gov/infeaiQncontrQl/pdf/guidelines/environrnental-gutdelines-P.pdf).
US Center for Disease Control and Prevention, July 2019.
4. Healthcare Infection Prevention and Control FAQs for COVID-19 (https://www.cdc.gov/coronavirus/2019-ncov/hcp/infection-control-faq.htrril). US Center for
Disease Control and Prevention, May 29,2020.
5. Interim Infection Prevention and Control Recommendations for Patients with Suspected or Confirmed Coronavirus Disease 2019 (COVID-T9) In Healthcare
Settings (https://www.cdc.gov/coronayirus/2bl 9-ncoy/hcp/infection-control-recdmmendatlons.html#take_precautions), Appendix 6, Table B.1. US Center for
Disease Control and Prevention, May 18,2020..
Ackn owl edgement
Aerosol Generation during Dental Procedure Photo from ADS Dental System. The Author declares that there is no conflict of fnterest.

Leave a Reply

Message * I__________________
Name*j

'' ........ "|

Email*]

1

O Save my name, email, and website In this browserior the next time i comment.
| Post Comment j

Cart
Copyright 2016 Jorge R. Lopez ()

• f

15 of 79

tittps://jiengineering.net/bl(^/2d20/05/29/re<judng-coVTdTl9-€xposure-risk-from-aerosol-generating-patient^nedical-proCedureS/

78

2/3

201a

L Saskatchewan
HEALTHCARE
ri/pc WORKERS
LOCAL 5430

a

Health Sciences
Association of
Saskatchewan

Saskatchewan
Health Authority

SEHJ
ppg™
WEST

Joint Statement on Principles for Protecting the Health and Safety
of Healthcare Workers, Patients, Clients, and Residents
DATE: May 20,2020
Each of thesignatory health care unions and associations, in partnership with the Ministry of Health and the
Saskatchewan Health Authority, is committed to a set of shared health and safety principles when dealing with
suspected, presumed, or confirmed COVID-19 patients, clients or residents.
In addition to these principles, the parties have committed to ensuring union/association representation on
behalf of front-line health care workers in discussions and planning related to personal protective equipment
(PPE), and to working together to share information, address challenges, and work collaboratively towards
solutions.
Protecting the health and safety of healthcare workers, patients, clients, and residents is an imperative for all of
us involved in the Saskatchewan health care system.
1. A point-of-care risk assessment (PCRA) must be performed before every patient, client or resident
interaction, using current knowledge and best-available evidence. If a health care worker
determines, based on reasonable grounds (including but hot limited to professional and clinical
judgement) that health and safety measures may be required in the delivery of care to the patient,
client or resident, then the worker shall have access to the appropriate health and safety control
measures based on the PCRA, including an N95 respirator. Employers will not unreasonably deny
access to the appropriate PPE.
2, At a minimum, droplet/contact plus precautions must be used by health care workers for all
interactions with suspected, presumed, dr Confirmed COVID-19 individuals. Droplet/contact plus
precautions includes gloves, face shields or goggles, gowns, and surgical/procedure masks.
3. All health care workers whose job duties require them to be within two metres of suspected,
presumed, or confirmed COVID-19 patients, clients, or residents shall have access to appropriate
PPE ("appropriate" means level of PPE may vary by situation). This will include access to:
surgical/procedure masks; fit-tested NIOSH-approved N95 respirators or approved equivalent or
better protection; gloves; face shields with side protection (or goggles); and impermeable or,
minimally, fluid-resistant gowns.
In addition, health care workers required to go into a room that housed a presumed or confirmed
COVID-19 patient, client or resident, whether the patient, client or resident is present or not, to
provide cleaning or disinfection services will also be provided PPE that is appropriate to the
situation.

www.saskatehewan.ca/COVID19

Joint Statement j 1

79

18 of 79

202a

All health care workers will have access to appropriate PPE (as described above) at all times in all
ground and air ambulances.
The employers commit to provide all health care workers with information on safe utilization of all
PPE and employees shall be appropriately trained to safely don and doff all of these supplies.
Where there is extensive contact, there will be drilling (mentored practice) in addition to training.
4. The PCRA should include the frequency and probability of routine or emergent aerosol generating
medical procedures (AGMPs) being required. Fit-tested NIOSH-approved N95 respirators, or
approved equivalent or better protection, must be used by all health care workers who are in a
room where AGMPs are being performed, are frequent or probable, or with any intubated patients,
or who enter a room before the prescribed settle time has elapsed.
Based on the current evidence, AGMPs include but are not limited to: intubation and related
procedures (e.g. manual ventilation, open endotracheal Suctioning), cardio pulmonary
resuscitation, bronchoscopy, sputum induction, non-invasive ventilation (i.e, BiPAP), open
respiratory/airway suctioning, high frequency oscillatory ventilation, tracheostomy care, nebulized
therapy/aerosolized medication administration, high-flow heated oxygen therapy devices (e.g.
AIRVO, optiflow) and autopsy.
5, Organizational hazard assessments must be continuously refreshed ensuring that those identified
are removed, or otherwise adequately controlled to protect the health and safety of workers, and
reflect the appropriate health and safety control measures to mitigate the transmission of
infections, including engineering, administrative and PPE measures.
This will be performed with consultation and participation of workers representatives. This will be
communicated to union partners and Joint Occupational Health and Safety Committees including
the review of the environment when a material change occurs.
6. Conservation and stewardship of PPE is an important principle for everyone working in the health
care system and continual assessment of the available supply of PPE should be undertaken on an
ongoing basis. All available avenues to obtain and maintain a sufficient supply shall be pursued.
In the event that the supply of PPE reaches a point where Current supplies are anticipated to last
for only 30 days (i.e. a shortage), or where utilization rates indicate that a shortage will occur, the
government and employers, as appropriate will be responsible for developing contingency plans, in
consultation with union partners, to ensure the safety of health care workers.

www.saskatchewan.ca/COViD19

Joint Statement I 2

80

19 of 79

203a

SIGNED in the Province of Saskatchewan, this ^0 day of May, 2020.

Max Hendricks, Deputy Minister, Saskatchewan Ministry of Health

(x X
ry
Scott Livingstone, Chief Executive Officer, Saskatchewan Health Authority

Sandra Seitz, President, Canadian Union of Public Employees Local 5430

Karen Wasylenko, President, Health Sciences Association of Saskatchewan

Tracey Sauer, Health Providers Bargaining Chair, Saskatchewan Government and General Employees' Union

Barbara Cape, President, Service Employees International Union - West

Xjhauj
Tracy Zambory, President, Saskatchewan Union of Nurses

www.saskatck6wan.c3/COViD19:

Joint Statement) 3

81

20 of 79

204a

COVID-19 PPE Rapid Update

"Settle Time" after an Aerosol Generating Medical Procedure (AGMP)
What is "Settle Time"?
The "settle time" is the amount of time needed to remove infectious airborne
organisms from room air (e.g., TB, chicken pox) or infectious aerosols that may be
created during an AGMP. This begins when the source of infectious aerosols ends.
Examples of when the "settle time" starts include:

[
COVID-19

m '

AEROSOL GENERATING
MEDICAL PROCEDURES
IN PROGRESS!

• When a patient on continuous Airborne Precautions is moved out of the
room.
• Following an AGMP when a pathogen or virus (e.g., COVID-19) has the
potential to be aerosolized during the procedure
The "settle time" is used to guide if a N95 respirator needs to be worn while in the
room or how long the room must sit before Housekeeping can begin cleaning. The
"settle time" should never impact patient care needs and should not delay essential
patient or staff movement in and out of the room.

How is the room "settle time" determined?
• To determine a specific "settle time" for a specific room, the number of Air Changes
per Hour (ACH) must be evaluated as each room can be different (size, temperature,
humidity, ventilation capacity, etc.). The higher the ACH, the less time is required for
settle time.

COVID-19

AGMP COMPLETED AT:

• If the number of ACH for the patient room is known, a specific "settle time" can be
calculated using this table (page 2) and posted (e.g., if the room has 12 ACH, the
"settle time” is 23 minutes). Then staff will know how long they must wear an N95
respirator or how long before Housekeeping can enter the room to clean.
o Please note: the number of ACH does not reflect the direction of airflow
(i.e., negative pressure vs positive pressure).
• If the number of ACH is unknown, the "settle time" for a patient room has been
determined to be 2 hours or 120 minutes.

m

seme time:
. MWlfTtt:
(» STTTUm« WTTKttWTWtEOUSE UBMJNUTI5)

SAFE TO ENTER ROOM AT:

A

smm&mtmua/covstts

IMPORTANT: Conditions that must be in place when using a specified "settle time"?
• Patient room door should remain completely closed, with the exception of essential patient/staff movement.
* Posters to be displayed on the door can be found on Saskatchewan.ca/covidl9-providers.
NOTE; A specified "settle time" cannot be used if there is a power outage
PLEASE BE ADVISED, specified "settle time" information has been provided to your unit due to extraordinary
circumstances and is only valid during the COVID-19 pandemic. Your unit will be notified of changes or when normal
time procedures must be resumed.
If you have any questions, please contact your local Infection Control Practitioner.

Saskatchewan
\ Health Authority

Saskatchewan.ca/CO\/ID19-prov$
Last updated: April 23,2020

82

205a

10/11/2020

Routine Practices and Additional Precautions for Preventing the Transmission of Infection in Healthcare Settings - Ganada.ca

Appendix VIII: Air changes per hour and time in minutes required for removal
efficiencies of 90%, 99% and 99.9% of airborne contaminants—

Air changes per hour and time in minutes required for removal
efficiencies of 90%, 99% and 99.9% of airborne contaminants1
Minutes required for each removal efficiency
Air changes per hour

90%

99%

99.9%

1

138

276

414

2

69

138

207

3

46

92

138

4

35

69

104

5

28

55

83

6

23

46

69

7

20

39

59

8

17

35

52

9

15

31

46

10

14

28

41

11

13

25

38

12

12

23

35

13

11

21

32

14

10

20

30

15

9

18

28

16

9

17

26

17

8

16

24

18

8

15

23

19

7

15

22

20

7

14

21

.................. :.............................................................................................................. 22 of 79..
https://www.canada.ca/en/public-health/services/pubiications/diseases-conditions/routine-practices-precautions-healthcare-associated-infections/part'...

83

i/2

206a

10/11/2020

Routine Practices and Additional Precautions for Preventing the Transmission of Infection in Healthcare Settings - Canada.ca

This table is prepared according to the formula t - (in C2/C1 )/(Q/V) = 60,
which is an adaptation of the formula for the rate of purging airborne
contaminants (100-Mutchler 1973) with t1 = 0 and C2/C1 = 1 - (removal
efficiency/100). Adapted from CDC Guidelines for preventing the
transmission Of Mycobacterium tuberculosis in health-care
facilities,! 994^.

23 of 79
https://www.canada.ca/en/public-health/service s/publications/diseases-conditions/routine-practices^precautions'healthcare-associated-infections/part-...

84

2/2

207a

fl

Saskatchewan
Health Authority

Title: Use of Settle Time/AGMPs (Aerosol Generating Medical
Procedure} Poster
Role performing Activity: Health care workers

WORK
STANDARD

Department/Unit:
Location:
All
COVID 19 Information Site
Date Prepared:
Document Owner:
Infection Prevention and Control
March 30, 2020
Date Approved: April 4,2020
Last Revision:
March 31,2020
Related Policies/Documentation:

Work Standard Summary: Use of AGMP (Aerosol Generating Medical
Procedure) in progress/Settle Time Two Sided Poster (CV-19 P0001)
♦Default settle time following AGMPs 120 minutes, until room specific times
determined by Facilities Management.
Essential Tasks:
1.

Hang AGMP in Progress/Settle Time 2 Sided Laminated Poster (CV-19 P0001) on dosed door
of room that AGMP is taking place with "DO NOT ENTER" side showing.
"DO NOT ENTER" side should Only be showing during the AGMP.

2.

Following completion of AGMP, turn AGMP in Progress/Settle Time 2 sided laminated poster
" side
over and hang qn closed door of patient room with "AGMP COMPLETED AT:
showing.

3.

Fill in time "AGMP completed at

4.

Fill in "Settle Time:

5.

Fill in "Safe to Enter Room at:

6.

Once settle time complete, erase time of "AGMP completed at
______ " and leave posted on closed door.

7.

If AGMP NOT in progress, leave "Settle Time" side showing.

using dry erase marker.

" (if room specific settle time not identified, use 120 minutes.

" and "Safe to Enter Room at

Supplies:
• AGMP (Aerosol Generating Medical Procedure) in Progress/Settle Time Two Sided Poster
• List of AGMP procedures
GV-19 WS0002 April 4, 2020

Page 1 of 1

24 of 79

85

208a

COVID-19
i.

NOVEL CORONAVIRUS (C0V1D49):
Interim Infection Prevention and Control Guidance
Outpatient and Ambulatory Care Settings

f

INFECTION PREVENTION AND CONTROL GUIDANCE
PATIENT SCREENING

•

Call and pre-screen patient* prior to and upon entry to facility for scheduled
appointment using SHA Inpatient. Outpatient and Continuing Care Screening Form

•

Consideration to reschedule appointments for patients that screen positive for
COVID-19 unless deemed medically necessary by most responsible provider (MRP)

PATIENT ACCESS
POINTS

M inimize the number of access points and ensure that partitions or clear
transparent barriers are placed in any areas where screening of staff, patients and
family members/support persons might occur
The physical layout should be adjusted to facilitate IPAC measures to prevent
transmission of COVID-19 (e.g., spacing chairs 2 metres apart in waiting rooms,
placing indicators on floors where queues may occur) and the volume and timing
of appointments should take into consideration available space (e.g, scheduled
appointments)
To reduce crowding, consideration should be given to asking patients and family
members/support persons to remain outside if appropriate (e.g., stay in their
vehicles) until they are called in for their appointment
Screening of all staff, patients, family members/support persons, contractors or
outside care providers for symptoms or known exposure to COVID-19 should be
conducted at all access points, prior to entry
Screeners should be provided with appropriate PPE (Refer to Continuous and
extended PPE use guidelines for Outpatient Settings/Primarv Health Care)
Alcohol based hand-rub (ABHR), tissues, masks and waste receptacles should be
readily available at each entrance
Encourage patients and family members/support persons to perform hand hygiene
and respiratory etiquette

HAND HYGIENE

•
•

0

Health care workers (HCWs) and visitors should perform hand hygiene according
to SHA Hand Hygiene Policy
Education should be provided to patients and visitors about how and when to
perform hand hygiene

POINT OF CARE RISK
ASSESSMENT (PCRA)

.*

Always perform a PCRA before every clinical encounter regardless of COVID-19
status: Point of Care Risk Assessment

PLACEMENT FOR
PATIENT WHO
SCREENS POSITIVE
FOR COVID-19
• NO AEROSOL
GENERATING
MEDICAL
PROCEDURE
(AGMP)
REQUIRED

•

Follow: Outpatient Clinic and Endoscopy Suite COVID-19 Algorithm for patients
who screen positive for COVID-19
o Place patient in a single room with hard walls, a door and private
bathroom (or commode)

Saskatchewan
Health Authority

o

«

If exam room not ready, direct patient to waiting room ensuring physical
distancing is in place. Consider asking patient to wait in vehicle, when
feasible

Droplet/Contact Plus*orecautions signage should be placed at the entrance to the
room

*in this document, the term "patient" is Inclusive of patient and client
Developed by SHA Infection Prevention and Control

86

saskatchewtw.ca/COVID19
CV-19 G0057 J

-"a®

209a

NOVEL CORONAVIRUS (COVID-19):
Interim Infection Prevention and Control Guidance
Outpatient and Ambulatory Care Settings

COVID-19

PERFORMING
AEROSOL
GENERATING
MEDICAL
PROCEDURES
(AGMPs)

•

Refer to Aerosol Generating Medical Procedures (AGMPsi List

•

AGMPs should be limited to those that are medically necessary. If possible, convert
to Metered Device Inhaler (MDI). Contact MRP regarding medical need to continue
CPAP and BiPAP
Limit the number of HCWs in the room

•
•
•
•

Place patient in a: private room with hard walls and a door. Ensure the door is
closed
if available, place patient in an Airborne Infection Isolation Room (AMR)
Droplet/Contact Plus*orecautiOns and Airborne precautions/aerosolize settle time
signage should be placed at the entrance to the room
Airborne precautions/aerosolize settle time should remain in place until after
AGMP has been performed and air settle time has been achieved. The settle time
should never impact patient care needs and should not delay essential patient or
staff movement in and out of the room

•

If the number of air changes per hour is unknown, then air settle time for a patient
room is 2 hours or 120 minutes

• If the number of air changes per hour is known, refer to Table 1
Table 1: Time in Minutes Needed (by number of air exchanges per hour) to Reduce Airborne
Contaminants by 99%. Adapted from Airborne Contaminant Removal -Centers of Disease
Control, USA
Air exchanges per
hour

99%

2

138

4

69

6

46

1?

73

15

18

20

14

•

Before air settle time has been achieved: Do NOT admit a new patient. If entering
room, wear an N95 respirator

»

After air settle time has been achieved: Airborne Precautions/aerosolize settle
time can be removed. N95 respirators are no longer required

Note: Some patients may require ongoing or continuous AGMPs (e.g,, CPAP, BiPAP,
Optiflowj. Under these circumstances airborne precautions sign/aerosolize settle time
must remain posted for the duration of the therapy and up until therapy has been
discontinued and air settle time has been achieved
CONTINUOUS MASK
USE

!5i Saskatchewan
Health Authority

•

Follow Continuous Masking Principles and Guidelines for use of masks by all health
care providers who work in an Outpatient or Ambulatory Care Center where there
will be direct or indirect contact with patients

*ih this document, the term "patient" is inclusive of patientand client
Developed.by sha Infection Prevention and Control

87

saskatchewon.ca/COVIDi9
CV-19 G0057

210a

COVID-19

NOVEL CORONAVIRUS (COVID-19):
Interim Infection Prevention and Control Guidance
Outpatient and Ambulatory Care Settings1

.»
c.

PERSONAL
PROTECTIVE
EQUIPMENT (PPE)

STAFF
ATTIRE/PERSONAL
ITEMS

•

For PPE requirements, refer to:
o

Continuous and Extended PPE Use Guidelines for Outpatient
Settings/Primarv Health Care

•

PPE should be put on prior to entering the patient's room

•

PPE to be removed before leaving the patient's room. EXCEPTION: When an AGMP
is performed, N95 respirator + facial/eye protection to be removed OUTSIDE of
room (or as per facility protocol)

•

Staff should refer to and follow the instructions for putting on (donning) and taking
off (doffing) PPE

•

Refer to Wavs to Stay Safe at Work and Frontline Worker Safety Guide

PATIENT
MOVEMENT/
TRANSPORT OUTSIDE
OF ROOM

Patient movement and/or transport should be restricted to essential tests and
procedures
When movement is required:
o

Notify the receiving area, before departure, of the need for
Droplet/Contact Plus*precautions

o

Use predetermined transport routes to minimize exposure for staff, other
patients and family member/support person

o

Staff must maintain Droplet/Contact Plus* precautions during patient
transport

If patient must leave their room for medically necessary tests, they should:
o
o

Perform hand hygiene
Put on a procedure mask on if tolerated

o

Minimize touching or contact of surfaces outside of room

If inter-facility transport is required, notify EMS and the receiving facility about
Droplet/Contact Plus* precautions prior to transport
PATIENT CARE ITEMS
AND EQUIPMENT

FAMILY
MEMBERS/SUPPORT
PERSONS

•

Use disposable equipment when possible

•

All reusable equipment and supplies, along with toys, electronic games, personal
belongings, etc., should be dedicated to the patient until discharge

•

If reusable equipment cannot be dedicated to a single patient, clean and disinfect
thoroughly with a low-level disinfectant before use on another patient

•

Items that cannot be appropriately cleaned and disinfected should be discarded
upon patient discharge or transfer

•

Family members/support persons to any healthcare facility will Only be permitted
for compassionate reasons as per the Family Member/Support Person Presence
Guidelines
If approved, family members/support persons will be screened using the Family
and Support Screening Tool

•

Saskatchewan
Health Authority

*ln this document, the term "patient" is inclusive of patient:and client
Developed by SNA Infection Prevention and Control

88

saskatchewan.ca/COVID19
CV-19 G0057 J
Page 3 of 5

1

211a

NOVEL CORONAVIRUS (COVID-19):
Interim Infection Prevention and Control Guidance
Outpatient and Ambulatory Care Settings

COVID-19

ENVIRONMENTAL
CLEANING AND
DISINFECTION

•

•

•

SH A approved ready-to-use disinfectant wipes with the recommended contact
time should be used to disinfect smaller patient Care equipment (e.g., blood
pressure cuffs, electronic thermometers, oximeters. Stethoscopes) after each use

•

All surfaces or items, outside of the patient room, which are touched by or in
contact with HCWs (e.g., computer carts, medication carts, charting desks or
tables, computer screens, telephones, touch screens) should be cleaned at least
daily and when soiled (Refer to WS0001 Electronic Devices Cleaning
Recommendations)

•

All central area surfaces that are considered "high-touch" (e.g., telephone, chair
arms, door handles and buttons, light switches, handwashing sink, bathroom sink,
toilet and toilet handles, grab bars, outside of paper towel dispensers) should be
cleaned and disinfected twice daily and when soiled
After discharge, transferor discontinuation of Droplet/Contact Plus* precautions,
follow your facility's cleaning protocol. Additional precaution signs should not be
removed until environmental cleaning has been completed

•

S

Cleaning/disinfection products registered in Canada with a Drug Identification
Number (DIN) and labelled as a broad-spectrum virucide are sufficient as long as
manufacturer's Instructions are followed (e.g., dilution,application and contact
time)
All patient exam room surfaces that are considered "high-touch" (e.g., examination
tables/bed, bedrails, bedside table, chair arms, charting desks or tables, touch
screens, keyboards, handwashing sink handles) should be cleaned and disinfected
between every patient

•

Outpatient and ambulatory care settings that are located in hospital facilities
should follow established environmental cleaning and disinfection policies and
procedures

UNEN AND DISHES

•

No special precautions are required; routine practices are sufficient

WASTE
MANAGEMENT

•

No special precautions are required; routine practices are sufficient

Saskatchewan
Health Authority

*ln this document, the term "patient" is inclusive of patient and client
Developedby SHA Infection Prevention and Control

89

Sttskotchewan.ca/COVIDIS
CV-19 60057
Page 4 of 5

Ju|v»P*3

r>

212a

COVID-19
Additional Resources:

NOVEL CORONAVIRUS (COVID-19):
Interim Infection Prevention and Control Guidance
Outpatient and Ambulatory Care Settings

Government of Saskatchewan website: Video: Correct Donning and Doffing of Personal Protective Equipment
infection Prevention and Control for Clinical Office Practice: Saskatchewan guideline
References
World Health Organization. Infection prevention and control during health care when COVID-19 is suspected.
Interim guidance [Internet]. Washington: World Health Organization; 2020 [cited 2020 Apr 30]. Available from:
https://www.who.int/publications-detaii/infection-Drevention-and-corttrol-during-health-care-when-novelcoronavirus-(ncov)-infection-is-suspected-20200125
Public Health Agency Of Canada. Infection prevention and control for COVID-19: second interim guidance for
acute healthcare settings [Internet]. Ottawa, ON: Government of Canada; 2020 [cited 2020 April 30], Available
from: https://www.canada.ca/en/public-health/services/diseases/2019-novel-Coronavirus-infection/healthprofessionals/infection-prevention-control-covid-19-second-interim-guidance.html
Public Health Agency of Canada. Infection prevention and control for COVID-19: interim guidance for outpatient
and ambulatory care settings [Internet], Ottawa, ON: Government of Canada; 2020 [cited 2020 June 5]. Available
from: https://www.canada.ca/en/public-health/services/diseases/2019-novel-coronavirus-infecfion/guidancedocuments/interim-guidance-outpatient-ambulatorv-care-settings.html
Alberta Health Services. Interim IPC recommendations COVID-19 [Internet], 2020 [cited 2020 May 20]. Available
from: https://www,albertahealthservices.ca/assets/healthinfo/ipc/hi-ipc-emerging-i5Sues-ncov.pdf
Ontario Agency for Health Protection and Promotion (Public Health Ontario). IPAC recommendations for use of
personal protective equipment for care of individuals with suspect or confirmed COVID-19. Technical brief
[Internet]. Toronto, ON: Queen's Printer for Ontario; 2020 [cited 2020 May 03]. Available from:
https://www.publichealthontario.ca/-/media/documents/ncov/updated-ipac-measures-covid-19.pdf?la=en
Provincial Infection Control Network of British Columbia (PICNet). 2019 novel coronavirus: aerosol generating
medical procedures in healthcare settings [Internet], BC: Government of British Columbia; 2020 [cited 2020 May
03], Available from: https://www2.eov.be,ca/assets/gov/health/about-bc-s-healfh-care-svstem/office-of-theprovincial-health-officer/reports-publications/covid-19-aerosol-generating-medical-procedures.pdf
Alberta Health Services. Response to media reports about COVID-19 virus being airborne [Internet]. 2020 [cited
2020 May 20]. Available from: https://www.albertahealthservices.ca/assets/info/ppih/if-ppih-covid-19-responseairbome.pdf

§■ Saskatchewan
Health Authority

*in this document, the term "patient" is inclusive of patient.and client
Developed by SHA Infection Prevention and Control

90

Saskatchewan. ca/CO VID19
CV-19 G0057

a

213a

COVID-19 and Aerosol Generating Medical Procedurf^f^GMP)
COVID-19
SHA AGMP Risk Stratification Algorithm

Aerosol Generating Medical Procedures (AGMP) List
Decision making about appropriate PPE selection requires use of the SHA AGMP Risk Stratification Algorithm
(attached). An N95 respirator is required when AGMP procedures are performed on CGVID-19 positive or high risk
patients. Standard protocols should be followed for AGMP procedures performed on low risk or COVID-19 negative
patients.
AGMP
v'
V
■S

✓

S
v'
•f

v’
•f

V

•S
v"

✓

v'

✓

V

intubation
Extubation
Code Blue
Non-invasive ventilation (e.g., CPAP,
BiPAP)
Manual ventilation
High-flow oxygen (i.e., AIRVO,
Optiflow)
Open suctioning (e.g. "deep"
insertion for naso-pharyngeal or
tracheal suctioning, not inclusive of
oral suction)(suggest avoid where
possible)
Bronchoscopy
Induced sputum (e.g. inhalation of
nebulized saline solution to liquify
and produce airway
secretions, not natural coughing to
bring up sputum)
Chest tube insertion for trauma
(where air leak likely) or tension
pneumothorax
Autopsy
Nasopharyngoscopy
Oral, pharyngeal, transphenoidal
and airway surgeries (including
thoracic surgery and tracheostomy
insertion),
Breath stacking
Cough assist device
High Frequency Ventilation

Not AGMP

Unclear AGMP Potential
The following situations require risk
stratification of the patient (refer to
SHA risk stratification algorithm*). In
intermediate or high risk of CO VID-19
treat os AGMP.
•
Ventilator circuit disconnect
(assuming filter in place)
•
Gastroscopy
•
ERCP
■ Transesophageal Echocardiogram
(TEE)
■
Nebulization

x
X

X
X
X

il X
|X

j!x
il X
X

X

X
X

X

i
X
X

Collection of nasopharyngeal or
throat swab
Chest tube removal or insertion
(unless in setting or emergent
insertion fOr ruptured
lung/pneumothorax)
Coughing
Oral suctioning
Oral hygiene
Colonoscopy
Laparoscopy (Gl/pelvic)
Cardiac stress tests
Caesarian section or vaginal delivery
of baby done with epidural
Any procedure done with regional
anesthesia
Nasogastric/nasojejunal
tube/gastrostomy/gastrojejunostomy
/jejunostOmy tube insertion
Bronchial artery embolization
Chest physiotherapy (outside of
breath stacking, cough assist or deep
suctioning)
Supplemental 02 up to ISL/min - can
include nonrebreather and venturi
mask delivery
Compression only CPR
AEO use

*SHA AGMP Risk Stratification Algorithm can be found below

fl

Saskatchewan
Health Authority

Revision Date: June 8, 2020.
30 of 79

91

(I

214a

SHA AGMP Risk Stratification Algorithm
gjf

am

gPitiskftllTsBi]

lirJH]

'

La .

V

/

NO

YES

I

HIGH RISK
(AGMP PPE lo be used)
» Vs

H Saskatchewan
« Health Authority

Revision Date: June 8. 2020
31 of 79

92

Additional material
from this filing is
available in the
Clerk's Office.

